<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF JUSTICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                            OVERSIGHT OF THE
                       U.S. DEPARTMENT OF JUSTICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 8, 2019

                               __________

                            Serial No. 116-3

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
         
         


        Available http://judiciary.house.gov or www.govinfo.gov
        
        
                              _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
36-001                     WASHINGTON : 2019            
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              

                            FEBRUARY 8, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, a Representative in the Congress 
  from the State of New York, and Chairman, Committee on the 
  Judiciary......................................................     2
The Honorable Doug Collins, a Representative in the Congress from 
  the State of Georgia, and Ranking Member of the Committee on 
  the Judiciary..................................................     9

                                WITNESS

Matthew G. Whitaker, Acting Attorney General, U.S. Department of 
  Justice
    Oral Testimony...............................................    16
    Prepared Statement...........................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

A letter with questions for the record from the Honorable Jerrold 
  Nadler, a Representative in the Congress from New York, and 
  Chairman, Committee on the Judiciary...........................     5
A letter for the record from the Honorable Doug Collins, A 
  Representative in the Congress from Georgia, and Ranking 
  Member, Committee on the Judiciary.............................    10
Articles for the record from the Honorable David N. Cicilline, A 
  Representative in the Congress from the State of Rhode Island..    66
The Constitution of the United States of America for the record 
  from the Honorable Ted Lieu, a Representative in the Congress 
  from the State of California...................................    96
An article for the record from the Honorable Mary Gay Scanlon, a 
  Representative in the Congress from the State of Pennsylvania..   111
A case in the U.S. District Court for the Eastern District of 
  Michigan, Southern Division from Mary Gay Scanlon, a 
  Representative in the Congress from the State of Pennsylvania..   114
Articles for the record from the Honorable Sylvia Garcia, a 
  Representative in the Congress from the State of Texas.........   122
Internal Revenue Code for the record from the Honorable Debbie 
  Mucarsel-Powell, a Representative in the Congress from the 
  State of Florida...............................................   161
Questions for the record from the Honorable Sheila Jackson Lee, a 
  Representative in the Congress from the State of Texas.........   167
Articles for the record from the Honorable Shelia Jackson Lee, a 
  Representative in the Congress from the State of Texas.........   171

                                APPENDIX

An article for the record entitled, Texas Border Sherriffs: There 
  Is No Crisis and We Don't want Trump's Wall....................   189
An article for the record entitled, Mueller's investigation of 
  Trump is going too far.........................................   196


              OVERSIGHT OF THE U.S. DEPARTMENT OF JUSTICE

                              ----------                              


                        FRIDAY, FEBRUARY 8, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The committee met, pursuant to call, at 9:30 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Lieu, Raskin, Jayapal, Demings, Correa, 
Scanlon, Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-
Powell, Escobar, Collins, Chabot, Gohmert, Jordan, Ratcliffe, 
Roby, Biggs, McClintock, Lesko, Reschenthaler, Cline, and 
Armstrong.
    Staff Present: Perry Apelbaum, Staff Director; David 
Greengrass, Senior Counsel; Susan Jensen, Parliamentarian; Arya 
Hariharan, Counsel; Aaron Hiller, Oversight Counsel; Lisette 
Morton, Director of Policy, Planning and Member Services; 
Elizabeth McElvein, Clerk; Rosalind Jackson, Professional Staff 
Member; Brendan Belair, Minority Staff Director; Bobby 
Parmiter, Minority Deputy Staff Director/Chief Counsel; Jon 
Ferro, Minority Parliamentarian; Carlton Davis, Minority Chief 
Oversight Counsel; Ashley Callen, Minority Counsel; Ryan 
Breitenbach, Minority Chief Counsel, National Security; Alley 
Adcock, Minority Chief Legislative Clerk; Ella Yates, Minority 
Director of Member Services and External Affairs; and Jess 
Andrews, Minority Communications Director.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the committee at any time. We welcome everyone to 
this morning's hearing on Oversight of the Department of 
Justice, and we welcome our witness, the Acting Attorney 
General of the United States Matthew Whitaker.
    Before we turn to the business at hand, I want to take a 
moment to comment on the passing of our friend and former 
colleague Chairman John Dingell of Michigan. Representative 
Dingell was elected to Congress in 1955 and went on to become 
the longest serving Member of Congress in the history of the 
United States and, by virtue of enduring accomplishment, one of 
the greatest. He was a presence in the hearing room, a 
determined investigator, and a true believer in congressional 
oversight. He loved the House of Representatives. We remember 
him for his humor, his charm, his unshakeable integrity, and, 
of course, his fantastic Twitter account. Our thoughts are with 
our colleague Debbie Dingell and the entire Dingell family. 
Chairman Dingell will be missed.
    Mr. Collins. Mr. Chairman, can I just echo that as well, 
and you know, for Mr. Dingell's service and also with our 
colleague Debbie during this time. Our thoughts and prayers are 
with them, and the service that he rendered, I will agree with 
you on that.
    Chairman Nadler. I thank you. I will now recognize myself 
for an opening statement.
    Mr. Whitaker, I want to begin my remarks by commending the 
tradition of independent law enforcement at the Department of 
Justice. As you and I both know, it is the career officials at 
the Department, the FBI, and the U.S. attorneys' offices whose 
commitment to the rule of law protects our democracy. Given the 
focus of this hearing, I therefore feel compelled to single out 
for praise the career ethics officials who helped you 
transition into your role as Acting Attorney General.
    On December 20th, in a letter from the Department meant to 
justify some of the decisions we will examine here today, 
Congress learned the following, quote: In a meeting with the 
Acting Attorney General's senior staff, ethics officials 
concluded that if a recommendation were sought, they would 
advise that the Acting Attorney General should recuse himself 
from supervision of the special counsel investigation because 
it was their view that a reasonable person with knowledge of 
the relevant facts likely would question the impartiality of 
the Acting Attorney General, close quote.
    In other words, even though you apparently did not ask for 
their advice on this topic, these career officials went out of 
their way to tell you that your many past public--many public 
past criticisms of the special counsel's investigation were 
grounds for you to step aside. They insisted that your recusal 
would have been right for the Department and good for the 
country. They gave you this advice with no guarantee that their 
jobs would be protected 2 years into an administration 
distinguished for firing officials of the Department and the 
FBI who offended the President. They did so knowing that 
Attorney General Sessions had just been removed for no reason 
other than following their guidance 2 years earlier. Their 
advice to you is an act of bravery. It is worthy of the best 
tradition of independence and integrity at the Department of 
Justice. But in my view, your conduct, including your decision 
to ignore important ethics advice when you became Acting 
Attorney General no matter the consequences, falls well short 
of the mark.
    Before you joined the Department of Justice as chief of 
staff to former Attorney General Sessions, you were the sole 
full-time employee of the Foundation for Accountability and 
Civic Trust. Your organization has been described by 
Republicans as, quote, a chop shop for fake ethics complaints, 
unquote, against Democratic politicians. FACT, as it is called, 
also funded your appearances in print and on cable television 
in the years leading up to your tenure at DOJ. These media 
appearances--and this is why this is relevant--have become the 
cause of much concern. One month before you joined the 
administration, you wrote a column titled, quote, ``Mueller's 
investigation of Trump is going too far,'' unquote. You stated 
that the investigation was, quote, a lynch mob. You warned of 
serious consequences if the special counsel were to examine the 
President's personal finances. You suggested that the special 
counsel's budget should be squeezed until its investigation, 
quote, grinds to almost a halt, unquote.
    Like everyone else at the Department of Justice, you are 
entitled to your own political opinions. This committee should 
not be in the business of vilifying government personnel for 
their private views, particularly when the Department takes 
steps to mitigate even the appearance of a conflict of interest 
in an ongoing investigation. But when career officials of the 
Department recommended that you take steps to mitigate your 
apparent conflicts of interest, when they told you that your 
public criticism of the special counsel was bad for the 
Department and bad for the administration of justice, you 
ignored them. You decided that your private interest in 
overseeing this particular investigation and perhaps others 
from which you should have been recused was more important than 
the integrity of the Department.
    The question that this committee must now ask is, why? Why 
did President Trump choose to replace Attorney General Sessions 
with an outspoken critic of the special counsel instead of with 
any number of qualified individuals who had already received 
Senate confirmation? Why did you ignore the career officials 
who went to extraordinary lengths to tell you that your 
continued involvement in the special counsel's work would 
undermine the credibility of the Department of Justice? Why did 
you choose to comment at length on the substance of the special 
counsel's investigation at a January 29th press conference? Is 
it true that you have been, quote, fully briefed, unquote, on 
the investigation and that the special counsel's work is, 
quote, close to being completed, unquote? And why did President 
Trump leave you running the Department in an acting capacity as 
long as he did? What did he hope to get out of it? What did you 
provide?
    The committee is determined to find the answers to these 
questions today. To that end, we have taken certain steps to 
ensure your cooperation with members on both sides of the 
aisle. First, although I am pleased you eventually agreed to 
appear here voluntarily, the committee has authorized me to 
issue a subpoena to compel your testimony if necessary.
    The Ranking Member will no doubt argue that the subpoena 
threat was a mistake, but as you know, I gave you no assurances 
until after you agreed to appear today. Given our concerns 
about your attendance until late last night, our taking steps 
to ensure your appearance seems perfectly appropriate.
    Now that you are here and prepared to testify, I agree 
there is no need for us to resort to that measure for now.
    I nonetheless am concerned by some of the arguments the 
Department raised in a lengthy letter we received late 
yesterday. I very much doubt, for example, that any privilege 
attaches to communications about criminal investigations where 
the President, his campaign, his business, and his close 
associates are subjects and, in some cases, targets of the 
investigation.
    I also take issue with your written testimony, which we did 
not receive until almost midnight last night, when you suggest 
that you, quote, will continue the longstanding executive 
branch policy and practice of not disclosing information that 
may be subject to executive privilege, close quote. In other 
words, you reserve the right to refuse to answer the question 
forever. That is not how it works.
    Nearly 3 weeks ago, I provided you with a list of questions 
related to communications you may have had with the White House 
about the circumstances of your hiring, the termination of Mr. 
Sessions, and any insight you may have into the special 
counsel's investigation, among other topics. I gave those 
questions in advance so that you would have time to consult 
with the White House on any possible question of executive 
privilege.
    I understand that you may disagree with the committee about 
your responsibility to undertake that review and, as a 
consequence, you may not fully respond to every question we ask 
today.
    As we discussed, I am willing to work with the Department 
on those disagreements on a case-by-case basis, but I take your 
reluctance to answer questions about these communications as a 
deeply troubling sign. When our members ask if you conveyed 
sensitive information to the President or ignored ethics advice 
at the direction of the President or worked with the White 
House to orchestrate the firing of your predecessor, the answer 
should be no.
    Your failure to respond fully to our questions here today 
in no way limits the ability of this committee to get the 
answers in the longer run, even if you are a private citizen 
when we finally learn the truth, and although I am willing to 
work with the Department to obtain this information, I will now 
allow that process to drag out for weeks and months. The time 
for this administration to postpone accountability is over.
    It is my intent that there be no surprises today. We have 
laid all of the groundwork for this hearing out in the open. We 
have given you months to prepare. We have publicly documented 
every request we have made. We have provided our Republican 
colleagues with a meaningful opportunity to weigh in on the 
process. We have nothing to hide from you or anyone else. We 
hope you have nothing to hide from us. Despite the ethics 
advice you were given, Mr. Whitaker, you insisted on remaining 
in charge of the special counsel's investigation, a job that 
comes with the responsibility to protect the special counsel 
until his work is complete. Your testimony here today is vital 
to that responsibility and to our shared responsibility to find 
the truth, to protect the Department, and to follow the facts 
and the law to their conclusion. Thank you.
    It is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    [The statement of Chairman Nadler follows:]
      

                     CHAIRMAN NADLER FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Collins. Thank you, Mr. Chairman.
    And thank you, Acting Attorney General, for being here.
    But I would like to thank--I will start off this way--and I 
would like to thank the Chairman for a show of honesty. We now 
have the reason for this hearing. It has nothing to do with the 
oversight of DOJ. It has everything to do as we found out this 
morning in a document dump from the Democratic side of this 
committee and also another committee that this is nothing more 
than a character assassination, and we are going to also decide 
to see if we can just do something and get at the President 
while we have the chance.
    Yesterday--I want to tell you a story. My kids are now 
grown. They are 26 and down to 20, and I used to always love 
the Easter season and the time of the especially hide and seek 
and going to find, you know, eggs and that look on their face 
when they found that last egg they were looking for and just 
that look of surprise. And yesterday was that for me again. I 
was back being a father again because yesterday was nothing but 
pure political theater. It was wonderful. It was a time for 
hide and seek.
    The Chairman had a hearing: Let's do a subpoena; we are 
going to stand tough.
    And let's just do the timeline real quick. We get through 
with it, and as I had warned this committee, a preemptive 
subpoena was not a good idea. It chills all other witnesses 
coming before this committee and will probably have a 
detrimental effect to the Acting Attorney General. But, hey, I 
am the minority; who cares?
    So, we do it. And the Acting Attorney General's Office 
responded. And at about 5 o'clock, the Chairman sent a letter 
saying: We know we will examine it on a case-by-case basis.
    The Acting Attorney General said: No, we need assurances 
that you are not going to issue a subpoena today or yesterday 
or today.
    So okay. We are back and forth. DOJ, as is our 
understanding, said: No, that is not enough assurance.
    And we were informed around a certain time last night, 
about 7 o'clock last night, that an agreement had been made, 
and it was a full cave by the Committee Chairman: no subpoenas 
today.
    So everything that we did earlier in the day was a complete 
waste of time.
    Now, what was even worse about this--and let's talk about, 
you know, Twitter accounts--last night around 8 o'clock, the 
Chairman's Twitter account said the Acting Attorney General is 
going to show up today at 9:30.
    The interesting thing about that is they linked to the 5 
o'clock letter, not this letter, which I ask now to be admitted 
to the record, which by the way, I was cc'd on but never--you 
know, I guess we are going to put this into the record now, the 
letter to the Acting Attorney General in which the Chairman of 
this Committee says there will be no subpoena tomorrow, and any 
differences we have we will work on later. And I ask unanimous 
consent that be entered into the record.
    Chairman Nadler. Without objection.
    [The information follows:]
      

          MR. COLLINS, RANKING MEMBER FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Collins. So, at 8 o'clock, we decide to send out a 
tweet to the world, which many in the media, by the way, picked 
up on, and they were running stories today saying the reason 
the Judiciary chairman wins: The Attorney General is coming; he 
doesn't have assurance.
    No, he does. Right here. There is going to be no subpoena 
today.
    So, when we talk about transparency, which was so evident 
yesterday, now we get to the real meat of the issue. It is also 
amazing to me, as I said yesterday, when you come here and you 
put an issue of this hearing, yet, on Thursday, Bill Barr was 
approved out of the Senate Judiciary Committee. By next 
Thursday, he will be the Attorney General. This gentleman right 
here is finishing up the last term of Acting Attorney General. 
He is willingly--was willing to come, but yet we had the 
charade yesterday. This hearing is pointless and basically was 
made even more pointless by the Chairman's opening statement.
    This is not about what the good men and women at the 
Department of Justice are doing. This is not about FBI agents 
are doing their job. It could be about the FBI agents that we 
on our side have talked about that didn't do their job, and we 
will probably hear a lot about that today. There is plenty of 
frustration of issues of DOJ oversight.
    But, sir, I am not sure, frankly, that the oversight of 
your financial situation from 2014 to 2016 has anything to do 
with this hearing. It is beyond the scope of this hearing.
    So, if this is what we are going to do, if this is where we 
are going, then I want to remind everyone that this is not the 
Senate. If my friends on the other side of the aisle of this 
committee wanted to do a confirmation hearing, they just ought 
to said it up front, and if they want to do a confirmation 
hearing as Senators, run for Senate. This is not a confirmation 
hearing. This is a Department of Justice oversight hearing, 
supposedly. Oops, oops, I am sorry. Back to theatrics again. 
The curtain opened up, and we found out what was really going 
on. No, we want to damage the President. We want to talk about 
your private conversations. We want to talk about what you did 
and why the President--the most amazing quote I just heard a 
moment ago: We want to know why the President may have put you 
there for what--that is offensive.
    When we look at this and we go through this, Mr. Whitaker, 
there are a lot of issues that we have discussed personally and 
also as far as knowing this and discussing things that we could 
do as oversight, that frankly, on our side, we are frustrated 
with, and that is going to come out today. But for the chairman 
to do what we did yesterday, to have this hide-and-seek game, 
to play it all, and then to willingly mislead the press and 
everybody else to think you are coming here today because of a 
partial assurance, not a full-blown cave, which is exactly what 
happened in this letter, is a travesty not only to this 
committee but to the people watching and the reporters who 
thought it was real.
    When we look forward into this hearing today, it is time on 
this one, if this is the way we are going to go, then we will 
have plenty of stunts. We are going to have plenty of 
theatrics. Bring your popcorn. I am thinking about maybe we 
just set up a popcorn machine in the back because that is what 
this is becoming. It is becoming a show.
    When your presence was here, you were coming voluntarily. 
You have always said you are coming voluntarily. So we had the 
show yesterday. We now have had the curtain dropped down, and, 
Mr. Whitaker, I guess your confirmation hearing is here. You 
only have 5 days left on the job or 6 days left on the job.
    We could join together with the Chairman and say, Mr. Barr, 
come in here because you have been--actually the Attorney 
General, Mr. Barr has been the Attorney General, and he has 
been before this committee before. We could have had 
substantive hearings, but no, we are going to have a show, a 
dog-and-pony show. Let's get it out.
    This is the most amazing thing when--you know, but I go 
back to something--sometimes as a father--I started this as a 
father; I am going to end it as a father--I would give my kids 
advice, and they would look at me like, ``Dad, I love you,'' 
but then they give me that sort of dog look: I don't believe 
you.
    You know what the sad part about this is? We predicted it 
all yesterday. We knew what was coming. The sad part about it 
is, is the chairman chose to play hide and seek. He chose to 
cave at the end, and by the way, still not have open and 
transparency. I am glad we did, glad we got it now, but this is 
no way to run the railroad, and it is definitely no way to run 
one of the most prestigious committees in this House. And this 
is something that everyone should be concerned about.
    There is enough at DOJ for us to do oversight on, but, Mr. 
Whitaker, this is your life, like the old TV show. They just 
want a piece of you.
    Mr. Collins. And, with that, Mr. Chairman, pursuant to 
clause 4, rule XVI, I do now move to adjourn.
    Chairman Nadler. A motion to adjourn has been made.
    Motion is to adjourn and not debatable.
    All in favor of the motion to adjourn, say aye.
    Opposed, nay.
    The noes have it.
    Mr. Collins. Roll call.
    Chairman Nadler. Roll call has been requested.
    Where is the clerk? If the clerk is here, she will call the 
roll. We will wait a moment for the clerk. Where is the clerk?
    Voice. Mr. Chair----
    Chairman Nadler. The roll call is in progress.
    The clerk is prepared. The clerk will call the roll.
    Ms. McElvein. Mr. Chairman?
    Chairman Nadler. No.
    Ms. McElvein. Mr. Chairman votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. McElvein. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. McElvein. Ms. Jackson Lee votes no.
    Mr. Cohen?
    Mr. Cohen. No.
    Ms. McElvein. Mr. Cohen votes no.
    Mr. Johnson?
    Mr. Johnson of Georgia. No.
    Ms. McElvein. Mr. Johnson votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. McElvein. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. McElvein. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. McElvein. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. McElvein. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. So we may continue to pursue the truth, I 
vote no.
    Ms. McElvein. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. McElvein. Mr. Swalwell votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. McElvein. Mr. Lieu votes no.
    Mr. Raskin?
    Mr. Raskin. No.
    Ms. McElvein. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. McElvein. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. McElvein. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. McElvein. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. McElvein. Ms. Scanlon votes no.
    Ms. Garcia?
    Ms. Garcia. No.
    Ms. McElvein. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. McElvein. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. McElvein. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. McElvein. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. McElvein. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. McElvein. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. McElvein. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Yes.
    Ms. McElvein. Mr. Collins votes yes.
    Mr. Sensenbrenner?
    [No response.]
    Ms. McElvein. Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. McElvein. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. McElvein. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. McElvein. Mr. Jordan votes yes.
    Mr. Buck?
    [No response.]
    Ms. McElvein. Mr. Ratcliffe?
    [No response.]
    Ms. McElvein. Mrs. Roby?
    [No response.]
    Ms. McElvein. Mr. Gaetz?
    [No response.]
    Ms. McElvein. Mr. Johnson?
    [No response.]
    Ms. McElvein. Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. McElvein. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. McElvein. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. McElvein. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    [No response.]
    Ms. McElvein. Mr. Cline?
    Mr. Cline. Aye.
    Ms. McElvein. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. McElvein. Mr. Armstrong votes aye.
    Mr. Steube?
    [No response.]
    Ms. McElvein. Are there any other members wishing to vote?
    Chairman Nadler. Haven't voted? The gentleman from Texas.
    Mr. Ratcliffe. Yes.
    Chairman Nadler. Are there any other members who wish to 
vote who haven't voted?
    Ms. McElvein. Mr. Ratcliffe votes aye.
    Chairman Nadler. The clerk will report.
    Ms. McElvein. Mr. Chairman, there are 24 noes and 10 ayes.
    Chairman Nadler. The motion to adjourn is not approved.
    I will now introduce today's witness. Matthew G. Whitaker 
is the Acting Attorney General of the United States. 
Previously, Mr. Whitaker served as Chief of Staff to Attorney 
General Jeff Sessions. He was appointed as the U.S. attorney 
for the Southern District of Iowa on June 15, 2004, by 
President George W. Bush. Before that, he was a managing 
partner of the Des Moines-based law firm Whitaker Hagenow & 
Gustoff LLP. He was also the executive director for FACT, the 
Foundation for Accountability and Civic Trust, between 2014 and 
2017. Mr. Whitaker graduated with a Master of Business 
Administration, Juris Doctor, and Bachelor of Arts from the 
University of Iowa. We welcome Mr. Whitaker, and we thank him 
for participating in today's hearing.
    Now, if you would please rise, I will begin by swearing you 
in.
    Raise your right arm. Do you swear or affirm under penalty 
of perjury that the testimony you are about to give is true and 
correct to the best of your knowledge, information, and belief, 
so help you God?
    Mr. Whitaker. So help me God.
    Chairman Nadler. Thank you.
    Let the record show that the witness answered in the 
affirmative.
    Thank you, and please be seated. Please note that your 
written testimony will be entered into the record in its 
entirety. Accordingly, I ask that you summarize your testimony 
in 5 minutes. To help you stay within that time, there is a 
timing light on your table. When the light switches from green 
to yellow, you will have 1 minute to conclude your testimony. 
When the light turns red, it signals the time has expired.
    Mr. Whitaker.

  TESTIMONY OF MATTHEW G. WHITAKER, ACTING ATTORNEY GENERAL, 
              UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Whitaker. Thank you, Mr. Chairman and Ranking Member 
Collins, for the opportunity to testify before the committee 
today. I am looking forward to discussing with you some of the 
accomplishments and priorities of the Department of Justice.
    Before I start, I would also like to acknowledge the 
passing of former Chairman Dingell. He was a statesman and a 
leader, and it is a sad day on this committee, I am sure.
    First of all, let me say that it is an honor to represent 
the 115,000 men and women of the Department of Justice. The 
Department is blessed with extremely talented, highly 
principled public servants who are dedicated to upholding our 
great Constitution and the laws of the United States. I saw 
that up close during my 5 and a half years as United States 
attorney for the Southern District of Iowa. Our office put 
criminals behind bars, and we kept the people of Iowa safe. I 
personally prosecuted several important criminal cases and 
worked with the men and women of the ATF, DEA, FBI, and U.S. 
Marshals Service and our State, local, and Federal partners. It 
was a privilege.
    In 2017, I returned to the Department and served for 13 
months as chief of staff to former Attorney General Jeff 
Sessions, a man for whom I have great respect. He led the 
Department with integrity, with dedication to the rule of law, 
and with a commitment to carrying out the policies of the 
President of the United States. I am deeply honored that the 
President selected me to continue this work at the Department.
    The Senate will soon consider the President's nomination 
for our next Attorney General, and let me just say this: No one 
is more qualified than Bill Barr. I am working to ensure that 
he will inherit a strong, confident, and effective Department 
of Justice, and I believe that he will.
    For the last 3 months, I have had the privilege of serving 
as Acting Attorney General, and I am impressed every single day 
by the dedication and hard work of our agents, our attorneys, 
and our support staff.
    Over this time, I have visited a number of our offices and 
met with Federal prosecutors from across the country. For 
example, in December, we held our Project Safe Neighborhoods 
conference where employees from nearly every U.S. attorney's 
office and hundreds of our State and local partners celebrated 
our successes and reductions in violent crime.
    Our hard work is paying off. I firmly believe that your 
constituents are safer because of the work that we have done 
over the past 2 years. Under this administration, crime is down 
and police morale is up. In fiscal year 2017, the Justice 
Department charged the largest number of violent crime 
defendants since we started to track this category back when 
Bill Barr was Attorney General the last time. And then, in 
fiscal year 2018, we broke that record again by a margin of 
nearly 15 percent. We also charged more defendants with gun 
crimes than ever before. In fact, we broke that record by a 
margin of 17 percent.
    The Department has also banned bump stocks, improved the 
background check system, and prosecuted those who lied to get a 
gun. Our work is having an impact. In 2017, after 2 years of 
increases under the previous administration, violent crime and 
homicide rates went down nationwide. We do not have official 
numbers yet for 2018, but one estimate projected that the 
murder rate in our 29 biggest cities would drop by 7.6 percent. 
Those are real lives being saved.
    Much of the crime in this country is related to drug abuse 
and drug trafficking, but under this administration, 
prescriptions for the seven most frequently abused prescription 
drugs are down more than 21 percent to the lowest level in at 
least a decade. At the same time, the DEA has lowered the legal 
limits on production of the active ingredients in these 
prescription opioids by 47 percent since 2016.
    And there is no doubt in the law enforcement community that 
the vast majority of the illegal drugs in this country are 
coming through our southern border. There is also no doubt that 
criminals and cartels seek to exploit weaknesses in our 
southern border for their own profits and purposes, including 
by subjecting women and children to dangerous and unspeakable 
conditions in an attempt to smuggle them into the United 
States. And, of course, the dangers of our porous southern 
border become all more apparent every time an illegal alien 
causes harm or death to an innocent American across this 
country, such as what happened to an outstanding young woman 
from my home State, Sarah Root. For this reason and for others, 
we continue our efforts to restore the rule of law at the 
border and in our immigration system.
    In fiscal year 2018, we charged more defendants with 
illegal entry than in any other year in American history. In 
fact, we charged 85 percent more defendants with illegally 
entering America than we did the previous year. At the same 
time, we increased the number of felony illegal reentry 
prosecutions by more than 38 percent. Whatever our views on 
immigration policy, we should all be opposed to illegal 
immigration, and we should support these efforts.
    The Department is also taking decisive action against human 
trafficking, both domestically and internationally. Human 
traffickers, like other criminal enterprises, take advantage of 
our southern porous border to smuggle women and children into 
the United States to exploit them. We are bringing prosecutions 
to dismantle transnational trafficking networks that lure 
victims across our borders and traffic them for profits.
    Last year, the Department of Justice secured a record of 
526 human trafficking convictions, a 5-percent increase from 
the previous year. The Department is also doing its part to 
aggressively prosecute hate crimes. Under this administration, 
we indicted 50 hate crime defendants and obtained 30 hate crime 
convictions in fiscal year 2018. In November, the Department 
provided election monitoring at polling places around the 
country. Our Civil Rights Division deployed personnel to 35 
districts in 19 States to monitor for compliance with Federal 
voting rights laws. Our public integrity section prosecutor 
served as subject-matter experts for Federal prosecutors and 
investigators nationwide working with the FBI at the strategic 
information and operations center.
    Over my time as Acting Attorney General, I have done 
everything in my power to continue regular order at the 
Department of Justice. The Department has continued to make its 
law enforcement decisions based upon the facts and the law of 
each individual case in accordance with established Department 
practices and independent of any outside interference. At no 
time has the White House asked for, nor have I provided, any 
promises or commitments concerning the special counsel's 
investigation or any other investigation.
    Since becoming Acting Attorney General, I have run the 
Department of Justice with fidelity to the law and to the 
Constitution. During my time as the leader of the Department of 
Justice, the Department has complied with the special counsel 
regulations, and there has been no change in how the Department 
has worked with the Special Counsel's Office.
    Over the past day, the Department and the committee have 
exchanged letters concerning the respective prerogatives of the 
legislative and executive branches. I am pleased that we are 
able to reach an agreement that allows me to appear here 
voluntarily. I am pleased also that we agreed that each branch 
would seek to accommodate each other and that if we have 
differences, we will try to work them out in good faith before 
resorting to subpoenas or other formal legal processes.
    I will answer the committee's questions as best I can, but 
I will continue the longstanding executive branch practice of 
not disclosing information that may be subject to executive 
privilege, such as the contents of conversations with the 
President. As the Supreme Court has recognized, this executive 
privilege is fundamental to the operation of government and 
inextricably rooted in the separation of powers under the 
Constitution.
    I have spent nearly one third of my professional career at 
the Department of Justice, and I am personally committed to its 
success and integrity. I hope that today's hearing will be 
constructive and help us partner together to address the 
priorities of the American people. The men and women of this 
Department are proud of our accomplishments, but we know that 
Congress can help us to achieve even more. And as our agents 
and our prosecutors have shown you again and again, they 
deserve your support. Thank you once again for the opportunity 
to testify today and for your attention to the matters facing 
the Department of Justice.
    [The statement of Mr. Whitaker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. Thank you for your testimony.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    Now, we fully intend to examine substantive questions of 
Department policy, but part of our job is to make sure that 
core investigations at the Department have not been 
compromised.
    So, at a press conference last week, sir, you said that you 
have been fully briefed on the special counsel's investigation. 
I would like to better understand that comment. Yes or no, 
since your appointment as Acting Attorney General, have you 
been briefed on criminal or counterintelligence matters within 
the special counsel's purview?
    Mr. Whitaker. Chairman, thank you for that question. As you 
know, I cannot talk about ongoing investigations.
    Chairman Nadler. You can say whether you have been briefed 
or not.
    Mr. Whitaker. And as you commented about my recent press 
conference as it relates to the special conference--the special 
counsel's investigation, I have been briefed on it.
    Chairman Nadler. So the answer is yes. Thank you. Were you 
briefed on those matters at any point while you were serving as 
chief of staff to Attorney General Sessions?
    Mr. Whitaker. Chairman, I know you are very interested in 
the special counsel's investigation, and so I want to be very 
clear about this: Because General Sessions was recused from the 
special counsel's investigation, I had no involvement in the 
special counsel's investigation.
    Chairman Nadler. So the answer is no. So the answer is no. 
Thank you.
    How many times were you briefed about the special council's 
work, and when did the briefings take place?
    Mr. Whitaker. Mr. Chairman, I have said all that I am 
planning on saying about the number of times or the briefings 
that I received on the special counsel's investigation. It is 
the subject matter of an ongoing investigation. I think it 
would be very improper for me as I sit here today to talk any 
more about it.
    Chairman Nadler. Wait a minute. Whether you were briefed is 
the subject of an ongoing investigation? I didn't follow that.
    Mr. Whitaker. No, the number of times I have been briefed 
and my involvement in the investigation, sir.
    Chairman Nadler. Well, it is our understanding that at 
least one briefing occurred in December before your decision 
not to recuse yourself on December 19th and Christmas day. Is 
that correct?
    Mr. Whitaker. What is the basis for that question, sir?
    Chairman Nadler. Yes or no, is it correct?
    Mr. Whitaker. Well, I mean----
    Chairman Nadler. It is our understanding that at least one 
briefing occurred between December--between your decision not 
to recuse yourself on December 19th and 6 days later, Christmas 
day. Is that correct? Simple enough question, yes or no.
    Mr. Whitaker. Mr. Chairman, I, again, what is the basis for 
your question? You are saying that it is your understanding----
    Chairman Nadler. Sir, I am asking the questions. I only 
have 5 minutes, so please answer yes or no.
    Mr. Whitaker. No, Mr. Chairman. I am going to--you are 
asking me a question it is your understanding. Can you tell me 
where you get the basis?
    Chairman Nadler. No, I am not going to tell you that. I 
don't have time to get into that. I am just asking you if that 
is correct or not. Is it correct? Were you briefed in that time 
period between December 19th and Christmas day? It is a simple 
question, yes or no.
    Mr. Whitaker. Congressman, if every member here today asked 
questions based on their mere speculation----
    Chairman Nadler. All right. Never mind----
    Mr. Whitaker [continuing]. Factual basis, that would be 
very difficult for me to answer.
    Chairman Nadler. At any point--yes or no--yes or no, at any 
point since that briefing have you communicated any information 
you learned in that briefing to President Trump?
    Mr. Whitaker. Mr. Chairman, I know that there is a----
    Chairman Nadler. It is a yes-or-no question.
    Mr. Whitaker [continuing]. Unique and special interest in 
this. I am sorry.
    Chairman Nadler. It is a yes-or-no question. Have you 
communicated anything you learned in that briefing about the 
investigation to President Trump, yes or no?
    Mr. Whitaker. Mr. Chairman, as I have said earlier today in 
my opening remarks, I do not intend today to talk about my 
private conversations with the President of the United States. 
But to answer your question, I have not talked to the President 
of the United States about the special counsel's investigation.
    Chairman Nadler. So the answer is no. Thank you.
    To any other White House official?
    Mr. Whitaker. Again, Mr. Chairman, as I mentioned in my 
opening statement, I do not intend today to talk about my 
private conversations with the President nor White House 
officials, but I will tell you, consistent with what I have 
already said, I have not talked about the special counsel's 
investigation with senior White House officials.
    Chairman Nadler. Okay. To any third party not already 
briefed about the special counsel's investigation who might 
have conveyed that information to the President or his legal 
team?
    Mr. Whitaker. Who do you consider third-party individuals?
    Chairman Nadler. It is really for your consideration. To 
any third party not already briefed about that investigation 
who might have conveyed--who you think might have conveyed that 
information to President Trump or his legal team?
    Mr. Whitaker. Third persons who I think may have conveyed 
that information?
    Chairman Nadler. Yes, yes.
    Mr. Whitaker. You know, as I sit here in this chair right 
now, Mr. Chairman, you know, that is an impossible question for 
me to ask. I mean, I do not believe that I have briefed third-
party individuals outside of the Department of Justice. I have 
received the briefings myself, and I am usually the end point 
of that information.
    Chairman Nadler. But you won't answer the question?
    Mr. Whitaker. I just did answer your question.
    Chairman Nadler. I don't think you did, but let me just say 
this: Your iteration of the Department's longstanding policy 
appears designed to delay answering these questions as long as 
possible. I find that unacceptable. I understand the role of 
executive privilege and respect its value in our system of 
governance. However, Congress is a coequal branch of 
government. We have a responsibility to conduct oversight. This 
is a responsibility we take very seriously.
    I have repeatedly tried to work with your office first in 
delaying the hearing until February and then in providing you 
our questions in advance. I did this because the executive 
branch's own rules governing assertion of privilege, which were 
issued by President Reagan and have been followed ever since, 
say that ultimately it is up to the President to decide whether 
or not he wants to assert executive privilege. You cannot 
repeat forever that the President might want to assert 
privilege.
    I have given you a fair opportunity to prepare for the 
hearing and to speak with the White House in advance so that we 
could avoid this fight in the first place, but you don't appear 
to have done any of that. The Department's failure to do its 
due diligence here to me is deeply troubling. I do not believe 
that issuing a subpoena here would correct the problem, but I 
am going to give you the opportunity to rectify the situation.
    After today's hearing, we will attempt to reach an 
accommodation with the Department to obtain answers to these 
questions. As part of that process, I ask for your commitment 
to return for a deposition before this committee in the coming 
weeks under oath with an understanding that the transcript will 
be released to the public as soon as practicable thereafter.
    Any questions that are unanswered today or require 
consultation with the White House will be asked again at that 
proceeding, and I expect either a clean answer or a proper 
assertion of privilege claimed by the President. I would ask 
members on both sides of the aisle to make those questions 
clear for the record so we know what must be addressed at the 
future proceeding.
    Now, in your capacity as Acting Attorney General, have you 
ever been asked to approve any requests or action to be taken 
by the special counsel?
    Mr. Whitaker. Mr. Chairman, I see that your 5 minutes is 
up, and so--I am here voluntarily. We have agreed to a 5-
minutes round, and----
    Mr. Collins. I think that is a fine place to end the 5-
minute rule.
    Chairman Nadler. The committee will come to order. I will 
point out that we didn't enforce the 5-minute rule on Acting 
Attorney General Whitaker. We will----
    Mr. Collins. I understand, Mr. Chairman. I was just saying 
that might be a good breaking point for you.
    Chairman Nadler. The Attorney General was in the middle of 
saying something. Answer the question, please.
    Mr. Chabot. Regular order.
    Chairman Nadler. Should I ask the question? Okay. In your 
capacity----
    Mr. Whitaker. Please ask the question.
    Chairman Nadler. Let me just repeat the question so people 
remember what we are talking about. In your capacity as Acting 
Attorney General, have you ever been asked to approve any 
requests or action to be taken by the special counsel?
    Mr. Whitaker. Mr. Chairman, I, as the Acting Attorney 
General, I am--under the special counsel's rules, I am the 
person that is ultimately in charge of the investigation, and I 
have exercised that authority under the special counsel's 
regulations of the Department of Justice.
    Chairman Nadler. So I assume the answer is yes?
    Mr. Chabot. Regular order, Mr. Chairman.
    Chairman Nadler. I assume the answer is yes, you have been 
asked to approve a request or action, and you have said yes or 
no?
    Mr. Whitaker. Mr. Chairman, I want to be very clear about 
what you are asking me. Are you asking me if I have asked the 
special counsel to do something?
    Mr. Chabot. Regular order, Mr. Chairman.
    Chairman Nadler. Well, I am asking if--I think my words 
were clear enough. Have you ever been asked to approve any 
requests or action to be taken by the special counsel?
    Last week, you commented on the status of the investigation 
stating it was close to being completed, unquote. This was said 
despite the fact you recognized just moments before that it was 
ongoing stating, quote: I really am not going to talk about an 
open and ongoing investigation otherwise, close quote.
    So all I am asking you is, have you been asked to approve 
or disapprove a request or action to be taken by the special 
counsel?
    Mr. Chabot. Point of order, Mr. Chairman.
    Chairman Nadler. I have asked the question.
    Mr. Chabot. Point of order, Mr. Chairman.
    Chairman Nadler. I have asked the question.
    Mr. Chabot. Point of order, Mr. Chairman.
    Chairman Nadler. Point of order is not in order until the 
question is answered.
    Mr. Chabot. We are not operating under the 5-minute rule 
anymore then?
    Chairman Nadler. The witness will answer the question.
    Mr. Whitaker. I want to be very specific about this, Mr. 
Chairman, because I think it is going to allay a lot of fears 
that have existed among this committee, among the legislative 
branch largely, and maybe amongst some American people. We have 
followed the special counsel's regulations to a T. There has 
been no event, no decision that has required me to take any 
action, and I have not interfered in any way with the special 
counsel's investigation.
    Chairman Nadler. Very good. Thank you. My time has expired.
    I now recognize the Ranking Member, the gentleman from 
Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    Again, it is playing out exactly as we thought. This is my 
colleagues across the aisle, when we had questions about the 
FBI's operation and investigations, it was: Oh, stay away; we 
don't want to get close to Mueller.
    In fact, the Chairman even said, you know, it is no longer 
okay to wait for Robert Mueller. Well, let's no longer wait. 
They have got you in front of them right now, so get ready. 
This is all this is going to be DOJ oversight. And it is--I am 
just going to say for a second there is some things interesting 
here that you did point out in your opening statement that do 
need addressing. I think there is a lot of things, whether it 
be voting rights issues, whether it be civil rights issues and 
other things, and I get that, but I am also going to deal with 
something that is directly under your oversight supervision, 
Mr. Acting Attorney General, and we are going to talk about 
because something I have written a letter about, and believe 
me, I believe that lying before this body or any body is wrong, 
especially under oath, and that is not the issue. But the issue 
is tactics.
    And my question is, were you aware of Roger Stone's 
indictment before it became public?
    Mr. Whitaker. Congressman, that is a, as you know, an 
important question. It is also--Mr. Stone is part of an ongoing 
investigation, but I have, again, been briefed on the special 
counsel's investigation. That would have been--you know, that 
would have been considered a development that I would have been 
briefed on, and I was briefed on that.
    Mr. Collins. Are you familiar from public reports or 
otherwise that a CNN reporter was camped out outside of Stone's 
house when the FBI arrested him? This wouldn't be part of the 
investigation.
    Mr. Whitaker. I am aware of that, and it was deeply 
concerning to me as to how CNN found out about that.
    Mr. Collins. Well, that is--I am glad we are going down 
that road, Mr. Attorney General. Did somebody at the Department 
of Justice seemingly share a draft indictment with CNN prior to 
Stone's arrest or prior to a grand jury's finding of a true 
bill?
    Mr. Whitaker. Ranking Member Collins, the court had a 
sealed indictment that after Mr. Stone's arrest was unsealed. 
Consistent with all of its prior indictments, the DOJ's basic 
policy for transparency in criminal cases is that the 
indictment is posted on the DOJ web page promptly after it is 
unsealed, and then media outlets were notified.
    We do not know of any, and I do not know of any, other 
Special Counsel's Office notice or DOJ notice to media outlets 
regarding Mr. Stone's indictment or his arrest and otherwise--
you know, I really, as I sit here today, don't have any other 
information that I can talk about regarding Mr. Stone.
    Mr. Collins. Well, given your answer even just then, it 
does seem concerning given the timing of this reporter's 
knowledge and other things that there seems to have been a gap 
in that discovery. And just another question is, if anybody was 
outside this, would you view this as a problem? Because this 
looks like this is something--I am just going to ask you, in 
your final days here, would this be a problem with DOJ if we 
are looking at the timing doesn't match up, that somebody was--
it seems to appear this was given pre or prior knowledge, not 
going through the normal channels? Because if it was given 
through normal channels, every media outlet would have been 
there, but only one was.
    Mr. Whitaker. Mr. Collins, I share your concern with the 
possibility that a media outlet was tipped off to Mr. Stone's 
either indictment or arrest before it was made, that 
information was available to the public.
    Mr. Collins. One of the other issues, and this is--you 
know, since we are going to go down this, the chairman wanted 
to have this, and this is a question that is not unfamiliar, 
and it should be, is Bruce Ohr still employed with the 
Department of Justice?
    Mr. Whitaker. To answer your question directly, Mr. 
Collins, Bruce Ohr is currently employed with the Department of 
Justice.
    Mr. Collins. Okay. Is there any process at this point or 
any that you can comment on--I understand personnel issues--but 
are you aware of the discussions and also the implication of 
investigations from Congress and from others surrounding Bruce 
Ohr's involvement in many of the investigation problems that we 
have seen over the past few years at DOJ?
    Mr. Whitaker. Mr. Collins, I am generally aware of Mr. Ohr 
being--questions being raised about his behavior at the 
Department of Justice.
    Mr. Collins. Let me tell you in a different way. Knowing 
what you know and seeing what you have seen and using your past 
experience and prior knowledge, do you believe Mr. Ohr was 
operating outside normal channels and appropriate channels in 
which he was operating under, which has been publicly reported?
    Mr. Whitaker. Mr. Collins, this is a very important 
question for many people both in this body and in the general 
public. The Office of Inspector General is currently looking at 
the Carter Page FISA application.
    Mr. Collins. Which is very much a concern.
    Mr. Whitaker. And it is also being reviewed at the same 
time as simultaneously by Mr. John Huber, who is the U.S. 
attorney from Utah, who was asked by Attorney General Sessions 
to conduct a review of certain matters at the Department of 
Justice. And so, together with the fact that any situation 
regarding Mr. Ohr's employment would be part of a confidential 
human resources process, I just am unable to talk any more 
about Mr. Ohr, his involvement in any matters that could be 
subject to either an inspector general's investigation or a 
human resource matter.
    Mr. Collins. Well, Acting Attorney General Whitaker, 
barring the now again as we had another part to our play this 
morning and are now finding out that you may be subpoenaed to 
come back and do a deposition, which, again, as we continue 
down this line, any way around this to continue to attack at 
the investigation of the President--this is again is just an 
amazing. I just want to say, one, in your last few days, you 
know, do your best, do your job, and continue to do that part, 
but also, at a certain point in time, there are many on this 
committee and many on our side of the aisle as well as the 
other side of the aisle that have been very concerned with what 
we have seen at the Department of Justice, especially in the 
FBI and especially over the last few years, that should turn 
every citizen, whether they are Republican, Democrat, 
Independent, could care less about politics, when there is ever 
a perception, and I have shared this with others that came 
before you to testify, whenever there is a perception that 
there is not an equal treatment on either side, that is a 
problem. It needs to be addressed. I am hoping that when Bill 
Barr comes in, this will be one of his first steps that we can 
continue with. I know you attempted to do that, but this is 
going to be a long day, and it is going to be a day in which we 
chase a lot of rabbits. Unfortunately, when we get to the end 
of the day, the good men and women on the Department side, the 
Department of Justice, which is what you were pitched with back 
before the Chairman was the Chairman--this is not going to be 
an oversight hearing; it is going to be more of a rabbit chase 
down a lot of holes.
    With that, I yield back.
    Mr. Whitaker. Mr. Collins, if you don't mind--Mr. Chairman, 
may I answer his question?
    Chairman Nadler. You may.
    Mr. Whitaker. I think it is important as we sit here today 
that we understand that this is not a confirmation hearing, 
that I am probably going to be replaced by Bill Barr in the 
next week. This is an oversight hearing for the Department of 
Justice, and I am surprised, as we both had the chairman and 
the ranking member talk about what they want to talk about, 
that we haven't talked anything about the work regarding 
violent crime; we haven't talked about the opioid crisis; we 
haven't talked about religious liberty; we haven't talked about 
free speech on our college campuses and a whole host of other 
issues that I know are very important to you.
    And I look forward to talking about the substance of the 
work at the Department of Justice, but if this--I mean, it is 
your 5 minutes, and you can ask the questions that are of most 
interest to you, but, you know, as I sit here today, I would 
like to talk about the incredible work that we have been doing 
at the Department of Justice since I was chief of staff and now 
Acting Attorney General.
    Mr. Collins. I appreciate that, but if you had been glued 
to a TV yesterday morning, you would have found out this wasn't 
what this was going to be about.
    Thank you, Mr. Attorney General.
    Chairman Nadler. Ladies and gentlemen, there are votes on 
the floor. There are 11 minutes left. We are informed they are 
going to strictly enforce the 15-minute rule. We will see if 
that is true, but we will not risk it. So the committee will 
stand in recess until after the--immediately after the last of 
this series of votes.
    [Recess.]
    Chairman Nadler. The committee will come to order again. We 
will now resume questioning under the 5-minute rule.
    Ms. Lofgren.
    Ms. Lofgren. I thank you, Mr. Chairman.
    And thank you, Mr. Whitaker, for being here today. On 
January 28th, you made a statement, and I am trying to 
understand more about that. You mentioned, and this is a direct 
quote: Right now--referring to the Mueller investigation--right 
now the investigation is close to being completed.
    What was the basis for that statement that you made, Mr. 
Whitaker?
    Mr. Whitaker. Thank you for that question, Congresswoman. I 
had a press conference announcing an important indictment 
related to Huawei and their stealing, alleged stealing of 
intellectual property of an American company. During that 
course of that press conference, I was asked questions about 
the special counsel's investigation, and I prefaced that answer 
by saying I can't talk about an ongoing investigation like the 
special counsel's investigation. And as I sit here today, I 
really don't have anything to add to what I said.
    Ms. Lofgren. Well, it seems to me that you did talk about 
an ongoing investigation, and therefore, you can understand, I 
am sure, we would like to know what you meant by what you said. 
In that same statement, you said, quote: You were, quote, 
comfortable that the directions that were made will be reviewed 
through the various means we have, unquote. What does that 
mean?
    Mr. Whitaker. Congresswoman, thank you for that question. I 
would refer you to the special counsel regulations that, again, 
the question that I was--the--the answer that I gave to the 
inquiry was regarding the timing of the special counsel's 
investigation. I have nothing, as I sit here, to add to that. 
But I do want to mention that the special counsel's regulations 
by their very nature say that the Attorney General will receive 
a report, that that will be a confidential report, and that 
that will--that report will cover the decisions. And so I was 
talking about as Attorney General if--as Acting Attorney 
General, if and when I received that report, again, I only have 
less than a week, as you know, before Mr. Barr comes on board, 
that I would review those decisions pursuant to that report.
    Ms. Lofgren. So is it fair to say that really what you are 
saying is that the special counsel's investigation is 
proceeding within the scope of the authority set forth in 
Deputy Attorney General Rosenstein's May 2017 order? Is that 
what you are saying?
    Mr. Whitaker. Congresswoman, thank you for an opportunity 
to clarify that. I think what I just explained to you is that 
the special counsel's investigation is proceeding consistent 
with the regulations that outline why the appointment happened 
consistent with Mr. Rosenstein's appointment.
    Ms. Lofgren. All right. Thank you very much for that 
clarification. I would just like to note that, to some extent, 
it is hard to ignore that the willingness to discuss ongoing 
investigations has not been applied evenly. I mean, you have 
just mentioned today the Roger Stone indictment, and that is an 
ongoing matter, but let me get back to an opportunity you have 
to clear the air. Many have speculated that your appointment 
was based on your public appearances that harshly criticized 
the special counsel's investigation prior to your hiring as 
chief of staff to then Attorney General Jeff Sessions. I would 
like to know. Did you discuss or share your private opinions of 
the special counsel investigation with President Trump or other 
White House officials, such as Mr. Kelly or Trump family 
members or public surrogates like Mr. Giuliani? And I would 
note that this is not covered by executive privilege because at 
that time, you were a private citizen.
    Mr. Whitaker. Congresswoman, thank you for that question. I 
came to Washington, D.C., in October of 2017 to be Attorney 
General Sessions' chief of staff. I have the greatest respect, 
as you know, for General Sessions, and I am really, you know, 
honored to carry out the role of Acting Attorney General.
    Ms. Lofgren. Well, if I may, that is very nice, but that 
wasn't the question I asked.
    Mr. Whitaker. Well, as you know, I am, as I mentioned, 
honored to serve as Acting Attorney General, and I am honored 
that the President selected me to be the Acting Attorney 
General. I can assure this committee that before appointing me 
to this position, the President did not ask for and I did not 
provide any commitments, promises concerning the special 
counsel's investigation or any other investigation, as I 
mentioned in my opening statement.
    Ms. Lofgren. That is not the question I asked, sir, and I 
see that my time is about to expire. So, Mr. Chairman, I would 
like to add I know that we are going to have a followup 
deposition----
    Chairman Nadler. I will allow you to ask the question again 
more specifically and ask the witness to answer the question 
specifically and not to continue filibustering.
    Ms. Lofgren. The question is: Whether you shared your 
private opinions of the special counsel investigation with 
President Trump; other White House officials, such as John 
Kelly; Trump family members; public surrogates, such as Rudy 
Giuliani? At the time that I am referencing, you were a private 
citizen. So this is before you were hired, so it is not covered 
by executive privilege. Did you do that?
    Mr. Whitaker. Congresswoman, just to be clear, you are 
asking me whether or not I talked with anybody essentially in 
the President's circle or at the White House about my views of 
the special counsel's investigation----
    Ms. Lofgren. Correct.
    Mr. Whitaker [continuing]. When I was a private citizen----
    Ms. Lofgren. Correct.
    Mr. Whitaker [continuing]. And not at the Department of 
Justice?
    Ms. Lofgren. Correct.
    Mr. Whitaker. No, I did not.
    Chairman Nadler. Thank you.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Acting Attorney General, as you mentioned earlier, 
there are other important matters within the purview of the 
Justice Department and within the oversight responsibilities of 
this committee besides fishing expeditions, trying to get the 
goods on this President in an apparent effort to impeach him. 
For example, 70,000 Americans died from drug overdoses in 2017. 
I am old enough to remember back in the mid '80s when President 
Ronald Reagan and his wife felt so compelled to do something 
about the scourge of drugs in this country that the effort to 
just say no began and other efforts following that, and that 
was because back at that time, we had 10,000 deaths a year due 
to drug overdoses, and we now have over 70,000 deaths. So it is 
gotten, unfortunately, over time worse, not better. And most of 
the increase in deaths in 2017 were due to synthetic drugs, 
synthetic opioids specifically, like fentanyl, which accounted 
for a significant number of those deaths. This is clearly an 
epidemic which has been declared a state of emergency 
nationwide by the President and has deeply affected families in 
my home State of Ohio as well as families all across this 
Nation.
    What efforts and resources has or does the Justice 
Department intend to use to combat this growing epidemic, and 
what help can Congress provide to assist you in your efforts?
    Mr. Whitaker. Congressman, I appreciate that question, and 
I know how Ohio has been dramatically affected by the opioid 
crisis. We have done a lot at the Department of Justice, and I 
would like to partner with this committee and I am sure General 
Barr would as well to combat and have additional tools to 
combat this opioid crisis. But some of the things that we have 
done is we set up in 2017 the Opioid Fraud and Detection Unit, 
which was a way that the Justice Department could utilize data 
to help combat the devastating opioid crisis. We did the 
largest healthcare fraud takedown in June of 2018. We set up 
the PIL Task Force, otherwise known as the Prescription 
Interdiction and Litigation Task Force, in February of 2018. We 
set up a really innovative way called Operation SOS, which was 
Synthetic Opioid Surge. General Sessions and I went down to 
Tampa, Florida, where we saw Manatee County had taken an AUSA 
and embedded them once a week into the sheriff's office in 
order to take every fentanyl overdose case, and they 
dramatically reduced the number of overdose deaths in Manatee 
County. And we decided to take that model and apply it to the 
most affected States and districts that could really make a 
dramatic difference in saving lives.
    Mr. Chabot. Let me just--if I could, let me stop you there. 
I just have a followup question----
    Mr. Whitaker. Sure.
    Mr. Chabot [continuing]. Along the same topic, and the 
President addressed this to a considerable degree in his State 
of the Union the other night. And do you have an opinion; is 
there a relationship between enhancing border security, 
particularly at our southern border, and making at least some 
progress in reducing the scourge of drug addiction in this 
country?
    Mr. Whitaker. Congressman, absolutely there is a connection 
between the drugs that are being imported through our southern 
border, which is a large majority of those drugs, and the 
opioid crisis we now face. In fact, I went to China in August 
as chief of staff for then General Sessions. He asked me to go 
to talk to the Chinese about what more they could do to reduce 
the amount of fentanyl that is being produced in China, and we 
had a nice dialogue with some high-level government officials. 
And the President, as you know, has agreed with General Xi to 
reduce fentanyl and eliminate fentanyl production in China. And 
one of the ways that China has agreed to do that was by 
scheduling the analogs of fentanyl. It is a very serious 
problem, and I know Ohio is dramatically affected by it.
    Mr. Chabot. Thank you very much.
    I have only got about 30 seconds, so let me just touch on 
one last thing. I know you only have about a week left, so you 
probably won't personally----
    Mr. Whitaker. Less than a week, actually.
    Mr. Chabot. Yeah. Less than a week. Yesterday, this 
committee in a bipartisan manner passed the No Oil Producing 
and Exporting Cartels Act of 2019. This is something that I had 
introduced almost 20 years ago along with my Democratic 
colleague John Conyers, who was chair and ranking member of 
this committee over the years, that would basically give the 
Attorney General the authorization to bring suit against oil 
cartels when they manipulate, artificially manipulate the 
prices, and we all pay for this at the gas pump time and time 
again. So I know we have been in contact with the Justice 
Department, and we look forward to working with your successor 
in that effort. I don't know if you have any comments you would 
like to make about that.
    Mr. Whitaker. Congressman, I am fully aware of that bill, 
and I look forward to the Department of Justice working with 
you to successfully not only pass it but implement it.
    Mr. Chabot. Thank you.
    I would like to give Mr. Nadler and some of our Democratic 
colleagues as well as Mr. Collins and others a lot of credit 
for that as well. So thank you very much.
    I yield back. Thank you.
    Chairman Nadler. Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much.
    These are extraordinary times, Mr. Attorney General. We 
know that the former Director of the FBI testified to the House 
Intelligence Committee in open hearing that there was an active 
investigation into the associates of the Trump campaign, and he 
was fired subsequently. Mr. Mueller was then hired. 
Investigations have secured numerous indictments, convictions, 
or guilty pleas, and, of course, a deal with perjury charges 
like obstruction of justice, perjury, false statements. So, at 
the current rate, we are seeing so many of the Trump 
organizations being indicted, and with the short time that I 
have, I want to make sure that your questions are answered in a 
yes-or-no manner. This is the first oversight hearing we have 
had in the Justice Department in almost 15 months. You did not 
have a confirmation hearing, and you have not yet appeared for 
an oversight hearing. Yes or no? Yes or no?
    Mr. Whitaker. Congresswoman----
    Ms. Jackson Lee. Yes or no?
    Mr. Whitaker. Congresswoman, I am the Acting----
    Ms. Jackson Lee. Yes or no. Have you appeared before an 
oversight hearing in the Congress?
    Mr. Whitaker. Congresswoman, I have not.
    Ms. Jackson Lee. It has been 10 years----
    Chairman Nadler. The witness will answer the question as 
asked, please.
    Mr. Whitaker. Mr. Chairman?
    Mr. Collins. Mr. Chairman, if he has--feels that a yes or 
no is appropriate, he will answer in a yes or no. If he does 
not feel it is appropriate, he should be able to answer in an 
appropriate, as many Democrat administration officials have 
done before this committee before. This is unreal.
    Chairman Nadler. The member has only 5 minutes, and if 
she----
    Mr. Collins. If we have just discovered----
    Chairman Nadler. If she wants a yes-or-no answer, she is 
entitled to it. I will not allow the witness to stall and waste 
members' time.
    Mr. Collins. Where were you when Mr. Holder was here?
    Ms. Jackson Lee. Chairman, may I have my time restored? I 
think it was at 4 minutes.
    Chairman Nadler. Yes, you may.
    Ms. Jackson Lee. Thank you.
    Again, Mr. Attorney General, the question is, did you have 
a confirmation, and has it been more than 10 years since you 
have testified before Congress?
    Mr. Whitaker. Congresswoman----
    Ms. Jackson Lee. Can the clock be restored?
    Mr. Whitaker. I am sorry. What was your--I don't know if 
your time has been restored or not.
    Ms. Jackson Lee. Mr. Attorney General, we are not joking 
here, and your humor is not acceptable. Now, you are here 
because we have a constitutional duty to ask questions, and the 
Congress has the right to establish government rules. The rules 
are that you are here. So I need to ask the question, and I 
need to have my time restored so that you can behave 
appropriately. I will behave appropriately as a member of the 
Judiciary Committee. I have asked a question.
    Did you have a confirmation hearing, and have you not yet 
appeared for an oversight hearing?
    Mr. Whitaker. Congresswoman, I am an Acting Attorney 
General. I have been appointed according to the Vacancies 
Reform Act, and I have never appeared in front of Congress for 
any hearing, even when I was a United States attorney.
    Ms. Jackson Lee. I asked for a yes-or-no answer. Is that? 
Yeah. Let me--and so you have never appeared.
    Let me quickly ask a question. Prior to the firing of 
former Attorney General Jeff Sessions, did you discuss or share 
your private opinions of the special counsel investigation with 
the chief of staff, some family members and others, yes or no?
    Mr. Whitaker. As I previously answered, Congresswoman----
    Ms. Jackson Lee. Yes or no, sir?
    Mr. Whitaker. As I previously answered, Congresswoman, I 
have not discussed----
    Ms. Jackson Lee. Yes or no.
    Mr. Whitaker. As I previously answered, Congresswoman, I 
have not discussed----
    Ms. Jackson Lee. And since you were appointed Acting 
Attorney General, did you discuss or share your private 
opinions with the special counsel?
    Mr. Whitaker. Again, the special counsel's investigation is 
an ongoing investigation, and I don't--I have nothing more to 
say than what I have already said.
    Ms. Jackson Lee. So you are denying reports that you shared 
many one-on-one calls with President Trump and his then Chief 
of Staff, John Kelly, when Jeff Sessions was still Attorney 
General?
    Mr. Whitaker. Again, Congresswoman, is there someone that 
provides you the basis for that question, or is that an 
anonymously sourced article?
    Ms. Jackson Lee. I am asking the question, sir. Answer the 
question yes or no.
    Mr. Whitaker. Could you repeat the question, please?
    Ms. Jackson Lee. So you are denying the reports that you 
shared many one-on-one calls with President Trump and then his 
chief of staff, John Kelly? Are you denying that, yes or no?
    Mr. Whitaker. Congresswoman, as I mentioned several times 
today, in my opening statement and otherwise----
    Ms. Jackson Lee. Yes or no.
    Mr. Whitaker [continuing]. I am not talking about the 
conversations that I have had with the President of the United 
States or senior staff.
    Ms. Jackson Lee. So that is a no?
    Mr. Whitaker. I don't think you can assume anything from 
that.
    Ms. Jackson Lee. Well, let me just pursue on my line of 
questioning.
    Since the investigation secured numerous indictments, I 
would like to pursue the line of questioning with respect to 
your understanding of the Mueller investigation and the review 
that you have given. Have you given an extensive review?
    Mr. Whitaker. Congresswoman, I have been briefed on the 
special counsel's investigation.
    Ms. Jackson Lee. Do you believe the involvement of the 
hostile foreign entities interfering with the elections is more 
severe than the false representation of voter fraud in 
elections? Do you believe that a foreign interference with the 
elections is more severe?
    Mr. Whitaker. Congresswoman, I think foreign interference 
in our election system in the United States is a very serious 
and ongoing concern. I also believe that voter fraud is a 
serious concern.
    Ms. Jackson Lee. After you left office, you pursued a 
series of other political offices, one of which was the United 
States Senate. Yes or no, if, during the pursuit of that 
office, a hostile foreign power contacted you to offer dirt on 
your opponent which at the same time included other candidates, 
such as Steve King and now Senator Joni Ernst, would you have 
contacted the FBI?
    Mr. Whitaker. Congresswoman, I am not here to address----
    Ms. Jackson Lee. Yes or no?
    Mr. Whitaker [continuing]. Hypothetical questions and, I am 
here for an oversight hearing. I don't believe--you know, I was 
very unsuccessful in my Senate campaign----
    Ms. Jackson Lee. You have the responsibility of answering 
the question. Would you have contacted the FBI if you were 
asked to take dirt on your opponents?
    Mr. Whitaker. Congresswoman, if I was contacted by a 
foreign national or a foreign country when I was a candidate 
for the United States Senate, I would have most likely reached 
out to the FBI, but it didn't happen, so it is hard for me to 
answer your hypothetical question.
    Ms. Jackson Lee. With respect to civil rights, you have not 
under your jurisdiction prosecuted one voting rights case. Is 
that correct?
    Chairman Nadler. The time of the gentlelady has expired. 
The witness may answer this question.
    Mr. Whitaker. Congresswoman, and just so I have a complete 
answer on this, we will follow up in writing as to the voting 
rights cases that we have done.
    Chairman Nadler. Thank you.
    Mr. Gohmert.
    Mr. Jordan.
    Mr. Jordan. Thank you, Chairman.
    Mr. Whitaker, did why did Rod Rosenstein send a memo to Bob 
Mueller on August 2nd, 2017, concerning the scope of the 
special counsel investigation?
    Mr. Whitaker. Congressman, thank you for that question, and 
I know this is of a great interest to you, and I hope we can 
have a discussion about this today. The special counsel 
regulations require a scoping of the special counsel's 
investigation that identifies the subjects and the targets of 
the investigation, so I am certain that it would have 
identified the scope of the investigation pursuant to the 
special counsel's----
    Mr. Jordan. Well, my question is--my question is not what--
I will get to that. My question is, why? Because it was 2 and a 
half months after the special counsel was formed. So let's go 
back to the beginning document, which you told the chairman 
earlier you were completely briefed on the special counsel's 
investigation. I want to go--this is a 1-page document, Order 
No. 3915-2017. It says this, Mr. Whitaker: The special counsel 
is authorized to conduct the investigation, including any 
matters that arose or may arise directly from the 
investigation.
    That is pretty broad. Do you agree?
    Mr. Whitaker. Yeah, and in my experience, it is consistent 
with other appointments of special counsels.
    Mr. Jordan. That is fine. I mean, I think it may be too 
broad, but it is as broad as you can get. One page order: Go do 
your investigation, and anything that arises out of it, you can 
investigate as well.
    But then 2 and a half months later, we get this, this 3-
page memo from Rod Rosenstein, Acting Attorney General, to 
Robert Mueller, special counsel. Title says: Scope of the 
Investigation and Definition of Authority. This is what 
confuses me, because in this memo, that only Mr. Mueller and my 
guess is you and Mr. Rosenstein and a few people at the Justice 
Department have seen, most of it is blacked out, in this memo, 
it says this: The following allegations were within the scope 
of the investigation at the time of your appointment and are 
within the scope of the order.
    Well, if that is true, why do you have to say it? If you 
could do it all along, why do you have to put it in a memo?
    Mr. Whitaker. Congressman Jordan, first of all, I was--
because of General Sessions' recusal from the special counsel's 
investigation, I was also recused from that investigation, and 
so I was not at the Department of Justice----
    Mr. Jordan. I am not asking that. I am asking--you said you 
were fully briefed.
    Mr. Whitaker. You are asking me why at the time Rod 
Rosenstein----
    Mr. Jordan. I am asking you why 2 and a half months after 
the broadest order you can have, why did Rod Rosenstein say, 
``Hey, you could do this all along, but now I am putting it in 
a memo''? And I will tell you what really troubles me, Mr. 
Whitaker, is right after that statement, the following 
allegations were within the scope of the investigation at the 
time of your appointment and are within the scope of the order. 
Right after that, you know what? You know what happens? 
Everything is redacted. Look at this. The whole darn thing. So, 
if you could do it all along and you have to send a memo to 
them 2 and a half months later--and then you redact everything 
after it. Do you know what is under the redactions, Mr. 
Whitaker?
    Mr. Whitaker. I do, sir.
    Mr. Jordan. You do. Are there names under the redactions, 
Mr. Whitaker?
    Mr. Whitaker. In my experience with investigations 
generally, you would not have a public document identify 
targets or subject matter of an investigation, especially if 
someone is not ultimately charged with a crime.
    Mr. Jordan. Let me frame it this way. Did Rod Rosenstein 
give the special counsel the authority to investigate specific 
Americans?
    Mr. Whitaker. Congressman, Mr. Rosenstein, acting as the 
Attorney General because of Mr. Sessions' recusal, gave 
authorization and jurisdiction to the special counsel. And so, 
yes, under the special counsel regulations, that is the whole 
purpose of the special counsel.
    Mr. Jordan. So I want to make sure. So you said yes, so 
there are specific names 2 and a half months into the 
investigation that Rod Rosenstein gave the special counsel 
specific American names to go investigate?
    Mr. Whitaker. Congressman, as you know----
    Mr. Jordan. If that is the case, I hope you--I want to know 
yes or no.
    Mr. Whitaker. As you know, this is the subject of an 
ongoing investigation, and I spoke to you generally about 
investigations.
    Mr. Jordan. And I am asking you specifically, or let me ask 
it this way: Can you give us assurances that there are not 
specific names under this 70-percent-redacted memo that Rod 
Rosenstein sent to the special counsel?
    Mr. Whitaker. Congressman Jordan, I know this is a very 
important subject for you.
    Mr. Jordan. And you know why I am asking this, Mr. Attorney 
General, because in this country we don't investigate people; 
we investigate crimes. And if there are specific American 
citizens' names in this redacted memo--and I asked Mr. 
Rosenstein to see this, and he got all mad and huffy with me in 
his office and wouldn't show it to me, but I think the American 
people--if this alters, changes, and names specific Americans, 
the scope of the investigation of the special counsel, don't 
you think it is appropriate for the American citizens to know 
the full parameters of an investigation into the guy they made 
President of the United States?
    Mr. Whitaker. Congressman, let me be very specific about 
this because you are right: we investigate crimes, not 
individuals.
    Mr. Jordan. That is why I am asking you the question. I 
would like a yes-or-no answer. Are there names mentioned under 
this redacted portion of this memo?
    Mr. Whitaker. On that, as I mentioned before, that memo 
props up a confidential investigation, as is every Department 
of Justice investigation----
    Mr. Jordan. Simple question, Mr. Whitaker. Are their names, 
specific American names, mentioned in this redacted--70-
percent-redacted memo that happens 2 and a half months after 
the special counsel gets his order to start his investigation 
where he was given the broadest latitude you can possibly have?
    Chairman Nadler. The time of the gentleman has expired. The 
witness may answer the question.
    Mr. Whitaker. I would just refer the Congressman to the 
general practices of the Department of Justice, that we 
investigate crimes and not individuals.
    Chairman Nadler. Thank you.
    Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    Mr. Attorney General, the inspector general of the GSA had 
a rather scathing report on the GSA's decision not to address 
significant issues concerning the government's Post Office and 
its lease to the Trump family concerning the Emoluments Clause, 
and it was said that GSA attorneys said they did not refer the 
matter to OLC, but a senior attorney told the IG that the OLC, 
the Office of Legal Counsel, knew about the Old Post Office 
lease, and it was up to them to do something. Were you aware of 
anything this Justice Department did to look into violations of 
the Emoluments Clause at the Trump Hotel?
    Mr. Whitaker. Congressman, the Emoluments Clause as it 
relates to the Trump Hotel is the subject of several ongoing 
litigation matters.
    Mr. Cohen. Right.
    Mr. Whitaker. And so, while I can acknowledge that I am 
aware of the--not only of the situation you described but 
generally the litigation surrounding the Emoluments Clause, as 
the Acting Attorney General sitting here today, I am unable to 
talk specifically about those cases.
    Mr. Cohen. You can't say if there are any memos from the 
Office of Legal Counsel regarding Emoluments Clause violations 
and limitations?
    Mr. Whitaker. Congressman, as I sit here today, those--the 
Emoluments Clause as it relates to The Trump Organization, 
especially the hotel in Washington, D.C., is the subject of 
ongoing litigation.
    Mr. Cohen. And the Justice Department is helping to 
represent the President in those suits, is he not? Is that 
appropriate when it is a violation of him making personal 
monies out of the Trump Hotel and being charged with violations 
of the Emoluments Clause by not reporting it to the Congress as 
he is supposed to by the Constitution? Shouldn't he have his 
personal lawyers and not Justice Department lawyers represent 
him for this nefarious conduct?
    Mr. Whitaker. Congressman, I can understand that this is an 
important issue to you, but as it relates to the Emoluments 
Clause and the Department of Justice defense of the President 
of the United States, it is well within our purpose to be 
involved in that case.
    Mr. Cohen. You said that if the special counsel's 
investigation looked into President Trump's finances it would 
be crossing a red line. You said that, I think, in a television 
interview. The Attorney General has made clear that Mr. 
Rosenstein told the special counsel he could go into any 
matters that arose or may arise directly from the 
investigation. If matters arose from the investigation directly 
or indirectly that the Trump family owed lots of money to 
Russian oligarchs and people real close to Putin and that 
affected the actions that they took as the President of the 
United States on behalf of the United States of America, would 
you agree that that was not crossing a red line but, in fact, 
was a red line from Moscow that we need to look into?
    Mr. Whitaker. Congressman, when I made that statement, I 
was a private citizen and had no publicly available 
information--I only had publicly available information, and so 
I made that as a commentator and not as the Acting Attorney 
General of the United States. I am very familiar with the 
responsibilities of my office as Acting Attorney General, and 
we make our decisions based on the law and the facts on a case-
by-case basis.
    Mr. Cohen. So that is no longer your opinion. It is not 
crossing a red line for him to look into the finances if they 
might have interfered with the objective judgment of the 
President concerning his duty of trust to the United States of 
America and not to his personal financial interest or his 
family's.
    Mr. Whitaker. Congressman, as I mentioned earlier, at the 
Department of Justice and as long as I am Acting Attorney 
General, we are going to follow the law and the facts wherever 
they may lead, and we are going to do our jobs with fidelity.
    Mr. Cohen. Thank you, sir.
    Let me ask you this: There has been a conviction in the 
special counsel investigation of Mr. Manafort, a jury trial 
conviction. There have been guilty pleas for Flynn, Manafort, 
Gates, Papadopoulos, and Michael Cohen and dozens of 
indictments including 13 Russian nationals, 3 Russian 
companies, and Roger Stone. Would you say the special counsel's 
investigation is a witch hunt? Are you overseeing a witch hunt?
    Mr. Whitaker. Congressman, as I have mentioned previously, 
the special counsel's investigation is an ongoing 
investigation, and so I think it would be inappropriate for me 
to talk about----
    Mr. Cohen. But you wouldn't oversee a witch hunt, would 
you? You would stop a witch hunt, wouldn't you?
    Mr. Whitaker. Congressman, it would be inappropriate for me 
to talk about an ongoing investigation.
    Mr. Cohen. You said that you are not interfering with the 
special counsel's investigation. Have you denied him any funds 
he has requested at all?
    Mr. Whitaker. Congressman, I can tell this is an important 
issue for you, but----
    Mr. Cohen. It is an important for the American public and 
for the whole world.
    Mr. Whitaker. Congressman, to answer your question 
directly, I have not denied any funds to the special counsel's 
investigation.
    Mr. Cohen. Have you denied him the opportunity to go any 
areas where he wanted to investigate or any matters of 
investigation?
    Mr. Whitaker. Congressman, as I previously testified, I 
have not interfered with the special counsel's investigation.
    Mr. Cohen. I yield back the balance of my time.
    Chairman Nadler. Thank you. I thank the gentleman.
    Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And, Acting Attorney General, thank you for being here 
today.
    Mr. Whitaker. It is good to see you again, Congressman.
    Mr. Gohmert. I am amazed that you would be coming since 
your successor is going to apparently be confirmed next week, 
and you will no longer be Acting Director, so I don't know what 
kind of suicide wish you had or whatever, but it is good to see 
you.
    One thing I wanted to hit first was a statement that you 
had made, and I want to confirm that these are your words. And 
I quote: There is no doubt in the law enforcement community 
that the vast majority of the illegal drugs in this country is 
coming over our southern border, a pattern that is true for all 
crimes generally, and there is no doubt that criminals and 
cartels seek to exploit weaknesses in our southern border.
    Are those your words?
    Mr. Whitaker. Well, I don't know which speech or statement 
you are quoting. It sounds like something I would have said, 
yes.
    Mr. Gohmert. Yeah. And you wouldn't have said that if you 
didn't believe that, correct?
    Mr. Whitaker. Oh, I believe what you are saying. The drugs 
and the general illegality that is pouring in through our 
southern border is having a negative effect on our country.
    Mr. Gohmert. Now, I want to get to this issue of career 
officials since colleagues on the other side of the aisle have 
made such a big deal about it, that you have not--they accuse 
you of not following the advice of career officials. Do you 
know the backgrounds of the people that are working directly 
under you and directly under Rod Rosenstein?
    Mr. Whitaker. Congressman, I sit on top of an organization 
that has 115,000 employees.
    Mr. Gohmert. I am talking about the people directly to you 
and directly to Deputy Rosenstein.
    Mr. Whitaker. I am familiar with the people that report to 
both of us, yes.
    Mr. Gohmert. Yes.
    Mr. Whitaker. Although I will tell you, I think Rod 
Rosenstein as Deputy Attorney General has over 100 direct 
reports as Deputy Attorney General.
    Mr. Gohmert. Well, that was something I recommended to 
Attorney General Sessions, that he needed to reorganize and 
have some of those people reporting directly to him.
    But one of the mistakes I think my dear friend, Jeff 
Sessions, for whom I have immense respect, one of the mistakes 
that I saw him making: he was listening to people who love 
Sally Yates, loved her efforts to disrupt anything that 
President Trump tried to do. They loved what President Obama 
did through the Justice Department, and in fact, I had informed 
Jeff that one--that his contact with the NSC was sitting on his 
notices, so either he developed conflicts or wasn't properly 
prepared, and that was Tashina Gauhar, and she reported 
directly to Rosenstein. The AG should have somebody--the 
liaison with the NSC should report directly to the AG and not 
go through Rod Rosenstein and especially when they were setting 
the Attorney General up to be harmed. But this--and then 
Anthony Ferrante, I know currently apparently he is the senior 
managing director of FTI Consulting. He was another one that 
some considered a career position at the DOJ. Let's see. He had 
Jordan Kelly there. She is currently Director of Cybersecurity 
Policy and Incident Response at the NSC through the White 
House. There are reports that she met routinely with the 
Mueller investigators. You know, between these people who, like 
Tashina Gauhar, just thought Yates was wonderful, I would hope 
that wisdom in you as acting director, wisdom in the incoming 
Attorney General will be to look at the backgrounds, look at 
the people who are political hacks, and figure out: Oh, they 
are giving me advice on this? This is not for my well-being. 
This is to hurt the President of the United States.
    And I know you may just have another week, but I would 
encourage you that, as people make a big deal about career, 
look beyond career. Look where their loyalties are because even 
though they may be in a career position, if their loyalties are 
not to the Attorney General and not to the President of the 
United States and are more political than they are 
constitutional, disregard what they say.
    I yield back.
    Chairman Nadler. The time of the gentleman has expired. Mr. 
Johnson.
    Mr. Johnson of Georgia. Thank you.
    General Whitaker, do you agree with the President's 
statement that the Russian investigation is a witch hunt?
    Mr. Whitaker. As I mentioned previously, Congressman, I 
think it would be inappropriate for me to comment about an 
ongoing investigation.
    Mr. Johnson of Georgia. Well, you commented about the Roger 
Stone investigation, which is ongoing, did you not?
    Mr. Whitaker. Congressman, just to be clear about this----
    Mr. Johnson of Georgia. You did comment. I mean, we heard 
you comment on the Roger Stone investigation. Why would you 
comment on the Roger Stone investigation, but you are reluctant 
to answer our questions about the Mueller investigation?
    Mr. Whitaker. Well, that is a good question, Congressman, 
and my comments about the Roger Stone investigation were merely 
to acknowledge that I was aware that CNN had appeared to 
receive or was at the residence on location----
    Mr. Johnson of Georgia. Well, you don't know whether or not 
the CNN reporter was camped out with no advance knowledge or 
whether or not he was tipped off or not. Isn't that true?
    Mr. Whitaker. Congressman, that is true, but I am very 
concerned that an operation of the FBI----
    Mr. Johnson of Georgia. Let me move on. Let me move on 
that, sir. I am controlling the time. Let me move on.
    I would like to take a moment to better understand your 
decision not to recuse yourself from the supervision of the 
special counsel's investigation. Isn't it a fact, sir, that you 
received your final ethics guidance on this matter on December 
19th, 2018?
    Mr. Whitaker. I appreciate this question, and I am glad 
this is an opportunity----
    Mr. Johnson of Georgia. It is a pretty direct question. Did 
you receive your final guidance on that question on December 
19th----
    Mr. Whitaker. As you know, we have communicated with 
Congress the entire process that I went to--went through to 
address any recusal questions that I might have, and I had no 
conflict of interest. I had no financial----
    Mr. Johnson of Georgia. Well, let me just ask you: I 
understand you take that position, but my simple question is, 
isn't it a fact that you received your final ethics guidance on 
that question on December 19th, 2018?
    Mr. Whitaker. Congressman, we laid out very explicitly the 
process that we went through, and ultimately the decision 
whether or not to recuse was my decision.
    Chairman Nadler. Mr. Whitaker, you were asked a direct 
question. Mr. Whitaker, you were asked a direct question, and 
it is getting a little tiresome hearing you stall and wasting 
the member's time. The member only has 5 minutes. He asked you 
a specific question. Did you last receive advice on that on 
December 18th? The answer ought to be yes or no or some other 
date or ``I don't remember,'' but we don't need a speech. The 
gentleman may repeat his question.
    Mr. Collins. Mr. Chairman, if we are going to counsel the 
witness and act as his attorney on how he should answer, are 
you answering the question, or is the witness answering the 
question?
    Chairman Nadler. I am asking the witness not to stall.
    Mr. Collins. And we have endured that many times here were 
when he is trying to ask the question in the way that he is 
asked.
    Mr. Cohen. Point of order. Point of order.
    Chairman Nadler. The gentleman is out of order. Mr. Johnson 
has the floor. Your time will be restored.
    Mr. Johnson of Georgia. Thank you, sir.
    Sir, isn't it a fact that career officials at DOJ 
recommended to you that you recuse yourself to avoid an 
appearance of a conflict of interest or bias? That was the 
guidance that you got from career DOJ officials about your 
participation or oversight of the Mueller investigation. Isn't 
that correct?
    Mr. Whitaker. Congressman, I made my recusal decision by 
myself after consulting with----
    Mr. Johnson of Georgia. But there were career DOJ officials 
who advised you that you should not touch that investigation. 
Isn't that correct?
    Mr. Whitaker. Congressman----
    Mr. Johnson of Georgia. Yes or no.
    Mr. Whitaker [continuing]. I consulted with career ethics 
officials. I consulted with my senior staff. I consulted with 
the Office of Legal Counsel. It was my decision to make. I 
decided not to recuse. I am happy to walk through the step-by-
step advice that I received. And I consulted----
    Mr. Johnson of Georgia. There were four individuals who you 
consulted who advised you that you had the ability to not 
recuse yourself from this investigation. Isn't that correct?
    Mr. Whitaker. Congressman, the regulations actually say I 
have----
    Mr. Johnson of Georgia. Four individuals advised you that 
you did not have to recuse yourself. Is that correct?
    Mr. Whitaker. Congressman, let me be clear. It was my 
decision----
    Mr. Johnson of Georgia. You are not being clear sir, other 
than in your obstruction and refusal to answer the question.
    Mr. Whitaker. I am not obstructing anything. I am answering 
your question.
    Mr. Johnson of Georgia. Well, you are obstructing----
    Mr. Whitaker. I consulted with a lot of people regarding my 
recusal, but it was my decision to make.
    Mr. Johnson of Georgia. But you are not telling me who it 
was. Who did you consult with?
    Mr. Whitaker. As I mentioned, I consulted with career 
officials----
    Mr. Johnson of Georgia. Name me some names.
    Mr. Whitaker. I consulted with my senior staff, and I 
consulted with the Office of Legal Counsel.
    Mr. Johnson of Georgia. Name me some names, sir.
    Mr. Whitaker. Well, one person would be the Assistant 
Attorney General for our Office of Legal Counsel.
    Mr. Johnson of Georgia. What is his name or her name?
    Mr. Whitaker. Steve Engel. He is a Senate-confirmed----
    Mr. Johnson. And who else? Who else did you consult with?
    Mr. Whitaker. I also consulted with his principal deputy.
    Mr. Johnson of Georgia. And that person's name is?
    Mr. Whitaker. His name is Curtis Gannon.
    Mr. Johnson of Georgia. And who else did you consult with, 
sir?
    Mr. Whitaker. Congressman----
    Mr. Johnson of Georgia. I am asking you a pretty clear 
question, sir. Who else did you consult with about whether or 
not you should recuse yourself from the Mueller investigation?
    Mr. Whitaker. Generally who did I consult with?
    Mr. Johnson of Georgia. I want to know specifically who you 
talked to.
    Mr. Whitaker. Okay. Well, I talked to Brad Weinsheimer, who 
is the senior career official at the Department of Justice.
    Mr. Johnson of Georgia. And he advised that your recusal 
was unnecessary, or did he advise you to recuse?
    Mr. Whitaker. He actually could not identify any precedent 
for me to recuse. He said it was a close call. He said--I am 
sorry. Did you have a question?
    Mr. Johnson of Georgia. Go ahead.
    Mr. Whitaker. Okay. He said that my other public statements 
did recognize the professionalism and competence of the special 
counsel. He said that, out of an abundance of caution, that he 
would--that, if asked, he would recommend a certain course, but 
again, it was--he also said----
    Mr. Johnson of Georgia. Did he recommend that you recuse 
yourself?
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Whitaker. Can I finish?
    Chairman Nadler. The witness may finish his answer.
    Mr. Whitaker. Okay. He also said, Congressman, that the 
decision was mine to make based on the regulations of the 
Department of Justice, and I made that decision, and I stand by 
that decision.
    Chairman Nadler. Mr. Ratcliffe.
    Mr. Ratcliffe. Mr. Attorney General, I spent a number of 
years as a Federal prosecutor and because of that service, I 
have literally hundreds of friends at the Department of Justice 
right now and at its component agencies like the FBI, folks 
that I have tremendous respect for. And so I appreciate your 
stated desire earlier today to want to highlight their good 
work.
    And for the new members of the Judiciary Committee, an 
oversight hearing is typically where that would take place, 
where an Attorney General would give an accounting of the work 
of 115,000 men and women in the Justice Department and provide 
some idea of the vision with respect to the Department's 
priorities, priorities like drug and human trafficking, 
preventing terrorism, reducing gun and gang violence.
    Now, earlier this week, my colleagues on the other side of 
the aisle indicated that they had a great desire to reduce gun 
violence in this country. In fact, we had an 8-hour hearing 
with six witnesses that talked about the need to reduce gun 
violence in this country. We started this hearing at 9:30 this 
morning. It is now 12:30 in the afternoon, and I haven't seen 
you field a single question from the other side of the aisle 
about any of the enforcement priorities of the Department of 
Justice, despite the fact that you are the head of an 
organization that has greater ability to impact and reduce gun 
violence than anyone or anything in the country. So I may be 
the only person today that wants to ask you a question about 
that, but I am going to use the remainder of my time for that 
purpose.
    When I was at the Department of Justice, we had a very 
successful initiative called Project Safe Neighborhood. It was 
a program that took guns out of the hands of criminal 
offenders. It was a successful program that was killed by the 
Obama administration. The Obama Justice Department ended it. I 
understand that it has been reinstated during the Trump 
administration. I would like you to inform us about its 
progress as well as any other measures or programs or 
enforcement priorities of the Department of Justice with 
respect to reducing gun violence in this country.
    Mr. Whitaker. Thank you, Congressman. As you know, we 
served as United States attorneys together, until you went into 
politics, and I went into private practice. I want to talk 
specifically, and this is a really good question, about Project 
Safe Neighborhoods.
    In 2017, the Attorney General Sessions announced the 
expansion of Project Safe Neighborhoods, which encourages U.S. 
attorneys' offices to work specifically with their unique 
communities they serve to develop a customized crime-reduction 
strategy. One study showed that, when you and I were doing PSN, 
it reduced crime over all by 4.1 percent and with case studies 
showing reductions up to 42 percent of violent crime. We had 
the Project Safe Neighborhoods national conference, as I 
mentioned in my opening statement, and I can tell you that 
especially in our largest cities, our 29 major cities, we are 
seeing a reduction of violent crime because of U.S. attorneys 
specifically working with their sheriffs and police chiefs and 
their Federal and State and local partners in reducing gun 
violence. You know, some other things that we have done is the 
Attorney General is one of the four Cabinet positions that were 
part of the School Safety Commission that came out with a 
report in the last several months that gave a practical outline 
as to how States especially could work to reduce gun violence, 
including the idea of ERPOs. And there is, you know, 
Congressman, I really--I appreciate your tone that this 
oversight hearing is not a hearing about the types of things 
that we are talking about, but to--you know, the Chairman sent 
me a letter specifically outlining things that he wanted to 
talk about, and I don't feel like we have talked about many of 
those things. So I am glad that you offered that opportunity to 
talk about the Department of Justice's efforts to reduce gun 
violence.
    Mr. Ratcliffe. Thank you, Attorney General.
    I would like to yield the remainder of my time to 
Congressman Jordan.
    Mr. Jordan. I appreciate the gentleman yielding.
    Mr. Whitaker, are there any other memos, any other memos 
that Mr. Rosenstein has sent to Mr. Mueller that we don't know 
about, and if we did, would be redacted like the one that 
happened on August 2, 2017?
    Mr. Whitaker. Congressman, as you know, the special 
counsel's investigation is ongoing, and it would be 
inappropriate for me to talk about any other memos related to 
that.
    Mr. Jordan. Well, Mr. Whitaker, we already know that there 
has been some modification of the broadest order I think you 
could have with this August 2, 2017, memo. And all I am asking 
is, are there any other modifications, any other changes to the 
parameters of an investigation into the President of the United 
States?
    Chairman Nadler. The time of the gentleman has expired.
    The witness may answer the question.
    Mr. Whitaker. Congressman, just to be clear, the special 
counsel understands the scope of its investigation and is 
complying with all the regulations and orders related to that.
    Chairman Nadler. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    General Whitaker, you and I are both lawyers. My first day 
of crim law, my professor came in and said: If someone asks you 
a yes-or-no question, don't just repeat the question; answer 
yes or no. Otherwise, during your career, people will think you 
are not a good lawyer. We know you are a good lawyer. Let's 
heed that advice going forward.
    In November----
    Mr. Whitaker. We did not go to the same law school.
    Mr. Deutch. We did not. The advice is good nonetheless. In 
November 2018, Chris Wallace asked the President a question. He 
said: Did you know before you appointed him that he--meaning 
you--had a record that was so critical of Robert Mueller?
    And the President said: I didn't know that. I didn't know 
that he took views on the Mueller investigation.
    Do you believe President Trump was telling the truth when 
he said that he just did not know that you were critical of 
Mueller before your appointment?
    Mr. Whitaker. Congressman, the President----
    Mr. Deutch. No. I understand how it all worked. I am just 
asking you. Do you believe the President was telling the truth 
when he said he did not know that you had been critical of 
Robert Mueller before making your appointment?
    Mr. Whitaker. Congressman, I have no reason to believe when 
I sit here today that the President wasn't saying what he 
believed.
    Mr. Deutch. Who did you interview with for this--for the 
Chief of Staff job? Not for this job, for the chief of staff 
job?
    Mr. Whitaker. It was General Sessions' decision to make. I 
interviewed with him, and he offered me the job.
    Mr. Deutch. And before you got the job, did you ever--
before you took this job, did you ever speak with the President 
about the Mueller probe from May 17th, 2017 to September 22nd, 
2017?
    Mr. Whitaker. Are you saying about before I was actually 
the chief of staff?
    Mr. Deutch. I am saying between May 17, 2017----
    Mr. Whitaker. Well, Congressman, I had never met the 
President until after I joined the Department of Justice in 
2017.
    Mr. Deutch. So have you--let me just ask you another 
question. If you didn't communicate with him, did you 
communicate with anyone at the White House about the special 
counsel investigation before September 22, 2018?
    Mr. Whitaker. I assume you are excluding my appearances on 
CNN because I don't think anybody at the White House was 
watching----
    Mr. Deutch. If you talked to anybody at the White House--I 
mean, you have told me that the President wasn't watching 
those. Otherwise, he would have been aware of your position. So 
I assume the President wasn't watching. Did you talk about 
those appearances with anyone at the White House?
    Mr. Whitaker. I did not talk about my experiences on CNN 
with----
    Mr. Deutch. Did you talk about your views of the Mueller 
investigation with anyone at the White House?
    Mr. Whitaker. I did not talk about my views of the Mueller 
investigation with any of the White House during--in this time 
period, essentially May of 2017, until I joined the Department 
of Justice in October of 2017.
    Mr. Deutch. And throughout that process, did you ever 
communicate with anyone--here is the question. By my count, you 
made six comments in op-eds, talk radio, or on cable news 
critical of the special counsel between the time you 
interviewed in June 2017 and the time you were hired as Chief 
of Staff to the Attorney General. Did you ever use any 
intermediaries? Did you have anyone--since the President didn't 
know, did you have anyone communicate with the White House or 
anyone at the White House, either staff members, friends, or 
others, to let them know exactly where you stood as expressed 
in at least those six public statements?
    Mr. Whitaker. Congressman, I had--at the time you describe, 
May of '17 until I joined the Department on October 4th of 
2017, I didn't have a relationship with the White House.
    Mr. Deutch. Did you talk to any White House personnel 
before you were hired, anyone at the White House?
    Mr. Whitaker. Congressman, I----
    Mr. Deutch. That is an easy one. Did you talk to anyone at 
the White House? Is the answer no?
    Mr. Whitaker. Congressman, I had previously been at the 
White House when I was a private citizen to talk about a 
different position.
    Mr. Deutch. No. I understand. But did you talk to anyone at 
the White House about your views on Mueller, any personnel at 
the White House at all before you assumed the position? Let me 
just ask----
    Mr. Whitaker. In May----
    Mr. Deutch. Let me just go forward because here is the 
issue. When you became the Attorney General--since becoming the 
Attorney General, you said that you had been briefed on the 
special counsel. Did you use anyone else to have 
communications? Did you do anything to make sure that the White 
House might have learned some of what you learned in those 
briefings? Could it be that someone else on your staff might 
have spoken to someone at the White House since you told us you 
didn't?
    Mr. Whitaker. Congressman, I am not aware of that 
happening.
    Mr. Deutch. Who else--how many people were in those 
briefings with you when you were briefed about the Mueller 
investigation?
    Mr. Whitaker. Congressman, I am not going to go into the 
specifics of the briefing, but it was a very limited group. 
There was only one member of my staff who was present with me.
    Mr. Deutch. And have there been--have you ever attempted to 
use any intermediaries to get information to the President or 
others on his staff?
    Mr. Whitaker. No. I have not attempted to use any 
intermediaries to get information to the President or his 
staff.
    Mr. Deutch. So I will close, Mr. Chairman, by saying this 
is going to be a long hearing. We have been going on for a 
while. The concern that we have, Mr. Whitaker, is that there 
was no Senate confirmation here. We are not the Senate, but the 
administration justified their decision in picking you under 
the Vacancies Reform Act. There was a law on the books for the 
Attorney General succession and the authority to oversee the 
special counsel's work. It goes from one Senate confirming 
official to another, from the AG, Deputy AG, Associate Attorney 
AG, Solicitor General, Assistant Attorney General, the Attorney 
General in charge of the Office of Legal Counsel, Assistant AG 
for National Security, Assistant AG in charge of the Criminal 
Division, and on and on and on. None of them, none of them are 
the Chief of Staff to the Attorney General. I think what we are 
trying to figure out is why is it exactly----
    Mr. Collins. Point of order.
    Mr. Deutch [continuing]. That the President chose to go 
beyond the statute and choose you, and I hope over the balance 
of this hearing, that will become clear.
    I yield back.
    Chairman Nadler. The time of the gentleman has expired. The 
witness may answer.
    Mr. Whitaker. Thank you, Congressman. I believe the 
President chose me to be the Acting Attorney General for a 
couple reasons. First, I had served previously in the 
Department as a United States attorney, which is a very 
important position, as Mr. Ratcliffe previously stated, in the 
administration of justice, and for 13 months, I was the Chief 
of Staff for Attorney General Sessions, and I had done the full 
year with him, side by side. Obviously, he made the decisions, 
but I gave him advice and counsel, and I was aware of 
everything that was going on at the Department of Justice that 
I--obviously that General Sessions wasn't recused from, and so 
I think the President was comfortable that to continue the 
momentum at the Department of Justice that we had established 
in addressing these important priority issues, like reducing 
violent crime, combating the opioid crisis, and others that the 
President felt I was best positioned to do the duties of 
Attorney General.
    Chairman Nadler. Mr. Biggs.
    Mr. Biggs. Thank you, Mr. Chairman.
    I will just say to Mr. Whitaker: My questions normally--in 
a normal oversight committee would be vastly different than the 
direction I am going to go because we have kind of wandered 
into this other stream over here, so I am going to ask you some 
questions.
    The longstanding constitutionally based Department of 
Justice policy holds that a sitting President cannot be 
indicted. Is that--and that is based on the last review, which 
happened under the Clinton administration. Is that still in 
effect, or has it changed?
    Mr. Whitaker. That is still the policy of the Department of 
Justice.
    Mr. Biggs. Have you spoken to Deputy Attorney General 
Rosenstein about his statements on invoking the 25th Amendment 
and wiretapping President Trump?
    Mr. Whitaker. I have seen the statements by Deputy 
Rosenstein that he made to the press regarding those 
statements, and I have no reason to believe that he did not--
that those statements, you know, were consistent with what he 
believed at the time.
    Mr. Biggs. Okay. I am not sure I understood that. You said 
you have no reason to believe that they were not consistent, so 
there are a couple of negatives there. Do you believe they were 
consistent with what he believed at the time?
    Mr. Whitaker. I do. I believe what Deputy Attorney General 
Rosenstein said to the press when it was first reported about 
his decision.
    Mr. Biggs. Oh. You are talking about his comments, not--his 
comments to the press, not the ones about him wearing a wire?
    Mr. Whitaker. I am talking about Deputy Attorney General 
Rosenstein's comments to the press after it was reported that 
he had considered wearing a wire and invoking the 25th 
Amendment.
    Mr. Biggs. And his response--I didn't mean to interrupt, 
but his responses you think are consistent. So did you talk to 
him about this issue at all?
    Mr. Whitaker. Again, I am not here to talk about the 
internal discussions that I had with----
    Mr. Biggs. This is really critical. With all due respect, 
this is not an ongoing--this has nothing to do with an ongoing 
investigation. What it has got to do with is Mr. Rosenstein and 
his role as an unbiased overseer of the Mueller investigation. 
So it is not directly dealing with the investigation but deals 
with his capacity to be unbiased. So I am not asking whether--I 
am not trying to get into the substance or even the periphery. 
I want to know, though, did you have a conversation with Mr. 
Rosenstein about his comments as reported?
    Mr. Whitaker. Congressman, this is an important question to 
you, but I am not going to answer my conversations with Deputy 
Attorney General Rosenstein. I believe that they are 
deliberative. Obviously, I am exercising the full 
responsibilities of the Acting Attorney General position.
    Mr. Biggs. I appreciate that. I appreciate that. I know 
that that answer is important to you. I know that is important 
to you, but answering in a way that we as the American people 
can understand it, that is important to us.
    So let's get to June 21, 2017, where you said: The truth is 
there was no collusion with the Russians in the Trump campaign. 
There was interference by the Russians into the election, but 
there was not collusion with the campaign. That is where the 
left seems to be combining those two issues. The last thing 
they want right now is the truth to come out, and the fact that 
there is not a single piece of evidence that demonstrates that 
the Trump campaign had any illegal or even improper 
relationships with the Russians, it is that simple.
    Do you still adhere to that statement? Is that still true 
in your mind today?
    Mr. Whitaker. Congressman, as I have mentioned before in a 
previous questioning about my statements, as a private citizen 
before I joined the Department of Justice, those were made 
based on publicly available information, and I had no inside 
information. I did not know the details of the investigation. I 
obviously know the traditions of the Department of Justice, the 
rules and regulations, and I will continue to follow those as I 
exercise the duties of Acting Attorney General.
    Mr. Biggs. I remember the answer that you gave to a similar 
question but not this question here, and so that is not what I 
am asking. What I am asking is, as we sit here today, a year 
and a half later, has your opinion changed from what you stated 
June 21, 2017? Has it changed? That is a simple question. That 
is not hard.
    Mr. Whitaker. Congressman, the special counsel's 
investigation is an ongoing investigation, and I am not going 
to characterize that investigation or give you my opinion of 
that investigation as I sit here today.
    Mr. Biggs. So the scope memo indicates that the scope of 
the Mueller investigation was any links and/or coordination 
between the Russian Government and individuals associated with 
the campaign of President Donald Trump and, two, any matters 
that arose or may arise directly from that investigation. Has 
that scope been expanded in any way?
    Mr. Whitaker. Congressman, as I was discussing with 
Representative Jordan, I am not going to talk about the scope--
--
    Mr. Biggs. Okay.
    Mr. Whitaker [continuing]. Of the special counsel----
    Mr. Biggs. Then I will go forward, then, and say the 
indictments and the relation to the scope: One, Papadopoulos 
for false statements occurring after Mueller was appointed; 
Manafort for acts unrelated to the election or campaign; Gates, 
acts unrelated to the election or the campaign; Flynn, false 
statements about post-election conversations; Richard Pinedo, 
unrelated to the campaign or election; Cohen, referred by 
Mueller to Southern District of New York because it was out of 
his scope; Sam Patten, not related to the 2016 election or 
campaign; and Stone for false statements occurring after 
Mueller was appointed. Not one indictment alleged an illegal 
relationship between a member of the Trump campaign and Russia, 
and that is consistent with what we have seen so far.
    And I thank you, Mr. Chairman.
    Chairman Nadler. The time of the gentleman has expired.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Acting AG, I actually wanted to ask you some questions 
regarding what you did prior to being Acting AG. It is my 
understanding that before you moved to the Department of 
Justice, that you were the Executive Director of the Foundation 
for Accountability----
    Mr. Collins. Mr. Chairman. Mr. Chairman. I have a point of 
order. Mr. Chairman, a point of order.
    Ms. Bass. FACT is a conservative ethics watchdog----
    Mr. Collins. I have a point of order.
    Ms. Bass [continuing]. He made full use of the opportunity 
to call for investigations of multiple Democrats.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Collins. My point of order about the statement from the 
gentlelady is outside of the scope of an oversight 
investigative hearing of the Department of Justice.
    Ms. Bass. It is not. You need to let me finish my question, 
and you will see what I was asking.
    Chairman Nadler. The gentlelady will suspend.
    That is not a valid point of order. The gentlelady will 
continue.
    Ms. Bass. Thank you.
    Mr. Collins. Mr. Chairman, I make a point of order rule 
pursuant to the House rules that the question is outside the 
scope of----
    Chairman Nadler. The gentlelady has the floor.
    Mr. Collins. Are you just going to override a point of 
order?
    Ms. Bass. Yeah, because your point of order is not valid.
    Chairman Nadler. The gentlelady will suspend. I ruled that 
it was not a valid point of order, and the gentlelady has the 
floor.
    The gentlelady will continue.
    Ms. Bass. Thank you.
    Mr. Collins. I was not through with my point of order.
    Chairman Nadler. The gentlelady will continue.
    Mr. Collins. Appeal the ruling of the chair.
    Mr. Cicilline. Move to table.
    Ms. Jackson Lee. I move to table.
    Chairman Nadler. The motion to table the appeal of the 
ruling of the Chair is before the committee. Motion to table is 
not debatable.
    The clerk will call the roll.
    One moment while we set up the clerk.
    Mr. Cicilline. Mr. Chairman, may I make a unanimous consent 
request while we are waiting for this vote?
    Chairman Nadler. The clerk will call the roll.
    Ms. McElvein. Mr. Chairman?
    Chairman Nadler. Aye.
    Ms. McElvein. Mr. Chairman votes aye.
    Ms. Lofgren?
    [No response.]
    Ms. McElvein. Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. McElvein. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. McElvein. Mr. Cohen votes aye.
    Mr. Johnson?
    [No response.]
    Ms. McElvein. Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. McElvein. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. McElvein. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. McElvein. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. McElvein. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. McElvein. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. McElvein. Mr. Swalwell votes aye.
    Mr. Lieu?
    [No response.]
    Ms. McElvein. Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. McElvein. Mr. Raskin votes aye.
    Ms. Jayapal?
    [No response.]
    Ms. McElvein. Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. McElvein. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. McElvein. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. McElvein. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. McElvein. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. McElvein. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. McElvein. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye
    Ms. McElvein. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. McElvein. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. McElvein. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. McElvein. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. McElvein. Mr. Collins votes no.
    Mr. Sensenbrenner?
    [No response.]
    Ms. McElvein. Mr. Chabot?
    [No response.]
    Ms. McElvein. Mr. Gohmert?
    [No response.]
    Ms. McElvein. Mr. Jordan?
    [No response.]
    Ms. McElvein. Mr. Buck?
    [No response.]
    Ms. McElvein. Mr. Ratcliffe?
    [No response.]
    Ms. McElvein. Mrs. Roby?
    Mrs. Roby. Nay.
    Ms. McElvein. Mrs. Roby votes nay.
    Mr. Gaetz?
    [No response.]
    Ms. McElvein. Mr. Johnson?
    [No response.]
    Ms. McElvein. Mr. Biggs?
    Mr. Biggs. No.
    Ms. McElvein. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. McElvein. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. McElvein. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. McElvein. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. McElvein. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. McElvein. Mr. Armstrong votes no.
    Mr. Steube?
    [No response.]
    Chairman Nadler. Is there any member of the committee who 
hasn't voted who wishes to vote?
    Ms. Lofgren. Mr. Chairman?
    Chairman Nadler. Ms. Lofgren.
    Ms. McElvein. Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. McElvein. Ms. Lofgren votes aye.
    Chairman Nadler. Is there any other member who hasn't voted 
who wishes to vote?
    The clerk will report.
    Ms. McElvein. Mr. Chairman, the ayes are 21, the noes are 
8.
    Chairman Nadler. In that case, the motion to table is 
adopted.
    We return to Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Whitaker, during the time that you were the executive 
director of the Foundation for Accountability and Civic Trust, 
you recommended that--FACT called for ethics investigations 
into, or filed complaints about, the following Democratic 
politicians, officials, and organizations: the Democratic 
National Committee, Hillary Clinton, John Kerry, Speaker 
Pelosi, Representatives Ami Bera, Huffman, Lewis. In fact, the 
organization actually called for an investigation into a member 
of this committee, Representative Hank Johnson.
    So that is a total of about 46 individuals or organizations 
that over the time period when you were the executive director 
of FACT you called for either ethics investigations or filed 
complaints.
    So, since you have joined the AG's office, I want to know 
whether or not any investigations have been initiated into 
those people and--well, just answer that. Yes or no, have there 
been investigations initiated into the people that you 
suggested be investigated during the time you were the ED of 
FACT?
    Mr. Whitaker. Congresswoman, I was the Executive Director 
of the Foundation for Accountability and Civic Trust. We were 
an independent, nonpartisan ethics watchdog group. We did file 
ethics complaints against Members of both parties.
    Ms. Bass. You filed ethics complaints against Republicans? 
Can you tell me which Republicans you filed ethics complaints 
against?
    Mr. Whitaker. All of--again, you know, I am here for an 
oversight hearing, and I cannot imagine----
    Ms. Bass. Yes, you are, and so my questions are leading to 
that. So can you answer that? Which Republicans did you file or 
ask for ethics investigations of?
    Mr. Whitaker. The nice thing about being an ethics watchdog 
group is that FACT filed all of its complaints on its website, 
and I would refer you to that.
    Ms. Bass. I don't have time to look into the website. I am 
asking you a question now. You were the Executive Director. 
Which Republicans did you file?
    Mr. Whitaker. Congresswoman, again, I--as I sit here today, 
all I can do is refer you to the website----
    Ms. Bass. Okay. So, let me just ask this. Since you have 
been at the----
    Mr. Whitaker [continuing]. Of the Foundation for 
Accountability and Civic Trust.
    Ms. Bass. Since you have been in the DOJ, have any 
complaints been initiated against the 46 Democrats, either 
individuals or organizations, in the time that you have been 
the Acting AG?
    Mr. Whitaker. Congresswoman, as I sit here today, I am not 
aware of any, but, obviously, if I had recommended as the 
executive director of FACT that someone be investigated, I 
would--and my recommendation was adopted by the Department of 
Justice, I am certain that I could not be involved in that 
investigation.
    Ms. Bass. You are certain, but you don't know whether you--
did you recuse yourself of any?
    Mr. Whitaker. You know, recusal decisions--I think this is 
important for everyone to understand, is recusal decisions are 
made based on a matter----
    Ms. Bass. Let me move on. I wanted to ask questions about 
ethics guidance that you received in December. Did they 
recommend that you recuse yourself from any involvement in the 
criminal investigation into the World Patent Marketing, the 
fraudulent patent promotion scam to which you still owe almost 
$10,000 to the court? Did they provide an ethics opinion, or 
did you not seek one related to the World Patent Marketing 
matter?
    Mr. Whitaker. Just to be clear, Congresswoman, who do you 
mean by ``they''? Do you mean the ethics officials?
    Ms. Bass. I am asking you, what guidance--did they 
recommend that you recuse yourself? So that is a question to 
you. Did they recommend that you recuse yourself from any 
involvement in the criminal investigation into the World Patent 
Marketing?
    Mr. Whitaker. I am recused from the investigation into that 
company.
    Ms. Bass. What about any matter involving Hillary Clinton? 
It has been well documented of your public calls for renewed 
investigations into matters related to Mrs. Clinton.
    Mr. Whitaker. Again, any investigations into former 
Secretary Clinton, if they are open--confirmation or denial of 
a recusal would suggest that there is or is not an 
investigation regarding that person.
    Ms. Bass. You know, I actually believe I have more time on 
the clock since I was interrupted.
    Chairman Nadler. I am informed we paused the time.
    Ms. Bass. Okay.
    Go ahead. Continue.
    Mr. Whitaker. What I am saying is your inquiry about 
whether or not I am recused from any matter concerning former 
Secretary Clinton would, by its very nature, suggest that there 
is an open matter regarding Secretary Clinton.
    Any recusal decision that I would make would be based on 
what the matter was, and we would go through the exact same 
analysis that I went through in the case of the special 
counsel's investigation.
    Ms. Bass. Thank you.
    Chairman Nadler. At the request of a number of people, the 
Committee will stand in recess for 5 minutes.
    [Recess.]
    Chairman Nadler. The Committee will come to order. We will 
resume questioning the witness under the 5-minute rule.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Whitaker, I am sure you would agree that the appearance 
of favoritism or partisanship by law enforcement agencies is 
absolutely deadly to a Nation that is founded upon the 
principle of equal justice under law. If law enforcement 
agencies are perceived to be biased or partisan, I think faith 
in them and in our system of justice can quickly collapse. And 
I am concerned about many alarming developments in the conduct 
of the FBI and the Department of Justice that call its 
impartiality into question.
    I have been reading Gregg Jarrett's book on the Comey 
investigation into the Clinton emails and the Uranium One deal 
and the Mueller investigation into the Trump campaign. And in 
it, Mr. Jarrett meticulously documents case after case of 
political bias by the FBI, of illegal conduct at the highest 
levels of the Department of Justice, destruction of evidence, 
possible obstruction of justice by Mr. Comey himself, perjury 
by top DOJ officials, prosecutorial misconduct and political 
bias throughout Mueller's team.
    Now, if the Russia investigation was initiated because of a 
patently false dossier, why aren't we seeing an equally 
aggressive investigation into these very meticulously 
documented charges?
    Mr. Whitaker. Congressman, as you mentioned at the 
beginning, we do conduct our investigations independent of 
political interference at the Department of Justice. The----
    Mr. McClintock. That is not what----
    Mr. Whitaker. Let me finish. Let me finish.
    Mr. McClintock [continuing]. The preponderance of the 
evidence is telling me from sources such as this one.
    Mr. Whitaker. Well, and specifically related to the 
document you just described, that is the subject of an 
Inspector General's review, investigation, together with the 
U.S. attorney from the District of Utah, that was appointed by 
General Sessions to look into and review certain matters that 
this Committee had asked be reviewed.
    Mr. McClintock. Can we expect a full, complete, and 
aggressive investigation of charges of wrongdoing by officials 
in the FBI and the Department of Justice on these matters?
    Mr. Whitaker. Congressman, I can assure you that any 
allegation of misconduct by an employee of the Department of 
Justice will be looked into thoroughly.
    Mr. McClintock. Well, I think back to the Lois Lerner 
scandal, and that never was addressed. Why should I be more 
confident in your assurances now?
    Mr. Whitaker. Congressman, I was a private citizen when the 
Lois Lerner situation occurred. In fact, it occurred mostly 
under the previous administration. I know that General Sessions 
did a review of that matter before I was chief of staff. So I 
really don't have any visibility, as I sit here today as Acting 
Attorney General, as to what happened in that situation.
    Mr. McClintock. Let me talk about the apparent double 
standard and disproportionate show of force in cases like the 
arrest of Roger Stone.
    As I understand it, Stone's attorneys were in constant 
contact with the Department of Justice. He is 66 years old, 
doesn't own any firearms, and yet he was the subject of a pre-
dawn raid by 29 combat-armed officers.
    And as Mr. Jordan has pointed out, CNN was obviously tipped 
off to have cameras there. And, in fact, they arrived to set up 
before the raid began. They were allowed to stay to film the 
entire spectacle, despite the fact the public was kept out, 
ostensibly because the FBI was so concerned of violence by this 
66-year-old unarmed man in this pre-dawn raid.
    You compare that to cases like Bob Menendez, who was 
allowed to quietly turn himself in. The obvious explanation is 
that this was a political act whose purpose was to terrify 
anyone thinking of working in the Trump campaign in the future. 
Again, it harkens back to the conduct of the IRS, terrifying 
rank-and-file Tea Party members with tax audits because of 
their political views.
    How do you explain this, and what are you doing about it?
    Mr. Whitaker. Congressman, this is a very serious situation 
that you raise, but just know that the FBI makes arrests in a 
manner most likely to ensure the safety of its agents and of 
the person being arrested. The FBI must also consider----
    Mr. McClintock. Well----
    Mr. Whitaker [continuing]. The safety of the surrounding 
community.
    Mr. McClintock [continuing]. I mean, how do you explain the 
discrepancy between the way Roger Stone was treated and the way 
Bob Menendez was treated?
    Mr. Whitaker. Again, the arrest team has to consider 
numerous factors in making the judgment as to how to conduct 
the operation.
    Mr. McClintock. Do you at least understand the appearance 
of impropriety that that projects to the country and undermines 
the faith that the American people have in their justice system 
and in its detachment from politics?
    Mr. Whitaker. Congressman, I cannot provide the details in 
this open hearing without revealing what factors the FBI 
considers in those decisions. And, obviously, that information 
could be used to put other FBI agents conducting other 
operations in harm's way.
    What I can assure you, Congressman, is that the FBI is 
prepared to brief this matter, on the decisions that were made 
in that particular arrest, in a closed session of this 
committee.
    Chairman Nadler. Time of the gentleman has expired.
    Mr. Richmond?
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Whitaker, the DOJ was created in 1957 under the Civil 
Rights Act, correct?
    Mr. Whitaker. Congressman, I believe----
    Mr. Richmond. It was.
    Mr. Whitaker [continuing]. Grant signed the Department of 
Justice----
    Mr. Richmond. No, no, no, no, no. It was. We are just not 
going to do all this delay stuff. It was.
    And it was created to protect against discrimination based 
on race, color, sex, disability, religion, familial status, and 
national origin. Wouldn't you agree?
    Mr. Whitaker. You are talking about the Civil Rights 
Division specifically?
    Mr. Richmond. No. DOJ.
    Mr. Whitaker. The Department of Justice was set up to----
    Mr. Richmond. You know what? Never mind. Let's keep going.
    You were Chief of Staff when Jeff Sessions testified in 
this committee in 2017, correct? November.
    Mr. Whitaker. I was. And, in fact, I sat right behind him--
--
    Mr. Richmond. Right. That is exactly where I am going. 
Because do you remember me asking him a question about 
diversity in leadership in DOJ and the fact that they had no 
African Americans in leadership at DOJ?
    Do you have any African Americans at the top leadership in 
the Department of Justice?
    Mr. Whitaker. If the Senate confirms my friend Don 
Washington to be head of the U.S. Marshals, which I believe is 
pending on the floor of the Senate currently, then the answer 
to that question would be yes.
    But as we sit here today, I do not believe--but what do you 
consider the leadership of the Department of Justice?
    Mr. Richmond. The hierarchy with people responding to them, 
head of a division, Deputy Attorney Generals. If you look at 
the flowchart, the upper echelon.
    So think about the image to me. DOJ created to protect 
civil rights and advocate for all. We have had the last two 
Attorney Generals come here; not one of them thought they could 
find, or did find, an African American at DOJ to bring with 
them. And you are charged with enforcing civil rights and 
making people feel that you are fighting for equality.
    You mentioned Charlottesville and charging the person with 
30 counts, and I applaud you for that. Do you believe that in 
Charlottesville there were good people on both sides?
    Mr. Whitaker. Congressman, I think the act, while it is, 
you know, again, part of an ongoing prosecution, I can tell 
you----
    Mr. Richmond. Let me just say this.
    Mr. Whitaker [continuing]. The act was charged as a hate 
crime----
    Mr. Richmond. I agree with you, and I applaud you----
    Mr. Whitaker [continuing]. Heinous act.
    Mr. Richmond. I applaud you for that. But that is one 
individual. I am asking you, in general, do you believe that 
there were good people that were protesting and there were good 
people that were anti-protesters? So I am talking about the 
people----
    Mr. Whitaker. Congressman----
    Mr. Richmond [continuing]. Marching with lights--I mean, 
the tiki torches and the chants. Do you think that some of them 
were good people, is the short question.
    Mr. Whitaker. Congressman, there is no place in a civil 
society for hate, for white supremacy, or for white 
nationalism.
    Mr. Richmond. Thank you.
    Also, out of the 115,000 employees that you have at DOJ, 
are any of them transgender?
    Mr. Whitaker. Congressman, as I sit here today, I don't 
know the answer to that question. I could imagine that 
generally, based on the way the population is distributed, that 
we would. I would also be happy to get back to you with that 
answer if those people identify that way.
    Mr. Richmond. Would you have a problem with a transgender 
person being from a clerk to an agent in the field for any of 
your law enforcement agencies?
    Mr. Whitaker. No.
    Mr. Richmond. Thank you.
    You mentioned also that voter fraud is of a serious 
concern. How many voter fraud cases have you all initiated?
    Mr. Whitaker. Congressman, as I mentioned in previous 
questioning, I am happy to get those specific details back to 
you. As I sit here today, I don't know off the top of my head.
    Mr. Richmond. Is it a lot? Is it a few? I mean, we are 
talking about a serious concern in the United States of 
America. I would think we are talking over 100. Are we talking 
less than 25? Just--but if you don't know a ballpark, I am fine 
with that.
    What about North Carolina? Because that is the only 
congressional seat that has not been determined because of 
widespread voter suppression in that race. Has the DOJ--have 
they opened an investigation in that? And if they have, I guess 
you can't talk about it.
    Mr. Whitaker. Congressman----
    Mr. Richmond. But are you looking at that?
    Mr. Whitaker [continuing]. While I can't talk about open 
investigations--and I appreciate your acknowledging that there 
might be open investigations--I am very aware of what is 
happening in North Carolina. We have previously done voting 
rights cases in North Carolina. And we are watching that 
situation very carefully.
    Mr. Richmond. Well, I don't want to go over my time, and I 
guess in the last 12 seconds I would just implore you to 
implore which will now be the third Attorney General during 
this term that after 2 years we should be doing better with 
diversity in the Department of Justice. And I am talking, more 
specifically, black and brown people and women. I applaud you 
for having one woman with you, but the DOJ should look like the 
country. And you all have been here twice, and it is not a fair 
representation of what makes this country great.
    With that, I yield back the balance of my time.
    Chairman Nadler. I thank the gentleman.
    Mr. Cline?
    Oh, I am sorry. I am sorry.
    Mrs. Lesko?
    Mrs. Lesko. Thank you.
    You know, I have to say that I am very disappointed in this 
hearing. You know, I ran for Congress to get things done. And 
at the beginning of this, you know, we were told that this is 
about asking about DOJ oversight and some legitimate questions. 
And here we are. It is nothing but character assassination, 
harassment of our witness. And it is really disappointing.
    At first, I was mad. I have to tell you, when this thing 
started hours ago, I went outside, and a reporter asked me, 
``What do you think of the hearing?'', and I said, ``It is a 
joke.''
    But now I am just sad. I am sad. Because we were on the 
floor just a little while ago talking about how we were 
honoring our late Representative Dingell and talking about 
bipartisanship and how we need to get things done. And yet here 
we are with a blatant political show that doesn't help 
anything. I imagine if American people are watching this right 
now, they would be shaking their heads, like, what are you 
doing there? We need to work together to get things done.
    And so that is my statement, but I do have a question for 
Mr. Whitaker about DOJ oversight.
    Following the New York Governor Cuomo's support of abortion 
up to the moment of birth and Governor Northam of Virginia's 
comments indicating support of an action which, in my opinion, 
relates to infanticide, are you concerned about some of these 
actions of late that implicate the Federal Partial-Birth 
Abortion Act that criminalizes gruesome procedures? I mean, I 
am getting really concerned that this is violating the law. And 
has DOJ looked into this?
    Mr. Whitaker. Yes, as an American citizen, I am very 
concerned.
    Mrs. Lesko. And can you also tell me--I read recently a 
Wall Street Journal opinion piece. It was from 2018. And in 
that, it said, in New York City, thousands of more black babies 
are aborted than born alive each year. And my grandkids are 
African American.
    And so, you know, if there was a crime occurring in this 
country that exceeded the number of deaths from cancer, heart 
disease, AIDS, accidents combined, which abortions do, is that 
something that the DOJ would get involved in and be concerned 
about and try to stop?
    Mr. Whitaker. Congresswoman, every life is valuable. And 
while I can't wade into the political issue that you raise, the 
members of this committee have a lot of power as to how we 
value life and how we enforce the laws at the Department of 
Justice.
    And this is an issue that I know there is a lot of passion 
about, and I appreciate your passion, and it is something that 
we actually share together. And if you look at my statements 
previous to joining the Department of Justice, especially 
during the 2014 campaign for the United States Senate, I was 
very outspoken in this regard.
    But as I sit here as Acting Attorney General, I think it 
would be inappropriate for me to comment more fulsomely on this 
issue. But we are going to enforce the laws that Congress 
passes, and we are going to hold those accountable that violate 
the law.
    Mrs. Lesko. Thank you.
    I yield back my time.
    Chairman Nadler. Thank you.
    Mr. Jeffries?
    Mr. Jeffries. Mr. Whitaker, thank you for your presence 
here today.
    This hearing is important because there are many Americans 
throughout the country who are confused. I am confused. I 
really am. We are all trying to figure out: Who are you, where 
did you come from, and how the heck did you become the head of 
the Department of Justice? So hopefully you can help me work 
through this confusion.
    Mr. Whitaker. All right, well, I mean, Congressman----
    Mr. Jeffries. Mr. Whitaker, that was a statement, not a 
question.
    Mr. Whitaker. Okay.
    Mr. Jeffries. I assume you know the difference.
    The investigation into possible Trump-Russia collusion in 
the 2016 election has resulted in 37 indictments. Is that 
correct?
    Mr. Whitaker. I believe that number is correct, but most of 
those folks were Russian citizens.
    Mr. Jeffries. Thirty-four individuals have been indicted, 
true?
    Mr. Whitaker. While I haven't counted those as I prepared 
for my hearing preparation, I believe those are consistent with 
the numbers as I know them.
    Mr. Jeffries. Three corporate entities have been indicted, 
correct?
    Mr. Whitaker. I believe so. Correct.
    Mr. Jeffries. The investigation has identified 199 
different criminal acts. True?
    Mr. Whitaker. I haven't counted every indictment, but that 
sounds consistent with what I understand.
    Mr. Jeffries. There have been seven guilty pleas, correct?
    Mr. Whitaker. Yes, there have been seven guilty pleas.
    Mr. Jeffries. Four people have already been sentenced to 
prison. True?
    Mr. Whitaker. I believe so, but, again, I do not have this 
information in front of me. So, to the extent that I disagree 
with you, it is because these are facts----
    Mr. Jeffries. Understood. Thank you.
    Trump's best friend, Roger Stone, was recently indicted for 
lying to Congress in connection with his possible involvement 
with WikiLeaks and Russian interference with the 2016 election, 
correct?
    Mr. Whitaker. Yes. And I mentioned Mr. Stone's indictment 
and arrest.
    Mr. Jeffries. Trump's Campaign Chairman, Paul Manafort, 
pled guilty to conspiracy to defraud the United States. True?
    Mr. Whitaker. Mr. Manafort did plead guilty, yes.
    Mr. Jeffries. Trump's Deputy Campaign Manager, Rick Gates, 
has pled guilty to lying to the FBI, correct?
    Mr. Whitaker. While I don't have the indictment in front of 
me, I have no reason to disagree with you.
    Mr. Jeffries. Trump's former National Security Advisor, 
Michael Flynn, has been guilty to lying to the FBI, correct?
    Mr. Whitaker. That is a true fact, yes.
    Mr. Jeffries. Trump's longtime personal attorney and 
consigliere, Michael Cohen, pled guilty to lying to Congress 
about the Trump real estate organization's Moscow project. Is 
that true?
    Mr. Whitaker. I believe that was one of the bases for his 
plea agreement. I actually--there were several other reasons 
that Mr. Cohen pled guilty.
    Mr. Jeffries. Trump's campaign foreign policy advisor, 
George Papadopoulos, has pled guilty to lying to Federal 
investigators about his contacts with Russian agents during the 
2016 campaign. True?
    Mr. Whitaker. While I am sure there are many who would 
disagree with the title that you put on Mr. Papadopoulos, it is 
true that he has pled guilty, yes.
    Mr. Jeffries. So, despite all of the evidence of criminal 
wrongdoing that has been uncovered, do you still believe that 
the Mueller investigation is a lynch mob?
    Mr. Whitaker. Congressman, can you tell me specifically 
where I said that?
    Mr. Jeffries. I would be happy to. So, in a tweet that you 
issued on August 6 of 2017, you made reference to ``Note to 
Trump's lawyer: Do not cooperate with Mueller's lynch mob.'' Do 
you recall that?
    Mr. Whitaker. I recall that I said--that I retweeted an 
article that was titled that. I did not necessarily agree with 
that position, but my point was that it was an interesting read 
for those that want to understand the situation.
    Mr. Jeffries. Okay. Reclaiming my time.
    Manafort, Gates, Flynn, Cohen, Papadopoulos, and Stone are 
all in deep trouble. One by one, all of the President's men are 
going down in flames. It is often said, where there is smoke, 
there is fire. There is a lot of smoke emanating from 1600 
Pennsylvania Avenue right now.
    Yet you decided not to recuse yourself. Is that right?
    Mr. Whitaker. Congressman, the decision to recuse was my 
decision to make. I looked at all of the information, I 
consulted with many people that I have discussed today, and I 
determined that it was not necessary for me to recuse.
    Mr. Jeffries. And Donald Trump considered the Sessions 
recusal to be a betrayal. Is that right?
    Mr. Whitaker. Congressman, I have no idea, as I sit here 
today, what the President believed about General Sessions' 
recusal.
    Mr. Jeffries. Okay, so let's be clear. The investigation 
into Russia's attack on our democracy is not a witch hunt, it 
is not a fishing expedition, it is not a hoax, it is not a 
lynch mob. It is a national security imperative. The fact that 
people suggest otherwise comes dangerously close to providing 
aid and comfort to the enemy.
    In your final week, keep your hands off the Mueller 
investigation.
    I yield back.
    Chairman Nadler. I thank the gentleman.
    I now recognize the gentleman from Virginia, Mr. Cline.
    Mr. Cline. Thank you, Mr. Chairman.
    Thank you, Mr. Acting Attorney General.
    I was hopeful that we would get into some oversight over 
the array of areas of the Department of Justice that are so 
critical and so important to addressing the problems that are 
facing my community. Drugs, crime--all of these issues are of 
top concern to my constituents.
    And one of the most important things that I hear about when 
I get back to my district is, are you going to keep the 
government operating? Can you reach an agreement on immigration 
issues?
    So when we talk about immigration, I can ask you a couple 
of questions that would probably help get to an immigration 
agreement.
    The backlog of pending cases in immigration courts 
nationwide have been growing exponentially since 2008, from 
fewer than 200,000 cases in 2008 to more than 800,000. And 
Border Patrol is currently apprehending almost 50,000 aliens 
each month, a certain percentage of which ends up in that same 
pending-case backlog.
    And in the face of this backlog, what steps is DOJ taking 
to ensure that its immigration judges can efficiently and 
effectively adjudicate cases and reduce this backlog of pending 
cases in a fair and efficient manner?
    Mr. Whitaker. Thank you, Congressman. This is an important 
issue to the Department of Justice, and our immigration judges 
work hard every day to adjudicate those cases. But, quite 
frankly, the number of immigration judges we have have been 
overwhelmed by the number of asylum seekers.
    Over 80 percent, and really over 90 percent, of those that 
are encountered at the border and detained and arrested claim 
some form of asylum. Ultimately, that causes those folks to be 
put into the immigration court system and then requires that a 
hearing be held by an immigration judge.
    And, meanwhile, most of these folks, those 800,000 that are 
pending, are not part of the detained docket; they are part of 
the released docket. And those cases take longer, the ones that 
are not detained, the nondetained docket. And they have caused 
since 2008 that number to go dramatically up.
    What we have done about that situation is General Sessions 
and I have issued Attorney General orders changing some of the 
specifics as to how those cases are adjudicated. And, in 
addition, we have, together with the help of Congress--which 
you have authorized and funded more immigration judges--we have 
put a dramatic number of more judges especially to the areas 
where it is needed, which is oftentimes at the border.
    Mr. Cline. So you have also put in place an additional 
performance metric to gauge the performance of judges working 
to complete cases and reduce the backlog. Are those working?
    And you have gotten pushback from groups who are concerned 
that they amount to case quotas. And if they are working, are 
you aware of any organization in which productivity of its 
workers isn't assessed as one part of a multidimensional 
performance review?
    Mr. Whitaker. Yes. In fact, government-wide, where there 
are administrative law judges, similar to our immigration 
judges, there are typically performance metrics that are in 
place to not only evaluate their productivity but also to 
budget and manage that workforce.
    Mr. Cline. And what are you doing to ensure that 
continuances in immigration cases are not abused and are 
granted solely for good cause?
    Mr. Whitaker. We issued an Attorney General order which set 
the standard, which had been different based on what the 
immigration appeals board, which is an internal--the Board of 
Immigration Appeals, which is an internal DOJ body that the 
Attorney General sits over. We have passed rules and 
regulations and a new standard for issuing those continuances 
for good cause, as you mentioned.
    Mr. Cline. All right. Thank you.
    I yield back.
    Chairman Nadler. I thank the gentleman.
    I will now yield to the gentleman from Rhode Island for the 
purpose of a unanimous consent request.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I would ask unanimous consent that the following articles 
be placed in the record.
    The first is an article entitled ``Exclusive: Trump 
Loyalist Matthew Whitaker Was Counseling the White House on 
Investigating Clinton.''
    The second article, ``Sessions Replacement Matthew Whitaker 
Called Mueller's Appointment `Ridiculous' and `a Little Fishy.' 
''
    The third article, All the Times Robert Mueller's New Boss 
Railed Against the Russia Probe.'' ``Trump's Pick to Replace 
Jeff Sessions Once Said Mueller Investigation Risked Becoming a 
`Witch Hunt.' ''
    And, finally, an article entitled ``Trump's New Acting 
Attorney General Once Mused About Defunding Robert Mueller.''
    Chairman Nadler. Without objection, these documents will be 
placed in the record.
    [The information follows:]
      

                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. I now recognize the gentleman for 5 
minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Whitaker, I am going to be really straight with you up 
front. I am going to cut you off if you make long speeches. We 
have very limited time. You do not need to thank me for asking 
the question or compliment me that it is a good one. I will 
assume they are all good questions and you are grateful.
    One, you were briefed by the special counsel. You have 
acknowledged that. Did you share that information with any 
members of your staff, the information you learned in that 
briefing from the special counsel or his team?
    Mr. Whitaker. Congressman, as I previously testified, there 
was one other individual in that briefing with----
    Mr. Cicilline. And who was that individual?
    Mr. Whitaker. It is the U.S. attorney from the Eastern 
District of California who I brought on----
    Mr. Cicilline. What is the name of the individual, Mr. 
Whitaker?
    Mr. Whitaker. His name is Gregg Scott.
    Mr. Cicilline. Did you communicate any information you 
learned in those briefings to other members of your staff?
    Mr. Whitaker. I don't believe so, no.
    Mr. Cicilline. Do you know whether any information that you 
learned in those briefings were communicated to anyone at the 
White House?
    Mr. Whitaker. As I mentioned previously, Congressman, we 
have a kept a very close----
    Mr. Cicilline. Mr. Whitaker, it is a ``yes'' or a ``no.'' 
Do you know whether it was communicated to anybody at the White 
House?
    Mr. Whitaker. As I sit here today? I don't know whether it 
was communicated, but I do not believe Mr. Scott or I----
    Mr. Cicilline. Did you put into place any restrictions or 
limitations or instructions to your staff not to share this 
information with anyone at the White House or the President's 
legal team?
    Mr. Whitaker. Yes, together with the general standard that 
investigative information and materials are need-to-know and 
law enforcement----
    Mr. Cicilline. Thank you, Mr. Whitaker.
    Did the President lash out at you after Michael Cohen's 
guilty plea for lying to Congress about a Trump Organization 
project to build a tower in Moscow?
    Mr. Whitaker. The President specifically tweeted that he 
had not lashed out.
    Mr. Cicilline. I am asking you, Mr. Whitaker, did the 
President lash out at you? I am not asking what he tweeted. I 
don't have a lot of confidence in the veracity of his tweets. I 
am asking you under oath.
    Mr. Whitaker. Congressman, that is based on an 
unsubstantiated----
    Mr. Cicilline. Sir, answer the question ``yes''' or ``no.'' 
Did the President lash out to you about Mr. Cohen's guilty 
plea?
    Mr. Whitaker. No, he did not.
    Mr. Cicilline. And did anyone from the White House or 
anyone on the President's behalf lash out at you?
    Mr. Whitaker. No.
    Mr. Cicilline. Mr. Whitaker, did the President lash out to 
you on or about December 8th, 2018, to discuss a case before 
the Southern District of New York where he was identified as 
Individual One?
    Mr. Whitaker. No, Congressman.
    Mr. Cicilline. Did anyone on the President's behalf, either 
inside the White House or outside the White House, contact you 
to lash out or express dissatisfaction?
    Mr. Whitaker. Did they contact me to lash out?
    Mr. Cicilline. Yes. Did they reach out to you in some way 
to express dissatisfaction?
    Mr. Whitaker. No.
    Mr. Cicilline. Okay.
    Did you ever share the questions that Mr. Nadler forwarded 
to you prior to this hearing with anyone at the White House or 
the President's legal counsel?
    Mr. Whitaker. Congressman, I did not.
    Mr. Cicilline. So when you claimed earlier that you were 
going to invoke a privilege, you were invoking a privilege 
about questions the President hasn't even seen.
    Mr. Whitaker. Congressman, to be clear, I am not invoking 
any privilege.
    Mr. Cicilline. Well, you said earlier in your written 
testimony that you would not answer questions about your 
conversations with the President, did you not?
    Mr. Whitaker. Yes, I did.
    Mr. Cicilline. So you are not sitting here today saying the 
President has instructed you not to answer a question, correct?
    Mr. Whitaker. I am not sitting here today saying that the 
President has instructed----
    Mr. Cicilline. So then you are prepared to answer all these 
questions?
    Mr. Whitaker. Congressman, I think I was pretty explicit in 
my opening statement----
    Mr. Cicilline. So have you spoken to the President, Mr. 
Whitaker, about the Mueller investigation?
    Mr. Whitaker. Congressman, as I previously testified, I did 
not talk to the President about the Mueller investigation.
    Mr. Cicilline. Have you ever spoken to the President or 
parts of his legal team about information that you learned in 
your capacity as Acting Attorney General related to the Mueller 
investigation or any other criminal investigation involving the 
President?
    Mr. Whitaker. Congressman, while I have specifically been 
saying that I am not going to comment about my conversations 
with the President or his senior staff, I have also been very 
clear that the President has not instructed me to do anything--
--
    Mr. Cicilline. That wasn't my question. My question is, 
have you had conversations about what you learned? That is a 
``yes'' or a ``no.''
    Mr. Whitaker. Congressman, I have--I spend all day every 
day talking----
    Mr. Cicilline. Mr. Whitaker, my question is very specific. 
Have you spoken to the President or his legal team about what 
you have learned in the Mueller investigation or the related 
criminal investigations that may involve the President? Yes or 
no?
    Mr. Whitaker. Congressman, as I specifically answered 
earlier to a question----
    Mr. Cicilline. Mr. Whitaker, you are clearly not going to 
answer the question, so I am going to move on.
    You know Professor John Barrett, correct?
    Well, anyway, this is a law school professor who tweeted 
that you told him in June of 2017 that you were flying out from 
Iowa to New York City to be on CNN regularly because you were 
hoping to be noticed as a Trump defender and, through that, to 
get a Trump judicial appointment back in Iowa.
    You then went on to describe the Mueller appointment of the 
special counsel as ridiculous and a little fishy, that Mueller 
investigating Trump's finances would be going too far, that 
there was no criminal obstruction of justice charge to be had 
against President Trump, that there was no collusion with the 
Russians in the Trump campaign, that any candidate would have 
taken the same meeting as Donald Trump Jr. with the Russian 
lawyer; and, finally, that a replacement for Sessions could 
have reduced Mueller's budget so low that his investigation 
grinds to almost a halt.
    You said all those things, and they are all in print. And 
it answers Mr. Deutch's question. The American people wonder, 
just how is it that Mr. Whitaker becomes the Acting Attorney 
General of the United States in violation of existing statutes? 
Was he put there for a particular purpose?
    That wasn't a question. It is a statement.
    I yield back.
    Chairman Nadler. I observe that the time of the gentleman 
has expired. Who is next?
    Mr. Reschenthaler is recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    And thank you, Mr. Whitaker, for being here today.
    I just want to quickly reference the letter that was sent 
to you from the chair on January 9th. In this letter, in the 
Chairman's own words, it said that this committee was here to, 
quote/unquote, ``conduct oversight of the Department.''
    In this letter, there are also important other topics that 
were supposed to be discussed here today, like immigration, gun 
violence, the Violence Against Women Act, ObamaCare, national 
security. And that is not even the complete list. I know you 
read the letter.
    I was excited to be here. I thought these were critically 
important issues that affected constituents in my district and 
millions of Americans. And, frankly, a lot of these issues are 
life-and-death.
    So I am really confused as I sit here today in this hearing 
with my Democrat colleagues focused solely on one topic, and 
that is the Mueller investigation. I really hoped that my 
friends across the aisle would have used this opportunity for 
more bipartisanship and less showmanship, but clearly I was 
wrong.
    With that said, I want to get to some of the important 
topics that we were supposed to have focused on today. One of 
those is sanctuary cities.
    In my home State of Pennsylvania, the sanctuary city of 
Philadelphia has released at least three child molesters back 
onto the streets. And everyone knows the tragic story of 32-
year-old Kate Steinle, who was murdered by an illegal immigrant 
who was convicted of seven felonies and deported five times.
    Now, those child molesters in Philadelphia, the murderer of 
Kate Steinle, they were all released because some city wanted 
to score cheap political points. And that is why I am focused 
on ending sanctuary cities.
    Mr. Whitaker, what steps is the DOJ taking to end the 
dangerous practice of sanctuary cities?
    Mr. Whitaker. Well, first of all, we are ending taxpayer-
funded grants to sanctuary jurisdictions.
    Attorney General Sessions announced new conditions for our 
Byrne/JAG grants that will increase information-sharing between 
Federal, State, and local law enforcement to ensure public 
safety.
    I don't know if the Congressman knows this, but one of the 
challenges we have is, in a sanctuary jurisdiction, jails will 
release convicted criminals back into the community instead of 
informing Immigration and Customs Enforcement that the person 
is available to be picked up at the jail.
    It is an incredibly dangerous situation to make an ICE 
officer go into a community to try to arrest somebody that is 
here illegally and has been convicted of a crime, oftentimes 
crimes like you mentioned. And I cannot imagine a situation 
where a mayor or a city council or a county executive or 
otherwise would put law enforcement officers in harm's way.
    It is, quite frankly, bad policy, and we are going to work 
very hard to end it. And one of the ways we are ending it is by 
taking away the resources to those jurisdictions that have that 
policy.
    Mr. Reschenthaler. Thank you, Mr. Whitaker.
    Mr. Whitaker, I have one more question regarding the opioid 
crisis. This crisis is striking our country hard, particularly 
southwestern Pennsylvania. Data from 2017 shows that it is more 
likely now that someone is going to die of a drug overdose than 
a car crash. My district has been hit really hard. In 
particular, Fayette County saw an 88-percent increase in 
overdose deaths from 2015 to 2017.
    What steps has the DOJ taken to address this shift? And do 
you think that a lot of the problems that we are seeing in 
these stats comes from a porous southern border?
    Mr. Whitaker. I will address your second question first. I 
do believe that most illegal opioids, like fentanyl--
nonprescription illegal opioids, like fentanyl, heroin, and 
their derivatives, are imported through our southern border. 
Some, not a majority, but some are also imported via direct 
mail--for example, an order off the dark net.
    I went through a list of things that the Department of 
Justice is doing to combat this opioid epidemic. I hope that 
this committee, while, you know, it is something I was prepared 
and wanted to talk about--and I appreciate the question--will 
look at other ways that we can put resources into the opioid 
crisis.
    Seventy-thousand people, as you mentioned, have died of 
drug overdoses. A majority of those are from some form of 
opioids.
    And we also, quite frankly--and I mentioned my trip to 
China last August. We have to work together with the Chinese 
Government to reduce the inflow of fentanyl. And we also have 
to--you know, we have emergency scheduled right now the 
fentanyl analogs, but we need an act of Congress--and I hope 
that we can get that--to make that permanent, that these 
fentanyl derivatives and creative chemists that change the 
chemical makeup of fentanyl do not continue to try to evolve 
their drug to avoid our regulation.
    Mr. Reschenthaler. Thank you, Mr. Whitaker.
    I yield back my time.
    Chairman Nadler. Mr. Swalwell is recognized.
    Mr. Swalwell. Thank you.
    Mr. Whitaker, does your watchdog organization ever receive 
contributions from foreign donors?
    Mr. Collins. Mr. Chairman, point of order.
    Mr. Swalwell. I would ask to stop the clock.
    Chairman Nadler. The gentleman will suspend.
    The gentleman will state his point of order.
    Mr. Collins. My point of order--and I am going to go back 
to this, and, again, undoubtedly, that majority does not care, 
but this is outside the scope of this hearing. This was not 
while he was employed here. And whether he outside had donors 
or not during the time he was not employed, making no 
connection either way, is not inside the scope of this hearing. 
And that is not the call of this committee.
    Now, you know, look, I am outgunned over here. I have no 
votes. This is not part of the call of the hearing.
    Mr. Swalwell, there are plenty of things to do.
    And, Mr. Cicilline, you----
    Mr. Cicilline. Will the gentleman yield?
    Mr. Swalwell. Mr. Collins, if you want to sit down there 
with his lawyers, you can go sit down there----
    Chairman Nadler. The gentleman----
    Mr. Swalwell [continuing]. But you are not his lawyer.
    Chairman Nadler. The gentleman will suspend.
    Mr. Collins. And neither are you, Mr. Swalwell.
    Chairman Nadler. The gentleman will----
    Mr. Collins. And if you have any questions that are 
actually part of this, instead of running for President, damn 
near we could get this done.
    Mr. Swalwell. You can sit down there. There is room.
    Chairman Nadler. Both gentlemen will suspend.
    Mr. Cicilline. Mr. Chairman?
    Chairman Nadler. The gentleman has stated a point of order. 
The Chair will rule the point of order is not well-taken. The 
scope of people's questioning, we afford a wide latitude. And 
we don't even know where it is going at this point. The 
gentleman--so the gentleman's point of order is not well-taken.
    The gentleman will resume.
    Mr. Collins. Appeal the ruling of the chair.
    Ms. Jackson Lee. Move to table.
    Chairman Nadler. The gentleman appealed the Ruling of the 
Chair. The gentlelady moved to table. A move to table is not 
debatable.
    The clerk will call the roll on the motion to table.
    Staff. Voice vote.
    Mr. Collins. Mr. Chairman?
    Chairman Nadler. Oh, let's--call the roll--all in favor of 
tabling the resolution--I am sorry. All in favor of tabling the 
appeal of the ruling of the chair will say aye.
    Nay?
    The ayes have it. The appeal of the--the motion is tabled.
    The gentleman will continue.
    Mr. Swalwell. Mr. Whitaker, does your organization have 
foreign contributions?
    Mr. Whitaker. Just to be clear, are you talking about----
    Mr. Swalwell. Yes or no?
    Mr. Whitaker. What do you mean by my organization?
    Mr. Swalwell. You led an organization called FACT. Did it 
receive foreign contributions while you were there?
    Mr. Whitaker. I don't actually know the answer to that. I 
do not believe, as I sit here today, that it did. But our main 
donor was a group that was a U.S. entity.
    Mr. Swalwell. Did you interview with Don McGahn in July 
2017 to have the job that Ty Cobb would ultimately get?
    Mr. Whitaker. I ultimately did not meet with Mr. McGahn, 
so--I met with his staff.
    Mr. Swalwell. Did you talk with him on the phone?
    Mr. Whitaker. You know, we actually never did end up 
talking on the phone either.
    Mr. Swalwell. Who do you meet with on his staff?
    Mr. Whitaker. I talked to Annie Donaldson from his staff, 
who was his Chief of Staff at the time.
    Mr. Swalwell. And when you talked to Mr. McGahn's Chief of 
Staff, did you express in that conversation your prior views 
about the Mueller investigation?
    Mr. Whitaker. No, I did not. In fact----
    Mr. Swalwell. Was it brought up by the Chief of Staff?
    Mr. Whitaker. In fact, at the time, Congressman, everyone 
at the White House did not want to talk about the special 
counsel's investigation----
    Mr. Swalwell. But you were interviewing for a job that 
would respond to the special counsel's investigation. Is that 
right?
    Mr. Whitaker. At the time I was interviewing for the 
position that was ultimately occupied by Ty Cobb----
    Mr. Swalwell. But I want to understand how you could 
interview for a job that would respond to the special counsel 
investigation but you were not to talk at all about the special 
counsel investigation. How would they know----
    Mr. Whitaker. Well, I said we didn't talk about it. They 
did not want to talk about the investigation because the folks 
were dealing with that investigation. And that is why they 
wanted to bring in someone that had been unrelated to the 
investigation and the campaign----
    Mr. Swalwell. Did they talk to you about your prior 
opinions about the Mueller investigation?
    Mr. Whitaker. No, we did not discuss it.
    Mr. Swalwell. Has there been----
    Mr. Whitaker. We discussed about my background as a United 
States attorney and my legal practice.
    Mr. Swalwell. Has there been discussion at the Department 
about keeping the Mueller report from going to Congress?
    Mr. Whitaker. No. In fact, we are continuing to follow the 
special counsel regulations as it relates to the report. We 
haven't received the report, but----
    Mr. Swalwell. Has there been a draft opinion about keeping 
it from going to Congress?
    Mr. Whitaker. You know, Congressman, I am not going to talk 
about the, kind of, ongoing investigation that is the special 
counsel. I will share with you that----
    Mr. Swalwell. Mr. Whitaker, did Donald Trump ask you if you 
would recuse before you became Acting Attorney General? If that 
question came up, did he ask you what you would do?
    Mr. Whitaker. Congressman, I have already answered that 
question in my opening statement.
    Mr. Swalwell. Do you believe Attorney General Sessions 
should have recused?
    Mr. Whitaker. As I mentioned in my answers previously, the 
recusal decision----
    Mr. Swalwell. No. Do you believe, yes or no, that he should 
have recused?
    Mr. Whitaker. I actually, as I sit here today, I do not 
have an opinion. I believe he determined it was the right 
decision for him to make, and so I agree that he made the right 
decision for him.
    Mr. Swalwell. Have there been any discussions at the 
Department about pardons for Paul Manafort, Roger Stone, 
Michael Flynn, or Michael Cohen?
    Mr. Whitaker. Congressman, we have a very well-worn system 
for----
    Mr. Swalwell. That the President doesn't follow. But have 
there been discussions about pardons for those individuals that 
you are aware of, yes or no?
    Mr. Whitaker. Congressman, as I have been Acting Attorney 
General, I have not been involved in any discussions of any 
pardons, even--and including the ones you are discussing.
    Mr. Swalwell. You made a public statement last week that 
the investigation was nearly complete. Is that your 
characterization, or is that Bob Mueller's characterization?
    Mr. Whitaker. Congressman, that position that I mentioned 
last week in a press conference was my position as Acting 
Attorney General.
    Mr. Swalwell. Would Bob Mueller, if sitting before us right 
now, agree with you?
    Mr. Whitaker. You know, Congressman, Bob Mueller is going 
to finish his investigation when he wants to finish his 
investigation.
    Mr. Swalwell. Is Mr. Mueller honest?
    Mr. Whitaker. Congressman, I have been on the record about 
my respect for Bob Mueller and his ability to conduct this 
investigation.
    Mr. Swalwell. Do you believe he is honest, yes or no?
    Mr. Whitaker. I have no reason to believe he is not honest, 
so, yes, I do believe he is honest.
    Mr. Swalwell. Do you believe he is conflicted, yes or no?
    Mr. Whitaker. Congressman, as I mentioned regarding 
recusals, you know, sort of, the conflict analysis is for the 
individual lawyer to make once a matter is before them. And I 
am sure that whether it is Bob Mueller, whether it is Rod 
Rosenstein----
    Mr. Swalwell. But the President has called him conflicted.
    Mr. Whitaker [continuing]. Or anybody else at the 
Department of Justice----
    Mr. Swalwell. The President has called him conflicted, and 
you oversee the investigation. Do you believe that Mr. Mueller 
is conflicted?
    Mr. Whitaker. Congressman, as Acting Attorney General, I 
have followed regular order at the Department of Justice, and I 
have expected that the lawyers and the support staff and the 
agents that work for me follow regular order. And as I sit here 
today, I don't have any reason to believe that.
    Mr. Swalwell. So you don't believe--you believe he is 
honest; you don't believe he is conflicted. Can you say right 
now, ``Mr. President, Bob Mueller is honest and not 
conflicted''?
    Mr. Whitaker. Congressman, I am not a puppet to repeat what 
you are saying. I----
    Mr. Swalwell. Are you able to say it, or do you not believe 
it?
    Mr. Whitaker. I have answered your question as to what I 
believe about the special counsel. I stand by my prior 
statement.
    Mr. Swalwell. Can you say it to the President, though?
    Mr. Whitaker. Congressman, I am not here to be a puppet to 
repeat terms and words that you say that I should say.
    Mr. Swalwell. Can you say that to the President?
    Mr. Collins. Regular order.
    Mr. Swalwell. Mr. Chair, he hasn't answered that question.
    Chairman Nadler. Sorry?
    Mr. Swalwell. He has not answered the question, if he would 
say that Mr. Mueller is honest and not conflicted to the 
President.
    Chairman Nadler. The time of the gentleman has expired.
    The witness may answer the question.
    Mr. Whitaker. I don't have anything further to add. I think 
I have answered the Congressman's question.
    Chairman Nadler. That is a question for observers.
    The gentleman from North Dakota, Mr. Armstrong.
    Mr. Armstrong. Mr. Whitaker, you have obviously been Acting 
Attorney General during some fairly interesting times, and we 
have heard a lot about that today. But I also want to commend 
the Department of Justice, the FBI, the White House, and all 
other law enforcement who was involved in the FIRST STEP Act.
    This is a tremendous shift not just for the Department of 
Justice, not just for Republicans, and not just for Democrats. 
And it is the way government is supposed to work. It is 
supposed to show redemption; tough on traffickers, organized 
crime; and also work towards a smarter way to deliver criminal 
justice, particularly with addiction-related crimes.
    So my only hope is that, because it is called the FIRST 
STEP Act, there will be a second step. And if you ever--
unfortunately, I have some other questions for you, so any time 
on your way out, if you have any advice on something Congress 
can do to continue this momentum, I would be very, very 
appreciative.
    Mr. Whitaker. Well, you know, Congressman, I was involved 
on behalf of the Department of Justice in the FIRST STEP Act. 
And I just want to commend everyone on this committee that 
worked on the FIRST STEP Act. To successfully get that passed 
and to get it through both the House and the Senate, I actually 
know how difficult that is.
    I think one of the things that we could use your help on is 
to make sure you fund the FIRST STEP Act and you have requested 
the Department of Justice to do. You know, we continue to 
implement the FIRST STEP Act consistent with the law that you 
passed. And, in fact, just last night, we sent out guidance to 
our U.S. attorneys offices on how to implement the FIRST STEP 
Act. And I know that the Bureau of Prisons, as well, is 
implementing the act.
    Mr. Armstrong. And I would hope to work towards having a 
Federal-level pretrial release program to be available to every 
State and county courthouse across the country. Because one of 
the great ironies I have always found about your pretrial 
release program is it is incredibly effective and then you get 
a 10-year minimum mandatory.
    So the pretrial release program at the Department of 
Justice and U.S. attorneys offices across this country is 
phenomenal, and they deserve to be credited for that.
    Mr. Whitaker. And as a former United States attorney for 
5\1/2\ years in Des Moines, Iowa, I understand uniquely how 
pretrial release works. And so, you know, we would be 
interested in your proposal, and we will look at that and work 
with you carefully to try to implement something like that.
    Mr. Armstrong. Now, in our role as oversight, I do actually 
have a question about something that has come up in the past 
and that, given the nature of the testimony today, very 
possibly could come up in the future.
    And I think, often, when we have names like Clinton and 
Comey and Rosenstein and Trump and Mueller and Russia, we 
forget that the law is the law. You testified earlier to 
Representative Jordan that we prosecute crimes, not people. And 
I think, often, across this country, we think laws apply 
differently to people depending on their status.
    And one of the areas where this came up--and it was 
something that concerned me before I was involved in this--is 
when we started talking about the difference between gross 
negligence and intent. And it was in a very particular statute, 
and we were dealing with it, and there were members of the FBI 
and the DOJ that were concerned about vagueness.
    But as far as I understand, in the Federal Code, 
particularly the Federal Criminal Code, gross negligence has 
the same definition approximately everywhere in the Criminal 
Code, right?
    Mr. Whitaker. In my experience, your statement is generally 
correct, yes.
    Mr. Armstrong. So, if gross negligence would be vague under 
one particular statute of the Criminal Code, then we should be 
concerned that it is vague under every other criminal--other 
section of the Criminal Code.
    Mr. Whitaker. That is correct. And there is, for example, 
jury instructions that would, say, inform a jury as to how to 
evaluate a gross negligence standard to convict someone of a 
crime.
    Mr. Armstrong. And assuming that it wasn't political in 
nature as to why gross negligence wasn't looked forward in any 
particular case has--under your leadership under the DOJ, has 
anybody reviewed this, looked at it, and made any proposals to 
Congress particularly regarding whether or not we need to 
tighten up gross negligence language, not just let's say in the 
Espionage Act but in any section of the Federal Criminal Code?
    Mr. Whitaker. As I sit here right now, I don't know the 
answer to your question, but I would be happy to get back to 
you on that.
    Mr. Armstrong. I would appreciate that. And just, again, 
under normal course of order, I am assuming it works the same 
as everywhere. Law enforcement agents--and I know a lot of FBI 
agents do have law degrees, but FBI agents investigate crimes, 
and then it goes up the food chain to the U.S. attorney's 
office.
    Mr. Whitaker. Remember, you need a predication to even open 
investigation, and that is the step that I think a lot of 
people forget. I mean, there are many steps along the way and 
when you conduct a criminal investigation--first, you have to 
predicate the investigation. Then it is investigated by the 
special agents that investigate the crimes. Typically an AUSA 
works with them to get, you know, search warrants and the like, 
and then, ultimately, a case is developed and presented to a 
grand jury, and that is charged. So, I mean, that is, you 
know--and then, again, there is a discovery process and a trial 
process.
    It is very well worn, and to, you know, go back to 
something you mentioned earlier, Congressman, all of that is 
done at the Department of Justice without interference, 
improper interference or interference based on a political 
nature.
    Mr. Armstrong. Well, I am just concerned moving forward 
that we have this--I mean, everybody knows--and obviously this 
is hypertension and hyperpolitical, but I am very concerned 
moving forward that everybody knows what the rules of the game 
are as far as statutes are and that the law is actually applied 
in the way the law should be applied because I do believe in 
the past it has not been, and obviously this is continuing to 
go on. This hearing today is noticeable of that. So, on your 
way out, maybe it is the best time to deal with some of those 
things because sometimes that is when we have the courage to do 
it, but this could very much come up again in the future.
    Chairman Nadler. The time of the gentleman has expired. The 
committee will stand in recess for 2 minutes. I would ask that 
the members remain here if they can.
    [Recess.]
    Chairman Nadler. The hearing will come to order, and we 
will resume questioning under the 5-minute rule with Mr. Lieu.
    Mr. Lieu. Thank you Chairman Nadler.
    Mr. Whitaker, thank you for being here today. Last year, 
FBI Director Christopher Wray came before this committee and 
stated that no one is above the law. You would agree with that 
statement, wouldn't you?
    Mr. Whitaker. I would, and, in fact, there is a Time 
Magazine that is----
    Mr. Lieu. Thank you, we are good.
    Mr. Whitaker [continuing]. Framed in my office that says 
the same thing.
    Mr. Lieu. Thank you. You don't have to keep saying, but 
thank you. You haven't taken any sort of a loyalty oath to 
Donald Trump, have you?
    Mr. Whitaker. No, I have not taken a loyalty oath.
    Mr. Lieu. Have you signed any nondisclosure agreement with 
the White House or Donald Trump?
    Mr. Whitaker. We signed our ethics pledge, which was the 
most robust ethics pledge, but I haven't signed any other 
documents other than the normal DOJ employment documents.
    Mr. Lieu. And there was no nondisclosure agreement with 
anything you signed, correct?
    Mr. Whitaker. I don't believe so, but I don't know what the 
standard DOJ forms are.
    Mr. Lieu. In fact, the only thing you really had to do 
before you could assume your current position was take an oath 
to the United States Constitution. Isn't that right?
    Mr. Whitaker. I probably took the oath for the second time 
when I came back to the Department of Justice.
    Mr. Lieu. Thank you. So let me ask you a series of 
questions about the U.S. Constitution that you can easily 
answer yes or no. And the first question is: There is no 
sentence in the Constitution that states that the President's 
National Security Advisor can't be indicted, correct?
    Mr. Whitaker. Congressman, as is consistent with the 
practice of the Department of Justice, we investigate crimes, 
and we prosecute individuals that commit crimes.
    Mr. Lieu. I am just asking a simple question. I will go on. 
There is no sentence in the U.S. Constitution that states the 
President's former Campaign Chairman can't be indicted, 
correct?
    Mr. Whitaker. Same answer to your previous question.
    Mr. Lieu. Does that sentence exist in the Constitution?
    Mr. Whitaker. Of course it does, Congressman. You know 
that, and I know that.
    Mr. Lieu. Right. Because Paul Manafort was indicted. There 
is no sentence in the Constitution that says the President's 
children can't be indicted, correct?
    Mr. Whitaker. Congressman, you know, you can give me the 
whole list, I mean, you know, sort of----
    Mr. Lieu. No, I will give you three more.
    Mr. Whitaker. Okay.
    Mr. Lieu. Yes. Right?
    Mr. Whitaker. There is no sentence in the United States 
Constitution that says that the President's children cannot be 
indicted.
    Mr. Lieu. There is no sentence in the U.S. Constitution 
that says the Vice President can't be indicted, correct?
    Mr. Whitaker. That is correct.
    Mr. Lieu. Right. There is no sentence in the U.S. 
Constitution--this is my last one--there is no sentence in the 
U.S. Constitution that says the sitting President of the United 
States cannot be indicted, correct?
    Mr. Whitaker. Congressman, because that is the opinion of 
the Office of the Legal Counsel at the Department of Justice--
--
    Mr. Lieu. I don't actually care what the DOJ policy is. I 
am asking about the Constitution.
    Mr. Whitaker [continuing]. Consistent with the practices of 
the Department of Justice for years.
    Mr. Lieu. Mr. Whitaker, it is a yes-or-no question. Mr. 
Whitaker----
    Mr. Whitaker. Under both administrations.
    Mr. Lieu. After this hearing, you can spin the Constitution 
all you want. As you sit here today----
    Mr. Whitaker. I am not spinning the Constitution.
    Mr. Lieu. You just have to answer a factual yes-or-no 
question. I am going make it even easier for you: There is no 
sentence in the Constitution that says, quote, ``The sitting 
President of the United States cannot be indicted,'' unquote, 
correct?
    Mr. Whitaker. Congressman----
    Mr. Lieu. It is a yes or no?
    Mr. Whitaker. You know----
    Mr. Lieu. I have it right here. Is that----
    Mr. Whitaker. I have a copy myself, Congressman.
    Mr. Lieu. Is that sentence in this Constitution? It is not, 
correct? I am not trying to trick you. It is not a hard 
question.
    Mr. Whitaker. Again----
    Mr. Lieu. It is a founding document of our Federal 
Government. Is that sentence in this Constitution?
    Mr. Whitaker. Congressman, you and I both know that the way 
that the OLC opinion is written is that----
    Mr. Lieu. I am asking about the Constitution----
    Mr. Whitaker [continuing]. Lays out a very clear question 
as to why the President of the United States, sitting President 
of the United States, cannot be indicted.
    Mr. Lieu. I am just going to--Mr. Chair, I am just going to 
submit the U.S. Constitution for the record and say: No, that 
sentence is not in there.
    Now I am going to move on.
    Chairman Nadler.--Record.
    [The information follows:]

    https://CONSTITUTIONUS.COM

    Mr. Lieu. Earlier today, you had testified that you did not 
communicate to Donald Trump or senior White House advisers 
about the special counsel's investigation. So I am going to ask 
you a related question. Did you communicate to Donald Trump or 
any senior White House advisors about investigations from the 
Southern District of New York concerning The Trump 
Organization, the Trump inaugural committee, Michael Cohen, or 
the investigations that relate to Trump entities or potentially 
the President?
    Mr. Whitaker. Congressman, I mentioned that I said other 
investigations in my opening statement, and I really don't have 
anything further to add to that answer.
    Mr. Lieu. And when you said ``other investigations,'' you 
mean you communicated to the President about other 
investigations?
    Mr. Whitaker. No. That is not what I said in my opening 
statement. I will refer you back to my opening statement. I was 
very clear about that.
    Mr. Lieu. Did you communicate to the President or any 
senior White House advisers about investigations from the 
Southern District of New York related to Trump entities----
    Mr. Whitaker. Again, I was very explicit in my opening 
statement as to that not only about my communications regarding 
the special counsel's office, and I said ``other 
investigations,'' and the Southern District of New York would 
be included in other investigations.
    Mr. Lieu. Okay. Thank you. So I want to move to another 
subject. The President has talked about a national emergency. 
Under the latest FBI data, it is correct, isn't it, that 
violent crime across the United States has gone down?
    Mr. Whitaker. Yeah, we celebrate actually that violent 
crime has gone down in the last 2 years.
    Mr. Lieu. In fact, property crime has gone down as well, 
isn't that right?
    Mr. Whitaker. Congressman, as I sit here right now, I 
believe generally all crime is down over the last 2 years since 
President Trump was elected.
    Mr. Lieu. My last question to you is: You would agree with 
Donald Trump when last year he tweeted out that border 
crossings are at a 45-year low?
    Mr. Whitaker. We saw a precipitous decline in border 
crossings after the President was elected and sworn into 
office. Unfortunately, we haven't been able to retain those 
gains, and we have seen an absolute dramatic surge in family 
units.
    Mr. Lieu. Thank you.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Raskin.
    Mr. Raskin. Mr. Whitaker, before you took the call from 
President Trump, you had a fascinating career: owned a daycare 
center, a concrete supply business, trailer of sales, GOP 
activist, U.S. attorney who unsuccessfully prosecuted Iowa's 
first openly gay State legislator on trumped-up Hobbs Act 
charges that were dismissed by the jury in about an hour, 
Senate candidate.
    There have been some scandals, too. Here is one: ``Trump's 
Acting Attorney General involved in firm that scammed veterans 
out of life savings.'' Veteran says: I spent the money on a 
dream. I lost everything.
    But the newspapers say you struck gold when you arrived in 
Washington, which the President calls the swamp. Here is one 
that tells the story: ``Conservative nonprofit with obscure 
roots in undisclosed funders paid Matthew Whitaker $1.2 
million.'' According to The Washington Post, in the 3 years 
after he arrived in Washington, Whitaker received more than 
$1.2 million as the leader of a charity that reported having no 
other employees. That is a pretty good deal.
    Now what was the name of the charity that you ran, Mr. 
Whitaker?
    Mr. Whitaker. Congressman, you have mentioned a lot in 
your----
    Mr. Raskin. No, but I am asking you a very specific 
question.
    Mr. Whitaker. You have challenged my character, and I have 
the ability to answer.
    Mr. Raskin. No, no. I am asking you a question. I control 
this time, Mr. Whitaker. If you want to ask the Chairman for 
time of your own, you can do it. This is my time. Mr. Whitaker, 
you don't run this Committee. You don't run the Congress of the 
United States, and you don't run the Judiciary.
    Chairman Nadler. The gentleman will suspend. The gentleman 
is correct. The witness will answer the questions, and it is up 
to the gentleman to decide what questions. The gentleman will 
continue. We will resume.
    Mr. Raskin. What was the title of the not-for-profit that 
you ran?
    Mr. Whitaker. What time period, sir?
    Mr. Raskin. What was the last title? I know it changed its 
name three different times, right? What was the final name?
    Mr. Whitaker. While I was employed as the executive 
director, it was called the Foundation for Accountability and 
Civic Trust.
    Mr. Raskin. Did you name it?
    Mr. Whitaker. I did. Actually----
    Mr. Raskin. Those are highly noble goals: accountability 
and civic trust. So let's talk about some accountability.
    Mr. Whitaker. He asked me a question. I would like to 
answer.
    Mr. Raskin. Mr. Whitaker, I have got a question for you.
    Mr. Whitaker. No, you asked me a question.
    Mr. Raskin. I asked you a question. I control the floor, 
Mr. Whitaker. You don't understand.
    Chairman Nadler. The gentleman is correct. The gentleman 
controls the time, and if he wishes, as many members have done 
on occasion, they make a statement and they don't even ask a 
question, but if he wishes to proceed to another question, it 
is his time.
    Mr. Whitaker. But Congressman--I mean, Mr. Chairman, I do 
not feel--I do not feel like my answer would be complete on the 
record to the question he asked.
    Mr. Raskin. Okay. Mr. Whitaker, see if you can get into 
this. Tell us where the money came from that you were paid, the 
$1.2 million that you were paid before you went to the 
Department of Justice?
    Mr. Collins. Mr. Chairman, point of order.
    Mr. Raskin. I am asking my question.
    Mr. Collins. Mr. Chairman, point of order, which overrules 
your question. Point of order.
    Chairman Nadler. The gentleman will suspend. The gentleman 
will state his point of order.
    Mr. Collins. Look, we are going to go down this probably 
many more times, but again, if he wanted to do a confirmation 
hearing, this is not within the scope of this hearing. This is 
not a confirmation hearing, and he has not shown----
    Chairman Nadler. The gentleman's point of order is not well 
taken.
    The gentleman from Maryland has the discretion to ask the 
questions. The gentleman will proceed.
    Mr. Collins. Appeal the ruling of the chair.
    Chairman Nadler. The gentleman has appealed the Ruling of 
the Chair. The gentlelady has moved to table. All in favor of 
the Motion to Table the Appeal of the Ruling of the Chair will 
vote aye.
    Opposed, nay.
    The ayes have it. The ruling--the motion is tabled.
    Mr. Collins. Mr. Chairman, can you and I engage in a 
colloquy? Suspend the clock. Can we suspend the clock and you 
and I can engage in a colloquy? It may solve some----
    Mr. Cicilline. Point of order, Mr. Chairman. Is the Ranking 
Member just going to continue to interrupt when he doesn't like 
the flow of questions?
    Mr. Collins. I will probably make a point of order when it 
needs to be made.
    Mr. Cicilline. It would be useful it was actually a point 
of order.
    Chairman Nadler. Everyone will please suspend. The 
gentleman made a point of order. It was ruled out of order. 
Right now, the gentleman has the time. If the Ranking Member 
wants to make a point, I will recognize him after the gentleman 
is completed. The gentleman will resume.
    Mr. Raskin. Thank you, Mr. Chairman.
    It has been reported publicly that there was one donor, and 
as we understand it, I think you are testifying today that you 
were the sole employee of the group. So there was one donor and 
one employee. Do you know who the donor was to the group that 
funded your salary for $1.3 million?
    Mr. Whitaker. Yes, I do.
    Mr. Raskin. Who was the donor?
    Mr. Whitaker. The donor was another nonprofit 509(c)(3) 
organization called the Donors Trust.
    Mr. Raskin. Okay. Now that was the passthrough vehicle, but 
who reached into their pocket and wrote the check to go through 
that to pay your salary?
    Mr. Whitaker. Congressman, as you know, because you have 
looked at this issue, the Donors Trust is much bigger than the 
Foundation for Accountability and Civic Trust and raises 
millions if not hundreds of millions of dollars every year. I 
actually, as I sit here today, have no idea who the donors to 
Donors Trust then funded the foundation----
    Mr. Raskin. I have got a theory that I want to float with 
you, and it goes to something very strange that has been 
happening in the Department of Justice really recently. Casino 
billionaire and magnate Sheldon Adelson hates online gambling 
for obvious reasons: it is competition for him. He wants people 
in the casinos not online. And he spent more than a million 
dollars lobbying Congress to override the 2000 opinion by the 
Office of Legal Counsel at DOJ saying that the Wire Act plainly 
prohibits only sports gambling online, not gambling in the 
States, which was why Florida, Pennsylvania, New Jersey, lots 
of States have built important businesses for themselves 
online. But Congress wouldn't change the law according to the 
demands of Mr. Adelson, so rather than change the law, he 
decided to try to get the Department of Justice to change the 
interpretation of the law, and he threw millions into a 
campaign to remake the DOJ and get the Office of Legal Counsel 
to perform a complete reversal and say that the Wire Act bans 
the kinds of lotteries that States run online, even though its 
language plainly prohibits only sports betting.
    And when Donald Trump won and Mr. Sessions became AG and 
you became chief of staff, DOJ leadership ordered a 
reevaluation of this legal question, and what do you know? The 
Office of Legal Counsel found some subtle and invisible points 
of law that apparently escaped the Department of Justice back 
in 2011, and it reversed the plain reading of the 
interpretation, which talked specifically about sports betting.
    Now, were you involved in that decision?
    Mr. Whitaker. Congressman, General Sessions was recused at 
the time that that decision came out.
    Mr. Raskin. So you were recused, too?
    Mr. Whitaker. Therefore I was recused, and so I was not 
involved in that decision.
    Mr. Raskin. Did you ever talk to Sheldon Adelson about it?
    Mr. Whitaker. No. I have actually never met Sheldon 
Adelson.
    Mr. Raskin. Did you talk to any of his lobbyists about it?
    Mr. Whitaker. No, I did not.
    Mr. Raskin. Did you talk to Charles Cooper about it?
    Mr. Whitaker. No, but I do know Charles Cooper. And I would 
point out: One of the things, Mr. Raskin, it is very 
important----
    Mr. Raskin. You can ask the Chairman for time, but I can't 
give you my time. Forgive me, we only have 5 minutes here.
    Chairman Nadler. The gentleman controls the time. At the 
conclusion of his statement--at the conclusion of his 5 
minutes, I will afford the witness some time, but the gentleman 
controls the time.
    Mr. Whitaker. Okay.
    Mr. Raskin. Thank you, Mr. Chairman.
    In January and February of 2018, the Chairman and Vice 
Chairman of Wild Rose Casino and Resort--it is a casino in 
Iowa--each donated $2,600 to your Senate campaign, which was 
over 4 years before when you lost that campaign. How did these 
casino operators come to donate to your campaign several years 
after you lost? Did you talk to them?
    Chairman Nadler. The time of the gentleman has expired.
    The witness may answer the question.
    Mr. Whitaker. To answer your question specifically, no, I 
did not.
    To go back to the other point I would like to make, 
Congressman, is that the first OLC opinion that preceded the 
one we just issued in November was done, and the State of 
Illinois provided a white paper regarding the position on the 
Wire Act. And so I think it is very consistent, and your 
inference that somehow that that process was corrupted or 
corrupt is absolutely wrong, and the premise of your question I 
reject.
    Chairman Nadler. The gentlelady from Washington, Ms. 
Jayapal.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Mr. Whitaker, thank you for being with us.
    Our country is still reeling from the horrors of family 
separation that occurred at the border. I was the first Member 
of Congress to talk to hundreds of women and men who had been 
ripped apart from their children. I went into a Federal 
detention--Federal prison to talk to those women. Many of them 
had not even been able to say goodbye to their children. They 
sat in the room next door as they heard their children yelling 
for them, and they were not able to go and speak to their 
children. And for weeks they didn't know where their children 
were.
    Most of these women, most of the men were seeking asylum, 
and your Department, instead of allowing them their legal right 
to seek asylum, your Department instead imposed a zero-humanity 
policy to prosecute them in mass proceedings, resulting in the 
U.S. Government tearing thousands of children from their moms 
and dads, and this is still happening. And the truth is we may 
not know how many children were separated from their parents.
    So, Mr. Whitaker, you were Attorney General--former 
Attorney General Jeff Sessions' chief of staff at the time. Is 
that correct?
    Mr. Whitaker. Of the zero-tolerance policy being 
implemented?
    Ms. Jayapal. You were his chief of staff at----
    Mr. Whitaker. At what point in time?
    Ms. Jayapal [continuing]. Of the family separation policy. 
Let me just tell you, you were.
    Mr. Whitaker. There was no family separation policy. There 
was a zero-tolerance policy in the Department of Justice.
    Ms. Jayapal. This has been given four Pinocchios multiple 
times. I am just going to tell you, you were the former 
Attorney General's Chief of Staff at the time.
    Last month, Senator Merkley released a leaked draft memo by 
senior officials at the Department of Justice and Homeland 
Security outlining policies to separate children from their 
families. Were you aware of this memo at the time?
    Mr. Whitaker. No.
    Ms. Jayapal. So, as the chief of staff, you were not aware 
of what your boss was doing?
    Mr. Whitaker. Was the memo--I am sorry. You are talking 
about the leaked memo or the memo that General Sessions 
issued----
    Ms. Jayapal. There was a leaked draft memo by senior 
officials at the Department of Justice. You were the Chief of 
Staff; I would think you would know--and you would be a senior 
official--you would know about that memo. The memo stated that 
a policy of criminally prosecuting parents would require close 
coordination between DHS and the Department of Health and Human 
Services, which would be tasked with housing children separated 
from their moms and dads. And yet a report released by the 
Government Accountability Office last October says that DHS and 
HHS were, quote, unaware that your former boss' zero-tolerance 
prosecution policy memo was coming. Is it correct that the 
Department of Justice provided no advance notice to those 
Departments?
    Mr. Whitaker. Congresswoman, the Department's policy----
    Ms. Jayapal. It is just a yes or no. Did you provide 
advance notice to the----
    Mr. Whitaker. We conducted a press conference in San Diego 
with the head of the Immigration Customs Enforcement when we 
announced the zero-tolerance policy, and all the zero-tolerance 
policy does is it says we will take all referrals from DHS.
    Ms. Jayapal. I am going to stop you right there because it 
is my time.
    According to the GAO report, the GAO, the Government 
Accountability Office, report on family separation: DHS and HHS 
officials told us the agencies did not take specific planning 
steps because they did not have advance notice of the Attorney 
General's April 2018 memo.
    It went on to say specifically: CBP, ICE and ORR officials 
stated that they became aware of the April 2018 memo when it 
was announced publicly. So, before or after the zero--and 
actually let me go back. Are you saying that CBP, ICE, and OOR 
lied to the GAO and that they were somehow aware and given 
advance notice?
    Mr. Whitaker. No, I am not going to suggest that anybody 
was not telling the truth. I am saying that when we publicly 
announced the zero-tolerance policy, it was pursuant to a 
public event in San Diego----
    Ms. Jayapal. And so, prior to the public event--Mr. 
Whitaker, prior to the public event, these ICE, CBP, and ORR 
officials told the GAO that they had not gotten any notice--I 
am not talking about once it was public; I am talking about 
whether there was advance notice.
    Let me go on. Before or after the zero-tolerance policy was 
put into place, and I call it the zero-humanity policy, did the 
U.S. attorneys track when they were prosecuting a parent or 
legal guardian who had been separated from their child? There 
is only one answer to this. It has gone through the courts.
    Mr. Whitaker. You know, did we track it?
    Ms. Jayapal. Did you track when you were prosecuting a 
parent or legal guardian who had been separated from a child?
    Mr. Whitaker. I don't believe we were tracking that.
    Ms. Jayapal. You were not tracking it. That is the correct 
answer. And when parents are prosecuted and sentenced, they are 
in DOJ custody, correct?
    Mr. Whitaker. Correct, their custody is transferred to the 
U.S. Marshals.
    Ms. Jayapal. So these parents were in your custody. Your 
attorneys are prosecuting them, and your Department was not 
tracking parents who were separated from their children. Do you 
know what kind of damage has been done to children and families 
across this country, children who will never get to see their 
parents again? Do you understand the magnitude of that?
    Mr. Whitaker. I understand that the policy of zero-
tolerance----
    Ms. Jayapal. Has the Justice Department started tracking 
parents and legal guardians who were separated from their 
children at the border?
    Chairman Nadler. The time of the gentlelady has expired.
    The witness may answer the question.
    Mr. Whitaker. Congresswoman, I appreciate your passion for 
this issue, and I know that you have been very involved on the 
front lines of this.
    Ms. Jayapal. This is about more than my passion. This is 
about the children's future, Mr. Whitaker. Please answer. Go 
ahead, please.
    Chairman Nadler. The witness may answer.
    Mr. Whitaker. Congresswoman, the responsibility for the 
arrest and the detention and together with the custody of the 
children was handled by DHS and HHS before those people were 
ever transferred to DOJ custody through the U.S. Marshals.
    Chairman Nadler. Thank you. The time of the gentlelady has 
expired.
    Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Mr. Whitaker, I spent 27 years in law enforcement. I served 
as the Chief of Police. I took an oath just like you did, and I 
took that oath very, very seriously to uphold the Constitution 
and to protect this country from all enemies foreign and 
domestic. I hope you took the oath that you took very, very 
seriously.
    But today, as I have sat through--and my colleague is 
right. This has been painful because I believe that you have 
worked to make our criminal justice system to make a mockery 
out of it, and it is painful for me for you to do that and 
anybody up to and including the President of the United States. 
But let me ask you this, and it really has been painful for 
someone who has been given so much responsibility representing 
the men and women who have dedicated their lives to public 
service. That really means a lot to me. I hope it means a lot 
to you.
    Mr. Whitaker. It does.
    Mrs. Demings. Mr. Lieu asked you if you had ever proven--
Mr. Lieu asked you if you ever communicated with President 
Trump about investigations in the Southern District of New 
York. Instead of answering, you referred him back to your 
statement, referred him back to what was written for you. But 
all you said is that you didn't make--in your statement--that 
you didn't make any promises or commitments to President Trump. 
I want to know whether you talked to President Trump at all 
about the Southern District of New York's case involving 
Michael Cohen.
    Mr. Whitaker. Congresswoman, as I have mentioned several 
times today, I am not going to discuss my private conversations 
with the President of the United States.
    Mrs. Demings. So yes or no, did you----
    Mr. Whitaker. No matter what the question is.
    Mrs. Demings. Yes or no, did you discuss with President 
Trump anything about Michael Cohen?
    Mr. Whitaker. Congresswoman, as I have expressed several 
times today, I am not going----
    Mrs. Demings. Did you ever have any conversations with the 
President about firing or reassigning any personnel, U.S. 
attorneys or others, who work with the Southern District of New 
York, with the President or anybody, anybody at all? Did you 
ever have any conversations with anybody about reassigning or 
firing any personnel, including U.S. attorneys with the 
Southern District of New York?
    Mr. Whitaker. Congresswoman, I sit on top of the Department 
of Justice, as you mentioned----
    Mrs. Demings. Did you ever have any conversations about 
anybody who worked with the district of Virginia firing or 
reassigning, with anybody, not just the President, anybody at 
all?
    Mr. Whitaker. Congresswoman, I am not going to talk today--
--
    Mrs. Demings. Okay. So let's talk about the great 115,000 
men and women who work for the Department of Justice, because I 
agree that they, as your words, are extremely talented, highly 
principled public servants, who are dedicated to upholding our 
great Constitution and the laws of the United States. I am sure 
you are familiar with this because you keep up--at a rally last 
fall the President said: Look what is being exposed at the 
Department of Justice and the FBI. You have some real bad ones. 
You see what has happened at the FBI. They are all gone. They 
are all gone, but there is a lingering stench, and we are going 
to get rid of that, too.
    Do you agree with the President's characterization of the 
Department of Justice and the FBI? As the Attorney General, 
please tell me why you would agree or why you would not agree 
with that statement?
    Mr. Whitaker. Congresswoman, since I have become the Acting 
Attorney General I have reestablished a positive relationship 
between the Department of Justice and the White House----
    Mrs. Demings. Before you became--established that positive 
relationship, what was your opinion of the 115,000 men and 
women who dedicate their life to public service? Before you had 
your current position, what was your opinion of them?
    Mr. Whitaker. I have actually a very high estimation of the 
men and women at the Department of Justice. They are the most 
exceptional, hardworking people that I have ever----
    Mrs. Demings. So you disagree with the President's 
characterization, because they don't deserve it, Mr. Whitaker. 
And you are here--you supervise; you manage them. You don't--
then you don't agree with the President's characterization of 
them. Is that correct?
    Mr. Whitaker. Listen, before--Congresswoman, in all due 
respect, I feel very strongly that, as the Acting Attorney 
General of the United States, that I have to set the tone for 
the entire Department of Justice, and what is so important----
    Mrs. Demings. If I worked for you, Mr. Whitaker, and you 
thought I was highly principled and very talented and that was 
your answer when I was asked or you are asked about how do you 
view the people who work for you, that is your answer; that is 
pretty pitiful.
    Let me ask you this: You have only mentioned drugs coming 
through the southern border, the problem at the southern border 
as characterized by you and the President. Could you please 
paint a picture of drugs flowing through our ports of entry? 
Because I am told the overwhelming number of percentage of 
drugs that flow into our country come through the ports of 
entry. Do you agree or disagree with that statement? And if so, 
yes or no, why not?
    Chairman Nadler. The time of the gentlelady has expired.
    The witness may answer the question.
    Mr. Whitaker. Congresswoman, we actually both agree the 
ports of entry at our southern border are most trafficked with 
drugs and illegality. It also comes in between ports----
    Mrs. Demings. Overwhelming of drugs come through the ports 
of entry----
    Mr. Whitaker. On our southern border, yes.
    Mrs. Demings. Do you agree or disagree with that?
    Mr. Whitaker. I believe that a tremendous amount of drugs 
come through our ports of entry on the southern border, yes.
    Chairman Nadler. The gentlelady--I am sorry.
    Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    Good afternoon, sir. I wanted to ask you about your 
enforcement priorities. One of my jobs here in Congress is to 
serve on the Department of Homeland Security, and within that 
job, one of my most important critical jobs is to make sure our 
citizens are safe to protect our Nation against terrorist 
threats.
    In May of 2017, a joint FBI-DHS bulletin warned of a 
growing threat of violence posed by white supremacists, neo-
Nazis, right-wing extremists, and other white nationalist 
groups. An extensive study of terrorist plots between '08 and 
'16 found that plots and attacks by white nationalist groups in 
the U.S. outnumbered the threats by Islamic extremists 2 to 1. 
White supremacist groups have been aggressively recruiting on 
our college campuses, and violent incidents involving these 
groups have more than tripled since 2017. More than 100 people 
have been killed or injured since 2014, and more than 60 in 
2017 alone by these alt-right groups.
    Sir, just a very basic question, do you believe that white 
nationalism, white supremacists, extremists or right-wing 
groups in this country pose a threat?
    Mr. Whitaker. Yes, I do.
    Mr. Correa. Is it growing?
    Mr. Whitaker. Based on that report issued by the FBI, I 
have no reason, as I sit here today, to disagree with it.
    Mr. Correa. Do you believe that the administration is 
placing enough of an emphasis, enough resources allocated 
dedicated to stopping these kinds of homegrown terrorist 
attacks?
    Mr. Whitaker. I believe that we are dedicating resources to 
the appropriate threats. That is done obviously below my role. 
It is done mostly at the line and the management level at the 
FBI and our other agencies, including our partners at DHS, as 
you mentioned. And I really, as I sit here today, I think we 
are adequately addressing the threats that we face, but we are 
always reallocating resources based on how those threats 
evolve.
    Mr. Correa. Adequately addressing the threat, and you 
mentioned earlier in your opening statement 30 convictions--
hate crime convictions, yet in 2017, an increase of 17 percent 
hate crimes reported, which they are usually underreported in 
this country. More than 7,000 hate crimes in 2017, and you have 
30 convictions. Do you think you are allocating adequate 
resources towards prosecuting hate crimes?
    Mr. Whitaker. I do. And if you look at some of the high-
profile cases we have done, like the synagogue shooting in 
Pittsburgh or the Charlottesville situation that we previously 
discussed or even the case where we sent a prosecutor to my 
home State of Iowa to help prosecute a State hate crime, I 
think we have addressed the hate crime.
    Mr. Correa. Again, sir, if you look at the number: 7,000 
reported, almost 20 percent increase in 2017, 30 convictions. 
Adequate?
    Mr. Whitaker. Congressman, we always work with our State 
partners and the local police to determine where is the best 
place and the most effective place to prosecute a crime, and so 
to suggest that somehow that those victims of those crimes 
don't receive the proper justice I think would be----
    Mr. Correa. I think I am looking at it from relative--we 
are looking at foreign terrorism, and yet are we ignoring 
domestic terrorism?
    Mr. Whitaker. No, we are not ignoring that.
    Mr. Correa. Are we allocating the equal or more resources 
to domestic versus foreign, yes or no?
    Mr. Whitaker. Congressman, we allocate our resources based 
upon the threats and where the Federal Government should deploy 
those resources. And, again, it is a very dynamic daily 
evaluation as to where the threats are, and I believe that we 
are adequately resourcing all of the threats including the ones 
you described.
    Mr. Correa. Do you think domestic terrorism from white 
extremist groups is on the rise, and do you think we should 
allocate additional resources to combatting these kinds of 
terrorist attacks in this country?
    Mr. Whitaker. Congressman, I believe I already answered 
this question, but I just want to be clear: I agree with the 
FBI's assessment----
    Mr. Correa. I am sorry. I didn't hear your answer.
    Mr. Whitaker. Okay. Well, I believe, with the FBI's 
statement, that those crimes are on the rise. I also believe 
that we have adequately deployed our resources on a daily basis 
dynamically as required by those threats, and I have seen it 
based on my intelligence briefings that I participate on almost 
a daily basis, and I know that the FBI and the other Federal 
law enforcement agencies are adequately resourcing these 
threats in addition to all the other threats we face. It is a 
target-rich environment when it comes to law enforcement and 
making sure that----
    Mr. Correa. Sir, I am running out of time. I will say we 
are going to continue to look at this on Homeland Security 
because I believe that we are missing the ball here. In 2017, 
DHS terminated granted funding to look at some of these issues 
of domestic terrorism. We have to keep addressing this issue. 
Lives, the safety of our citizens is at stake.
    Mr. Chairman, I yield.
    Chairman Nadler. The gentleman has yielded.
    Ms. Scanlon.
    Ms. Scanlon. Good afternoon, Mr. Whitaker.
    Mr. Whitaker. Good afternoon.
    Ms. Scanlon. In response to a question from my Pennsylvania 
colleague, you mention that the Department of Justice has been 
attempting to withhold Federal dollars from so-called sanctuary 
cities. Is that right?
    Mr. Whitaker. Well, yes, I talked about the Byrne JAG 
grants.
    Ms. Scanlon. Thank you. And one of those cities is 
Philadelphia, right?
    Mr. Whitaker. I believe so, yes.
    Ms. Scanlon. I happen to represent Philadelphia. Isn't it 
true that Judge Mike Baylson of the Eastern District of 
Pennsylvania ruled that the Department of Justice's attempt to 
withhold this money was illegal and unconstitutional?
    Mr. Whitaker. Congresswoman that is----
    Ms. Scanlon. Isn't it correct that that was the ruling of 
the Federal court?
    Mr. Whitaker. Congresswoman----
    Ms. Scanlon. Isn't it correct----
    Mr. Whitaker. I am not going to discuss ongoing litigation.
    Ms. Scanlon. Isn't it correct that the Federal court ruled 
that the Department of Justice's action was illegal and 
unconstitutional? That is a matter of public record, sir.
    Mr. Whitaker. Congresswoman----
    Ms. Scanlon. Is that correct?
    Mr. Whitaker. Congresswoman, I don't disagree----
    Ms. Scanlon. Mr. Whitaker, you may be confused here. This 
may appear to be a contact sport, but it is not a gridiron, and 
I am not letting you run out the time, okay? Isn't it true the 
Federal court ruled that that was illegal and unconstitutional?
    Mr. Whitaker. Congresswoman, again----
    Ms. Scanlon. Okay. I will take that as a yes.
    Mr. Whitaker. This is the subject of ongoing litigation, 
and----
    Ms. Scanlon. Isn't it also true, Mr. Whitaker--Mr. 
Whitaker, I am asking the question. Isn't it also true that the 
court found that the Department of Justice had not produced any 
credible evidence that undocumented immigrants committed crime 
at a higher rate than any other group?
    Mr. Whitaker. Congresswoman, this is the subject of ongoing 
litigation----
    Ms. Scanlon. Isn't it true that the Federal court found 
that in a public opinion?
    Mr. Whitaker. Congresswoman, I am not going comment on 
ongoing litigation.
    Ms. Scanlon. Okay. I will take that as a yes as well. Let's 
move on to some other questions. And just to be clear I am 
asking oversight questions about your enforcement priorities 
during your tenure, okay, at the Department of Justice. I want 
to make sure we are clear on when that tenure began. I have a 
date of September 22, 2017, that you became chief of staff. Is 
that correct?
    Mr. Whitaker. That is incorrect.
    Ms. Scanlon. Okay. When is your first working date as chief 
of staff for Attorney General Sessions?
    Mr. Whitaker. I started at the Department of Justice on 
October 4th of 2017.
    Ms. Scanlon. Okay. And then you became Acting Attorney 
General as of November 7, 2018?
    Mr. Whitaker. The President tweeted that I was going to be 
the next Acting Attorney General on November 7th of 2018. The 
order that I have received from the President has the date of 
November 8th of--I am sorry, 2018.
    Ms. Scanlon. Okay. Do you have a copy of that order?
    Mr. Whitaker. I do have a copy of that order.
    Ms. Scanlon. Can you provide it to the committee please?
    Mr. Whitaker. I would be happy to. I don't have it with me, 
though, if that is your question.
    Ms. Scanlon. Okay. That would be wonderful. Turning to some 
other enforcement priorities. On December 22, 2017, the 
Department of Justice sent a formal request to the Census 
Bureau asking for an addition to the Census of a question 
asking about citizenship status. Did Attorney General Sessions 
direct the Department lawyers to draft that request?
    Mr. Whitaker. Congresswoman, the Department is currently 
defending the Census Bureau in litigation on this issue across 
the country.
    Ms. Scanlon. Did Attorney General Sessions ask or are you 
refusing to answer the question?
    Mr. Whitaker. I think it is inappropriate for me to comment 
about the subject of ongoing litigation.
    Ms. Scanlon. Okay.
    Mr. Chairman, I would like to reflect Mr. Whitaker hasn't 
answered the question, and I would ask this matter to be 
addressed in the upcoming deposition.
    Do you know if the President directed Department of Justice 
lawyers to make that request?
    Mr. Whitaker. Congresswoman, this is the subject of ongoing 
litigation----
    Ms. Scanlon. Okay. So you are not going to answer that 
question either.
    Mr. Whitaker [continuing]. That we are currently defending 
in the United States courts.
    Ms. Scanlon. Thank you. Was Acting Assistant Attorney 
General John Gore involved in the drafting of that request to 
add the Census question?
    Mr. Whitaker. Congresswoman, as I have previously stated, 
this is the subject of ongoing litigation that we----
    Ms. Scanlon. Okay. So we will let the record reflect that 
again you are refusing to answer the question.
    Okay. We can agree that one of the functions of the 
Department of Justice is to enforce the Voting Rights Act, 
correct?
    Mr. Whitaker. Correct. One of the jobs of the----
    Ms. Scanlon. Okay. Thank you. Isn't it also true that the 
most recent Voting Rights Act enforcement action was filed on 
January 10, 2017?
    Mr. Whitaker. As I have mentioned previously, the 
Department is----
    Ms. Scanlon. Is it correct that the most recent voting 
rights enforcement action filed by your Department was in 2017, 
January 10?
    Mr. Whitaker. Congresswoman, I will give you an example----
    Ms. Scanlon. It is a yes-or-no question.
    Mr. Whitaker. During the first term of the Obama 
administration, they filed, I believe, one section----
    Ms. Scanlon. Okay. Reclaiming my time, no running out the 
clock.
    Mr. Whitaker. I am trying to answer your questions.
    Ms. Scanlon. Chairman, if we can enter into the record the 
Department of Justice website, which reflects when the last 
Voting Rights Act case was filed: January 10, 2017.
    Chairman Nadler. Without objection, the fact is noted on 
the website and will be entered into the record.
    [The information follows:]
      

                  MS. SCANLON FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Scanlon. Thank you.
    Isn't it true that, under the Trump administration, the 
Department of Justice has reversed its position on at least 
three important Voting Rights Act cases?
    Mr. Whitaker. May I answer the question? I see my time has 
expired.
    Ms. Scanlon. I think there is a yes or a no.
    Chairman Nadler. The gentlelady's time has expired.
    The witness may answer the question.
    Mr. Whitaker. Thank you. The Department of Justice has 
changed positions only in one voting case, and that is the 
Husted case, and the Supreme Court agreed with our new reading 
of the statute.
    Chairman Nadler. Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman.
    I have about four documents I ask unanimous consent be 
entered into the record. The first one is titled ``Crime and 
Murder in 2018: A Preliminary Analysis.'' The second one reads, 
``Border Communities Have Lower Crime Rates.'' The third one 
reads, ``Amid `crisis' rhetoric, local leaders defend border 
region from misconceptions,'' and this is a report from the Rio 
Grande Valley in Texas. And then the last one is Progress 
Times, Mission, Texas, ``Sheriff: Crime dropped 10 percent in 
rural Hidalgo in the last year.''
    Chairman Nadler. Without objection, these documents will be 
entered into the record.
    [The information follows:]
      

                   MS. GARCIA FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. The gentlelady is now recognized for 5 
minutes.
    Ms. Garcia. So, Acting Attorney General, what is it in your 
mind that leads you to conclude that the border region is 
crime-ridden when these documents that I just entered into the 
record clearly show that Del Rio, Brownsville, El Paso, all the 
areas in the border region--and, in fact, even El Paso is 
listed in the top 29 cities where crime has gone down that you 
quoted in your written testimony--if all of these stats show 
differently, why are you still insistent that this is a crime-
ridden area? And just, please, a short answer because I have 
only got 5 minutes.
    Mr. Whitaker. I don't recall saying today that the border 
region is crime-ridden, but I will answer your question as 
fulsomely as I can, and that is that illegal immigration 
through our southern border is dramatically and negatively 
impacting the crime rate in our cities. It would be lower if we 
didn't have illegal immigration. I point to the example of 
Mollie Tibbetts, for example----
    Ms. Garcia. You are talking about other cities, not the 
cities that are, in fact, in the border areas.
    Mr. Whitaker. Well, I think you would agree with me that 
most illegal immigrants that come into our southern border 
don't reside at the border regions, that they transit through 
there and then make their way to other parts of our country.
    Ms. Garcia. Well, I know many come to Houston because we 
have got good jobs, and we are an open city. But I heard you 
say earlier, and maybe the word crime-ridden was not the exact 
word you used, but it was alluding to the fact that the border 
areas had a lot of crime, and I just simply don't agree with 
you.
    But let me move on to another topic and following up some 
questions about the family separation policy or the zero-
tolerance policy. You said earlier in answer to a question 
about some of your background that you were by General 
Sessions' side for 4 years side-by-side, and you were aware of 
everything in the Justice Department's separation policy. Is 
that true?
    Mr. Whitaker. I served as chief of staff for 13 months, and 
I am familiar with the zero-tolerance policy, yes.
    Ms. Garcia. But you said you were with him side-by-side, so 
can you tell us if you were in the room when it happened when 
the actual zero-tolerance policy was hatched?
    Mr. Whitaker. I participated in discussions about the zero-
tolerance policy internally, but, again, I am not going to talk 
about the internal deliberations. The decision was to issue a 
zero-tolerance policy.
    Ms. Garcia. But who is the brain child of the policy? Who 
hatched it? I mean, where did it come from? We have never had 
it before to the level it is being executed now.
    Mr. Whitaker. It was General Sessions' decision to 
implement, and he signed the memo implementing it and 
distributed that to our border district U.S. attorneys.
    Ms. Garcia. All right. So let me go on and ask this 
question: How many children are still separated from their 
families as we sit here today?
    Mr. Whitaker. That is a number that only DHS and HHS would 
know. As I sit here, the Department of Justice isn't involved 
in handling children that are encountered at the border, 
whether as a family unit or as unaccompanied minors.
    Ms. Garcia. So you have no idea how many children might 
be--you have not seen any documents cross your desk from DHS or 
OOR or anybody else?
    Mr. Whitaker. Again, those are different departments within 
the----
    Ms. Garcia. I know that, sir, but I know that you are the 
Acting Attorney General and you get a lot of reports, a lot of 
documents, a lot of data. You have not seen anything to give us 
any idea just how many children have been torn away from the 
arms of their mothers?
    Mr. Whitaker. No, I would have to refer you to HHS and DHS. 
Again, when----
    Ms. Garcia. Do you know how many have been reunited with 
their families?
    Mr. Whitaker. Again, Congresswoman, those are not 
statistics that I am involved in because those cases----
    Ms. Garcia. Again, you don't have to be the one to write 
the little finger sticks counting the children. I just want to 
know if you have seen anything cross your desk or any member of 
your staff so that Americans who are--just find this policy to 
be abhorrent and inhumane, they have an idea as to when the 
children will ever be reunited with their families; you cannot 
tell us that today?
    Mr. Whitaker. No, I would have to refer you to HHS and DHS, 
which would be responsible for the parts of the process because 
once we have received individuals for prosecution under the 
zero-tolerance policy, we only deal with the adults, and we 
don't keep track----
    Ms. Garcia. One last question because I am running out of 
time. At the State of the Union, the President said he was 
going to make, and I am paraphrasing, it a priority to make 
sure that people with preexisting conditions were protected. 
Does that mean that you are going to drop all the ACA 
litigation that you are involved in?
    Mr. Whitaker. As you know, Congresswoman, the Affordable 
Care Act litigation is ongoing.
    Ms. Garcia. The question is, are you going to be willing to 
settle it? Are you going to be able to drop some of that since 
the President is changing priorities and direction for his 
Department of Justice?
    Chairman Nadler. The time of the gentlelady has expired.
    The witness may answer the question.
    Mr. Whitaker. We have a unitary executive, and if the 
President sets a policy and issues a policy directive, we will 
follow that policy.
    Ms. Garcia. Thank you.
    Chairman Nadler. Mr. Neguse.
    Mr. Neguse. Mr. Attorney General, thank you for being here.
    I also want to thank my colleague, the distinguished 
gentleman from South Dakota, for his support of criminal 
justice reform and looking forward to working with him.
    Mr. Armstrong. North Dakota.
    Mr. Neguse. North Dakota. My apologies. I look forward to 
working with him on criminal justice reform.
    I want to talk about another policy matter with respect to 
cannabis. I represent the State of Colorado. In Colorado, 
recreational use of marijuana was legalized in 2014. Today, 
more than half the States have legalized either the 
recreational or medical use of marijuana.
    Researchers at the University of Colorado, which I am proud 
to represent, are working hard to understand the health 
effects. They are studying promising approaches that use 
marijuana to relieve chronic pain and the symptoms of 
Parkinson's disease.
    In August of 2016, I understand this is before you were at 
the Department of Justice, Mr. Attorney General, the DEA took a 
big step towards improving scientific research on marijuana 
when it submitted a request in the Federal Register for 
applications to produce federally approved research-grade 
marijuana. Several institutions have submitted an application 
but have yet to receive a response. What is the status of those 
applications, if you might know, and do you know if the 
Department of Justice and the DEA intend to support legitimate 
cannabis research that could help protect the health and safety 
of our citizens?
    Mr. Whitaker. For the 3 months that I have been the Acting 
Attorney General, this is an issue that I have been aware of, 
and I have actually tried to get the expansion and the 
applications out. We have run into a very complicated matter 
regarding a treaty that we are trying to work around. We have 
some international treaty obligations that may not allow the 
way the marijuana has to be handled from the research 
facilities to the researchers--or the grow facility to the 
researchers. So it is something that I am very aware of. It is 
something I am trying to push. Unfortunately, I have 6 days 
left in this chair at the most. I don't know if I am going to 
successfully get to it, but I understand the concern and know 
that we are trying to make it work.
    Mr. Neguse. I appreciate that and applaud that. And if I 
could get your assurances that, within the 6 days, if you could 
just follow up with the Department staff to follow up with our 
office in writing, it would be incredibly helpful for us as 
folks reach out.
    Mr. Whitaker. We will try to get an answer as to the 
current status, but my recollection where I last found it is 
that----
    Mr. Neguse. That is sufficient. Thank you, Mr. Attorney 
General.
    You mentioned earlier that the public essentially learned 
that Attorney General Sessions was fired on November 7, 2018, 
by tweet. And you were appointed via that same tweet. When did 
you first learn that Mr. Sessions was fired, would be fired?
    Mr. Whitaker. I learned on November 7th, if that is your 
question. I mean, I, you know----
    Mr. Neguse. It is.
    Mr. Whitaker. Yeah, okay.
    Mr. Neguse. So you learned by virtue of that same tweet 
that we all learned.
    Mr. Whitaker. Yes. I would suggest--the only point I would 
put on that, Congressman--I am sorry to interrupt--is that Mr. 
Sessions resigned, you know, sent in his resignation letter.
    Mr. Neguse. Understand. Did you have any conversations with 
folks at the White House prior to November 7, 2018, about 
Attorney General Sessions resigning or being fired, however you 
would characterize that?
    Mr. Whitaker. As is the longstanding practice of the 
Department of Justice and the executive branch generally, the 
President is entitled to confidential communications, and while 
I am not confirming or denying the existence of any 
conversation, I am not going to talk about my private 
conversations with the President of the United States.
    Mr. Neguse. We will follow up on that front--or I would ask 
the chairman to take that up in a deposition to the extent one 
is noticed.
    All right. A question around--you mentioned earlier in some 
of your testimony around the reasoning behind your appointment 
that one of the reasons you believed in your view that you were 
appointed was--to the position of Acting Attorney General--was 
your experience as a former U.S. attorney, correct?
    Mr. Whitaker. Yes, correct. I spent 5 and a half years as a 
United States attorney for the Southern District of Iowa.
    Mr. Neguse. Yes, sir. And you also mentioned that one of 
the reasons in your view that you believed you were appointed 
Acting Attorney General was that you have been at the 
Department of Justice for the last year or so working as the 
chief of staff to Attorney General Sessions, side-by-side I 
think you mentioned.
    Mr. Whitaker. Yes. I knew all of the active matters that we 
weren't recused from, obviously. I knew all the policies that 
we had not only implemented but that were in progress. I knew 
all the people and the individuals both inside the Department 
of Justice and the interagency.
    Mr. Neguse. I understand. I want to reclaim my time here. 
So I appreciate that, and I guess the question I have is I am 
sure you are aware that Deputy Attorney General Rod Rosenstein 
is a former U.S. attorney, that he also has been at the 
Department of Justice, that he knows the people, he knows the 
matters and that, under the Vacancies Act, he was next in line 
in succession to be appointed Attorney General in the occasion 
in which that office was vacant occasioned by Mr. Sessions' 
termination or resignation or what have you. And so I am trying 
to understand--were you surprised that you were appointed 
rather than Deputy Attorney General Rosenstein, that the 
ordinary rules of succession weren't followed?
    Mr. Whitaker. It has been an honor of a lifetime to serve 
as the Acting Attorney General, and I have, as I mentioned, 6 
days left, and I am going take full advantage of that, 
including enjoying this hearing, but, you know, there are two 
different statutes that applied to the vacancy that was created 
by General Sessions' letter of resignation, and one was the 
succession statute by the Department of Justice, and as you 
know, the other one is the vacancy reform act, which has been 
passed by Congress. And so my appointment, as is outlined in 
the 20-page OLC opinion, is legitimate and has precedent.
    Mr. Neguse. And I am not, with respect to the Attorney 
General, I was not referencing the legitimacy. The point of 
what I was saying is, under the Vacancies Act, 28 U.S.C. 508, 
the Deputy Attorney General is the first assistant to the 
Attorney General, and so, therefore, would be the appropriate 
designee to fill that role, but with that, I yield back the 
time.
    Chairman Nadler. The gentleman has yielded back and----
    Mr. Whitaker. Mr. Chairman? Mr. Chairman? Mr. Chairman, I 
am sorry.
    Chairman Nadler. Yes.
    Mr. Whitaker. I just wanted to address that issue really 
quickly just so we are all on the same page. The first 
assistant together with any other Senate-confirmed individual 
together with anyone that served 90 days or less, 365 days at a 
senior position is eligible to be, and there is really no 
ranking or hierarchy of those three positions. Obviously, I am 
in the third bucket as chief of staff. I just wanted to make 
sure we were clear on that.
    Chairman Nadler. Thank you.
    Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman.
    Mr. Whitaker, I am completely aware that North Carolina and 
Georgia were dealing with similar problems with voter 
suppression, and I can actually tell you I witnessed voter 
suppression firsthand in Georgia even as I was running in my 
own election.
    Is it fair to say that the Department was not remotely 
interested in securing the elections in North Carolina, rather 
that its intent was abusing its subpoena powers and wielding 
its mandate to protect our elections in a thinly veiled effort 
to suppress minority elections and populations?
    Mr. Whitaker. The Department of Justice is committed to 
upholding the voting rights of all Americans.
    Mrs. McBath. I understand that. But what I need you to 
clarify for me is what actions were taken for all of the voting 
rights to be upheld, because you have stated earlier--your 
statement earlier was that you were side-by-side with Attorney 
General Sessions advising him on all aspects of the Department, 
yet you don't know--but at this point, you are saying you don't 
appear--you do not suspect that there was any voter 
suppression. So what I am asking is that, do you not know of 
any voter suppression, or do you not know whether or not those 
laws are being enforced?
    Mr. Whitaker. I don't believe I said that I am not aware 
that there might have been voter suppression. Did I--that is 
something you heard me say?
    Mrs. McBath. I am just asking you, might it be the case 
that you were not aware of any voter suppression?
    Mr. Whitaker. Well, at the Department of Justice, I sit 
atop a massive organization, as you can imagine, and cases 
regarding voter suppression, voter fraud, or really any 
enforcement of the Voting Rights Act or other statutes is done 
by U.S. attorneys and FBI agents that are in the district doing 
those cases. And so it would be unusual that I would have 
specific knowledge about any of the evidence in those cases. 
So, you know, obviously, we do our cases free of political 
interference, and if there is evidence of, as you suggest, 
voter suppression, and we can predicate investigation, that is 
something we will seriously look at.
    Mrs. McBath. So did the Department assess the need for 
election monitors in the 2019 elections?
    Mr. Whitaker. I think I--I mentioned in my opening 
statement that we sent out 35 Civil Rights Divisions teams to I 
believe 19 States, if I remember right. I might be wrong, and I 
would refer you back to my statement, but I--we did send out 
election monitors from the Civil Rights Division.
    Mrs. McBath. Okay. Because I was in Georgia, and I can tell 
you, I saw the problems, but I didn't see the election 
monitors. Did you send any that you are aware of?
    Mr. Whitaker. As I sit here today, I do not know if Georgia 
received what I am describing. Obviously, we would have--we 
would have--the Civil Rights Division would have determined 
where those assets could be deployed. I know in the 2004 
election when I was U.S. attorney, the Civil Rights Division 
sent, I think, three or four lawyers to my office to monitor 
the elections in Des Moines, so I wouldn't be surprised that 
they did send election monitors to Georgia.
    Mrs. McBath. Well, I can tell you, I--I really think that 
we needed them, and I am very disappointed in the numbers that 
we received. We needed far more help than we--than we got.
    But also, on February 1, the committee sent you a letter 
asking again for information on the Department's voting rights 
enforcement, and these questions were asked by members during 
the 115th Congress but were never answered. Will you commit to 
providing this information for this committee?
    Mr. Whitaker. We try to respond to all the letters we 
receive from Congress. Obviously, February 1 was I believe only 
a--a week or so ago. I have kind of lost track of what day it 
is, but yeah. I mean, we will--we will look at that letter and 
we will respond consistent with the way we respond to requests 
from Congress. But I mean, these are important issues, and I--
and I share your concern about some of these places where there 
is alleged voter suppression. And I know that we are going to 
enforce the voters rights, the Voting Rights Act robustly, and 
we will continue--again, if--if there is evidence, we should 
get that to our FBI and the people that enforce these laws so 
we can properly predicate an investigation.
    Mrs. McBath. Okay. Well, thank you for that, because if we 
don't get answers, I promise you, we will keep asking.
    Another question that I have is what steps did the 
Department take to support election security efforts during the 
2018 election, specific efforts?
    Mr. Whitaker. Are you talking about the actual voting 
devices----
    Mrs. McBath. Yes.
    Mr. Whitaker [continuing]. Or--the responsibility for the 
security of the voting devices, the machines, is actually the 
responsibility of the Department of Homeland Security.
    Mrs. McBath. Uh-huh. Can you tell this committee what 
those--what those responsibilities were, those steps that were 
actually taken? Because I can tell you, there were many, many 
instances in Georgia we saw over and over again where people 
were not allowed to vote.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentleman--the witness may answer the question.
    Mr. Whitaker. Again, if there is specific evidence that 
crimes have been committed, we would be very interested in that 
at the Department of Justice.
    Mrs. McBath. Thank you.
    Chairman Nadler. Thank you.
    Ms. Stanton--Mr. Stanton.
    Mr. Stanton. Thank you very much, Mr. Chair.
    Mr. Whitaker, thank you for appearing before us here today. 
Your time as Acting Attorney General is near end. After that, 
you may or may not be working for the Department of Justice or 
another position within the Trump administration, but there 
are, of course, several congressional investigations that 
involve yourself. And I want you here today to pledge that you 
will answer any Inspector General questions and cooperate fully 
with his investigations even after you depart from your current 
position.
    Mr. Whitaker. Are you talking about the DOJ Office of 
Inspector General?
    Mr. Stanton. Yes, sir. The Justice Department's Inspector 
General is currently considering several congressional requests 
for information and investigations that involve you. Since you 
will be leaving this position soon, I want you to commit here 
today in front of this committee that you will answer the IG's 
questions and cooperate fully with those investigations.
    Mr. Whitaker. I am happy to commit to that. I will 
cooperate with the Inspector General. Michael Horowitz is a 
fine DOJ career employee. I have the utmost respect for him. I 
think he has done exceptional work.
    Mr. Stanton. Excellent. Thank you so much.
    The impact of the government shutdown on the functioning of 
the Department of Justice, the law enforcement functions, is it 
fair to say that the shutdown was devastating on the ability of 
the Department to do their work?
    Mr. Whitaker. The shutdown really was a difficult time at 
the Department of Justice, because most of our employees are 
law enforcement and are--you know, are excepted in their 
performance of their duties, and so they showed up every day 
like dedicated public servants and did their job knowing that 
you here in Congress would ultimately pay them and come to some 
resolution of the shutdown.
    Mr. Stanton. We appreciate your recognition of that. I 
think every person up here, in a bipartisan way, would agree 
that the work of the rank-and-file members of the Department of 
Justice, FBI, the other law enforcement officials is 
outstanding. It seems appropriate, then, that the Department 
did issue a memorandum saying that, during the time of the 
shutdown, ancillary functions of the Department that involve 
travel would be not allowed. Is that accurate?
    Mr. Whitaker. I don't have that memo in front of me, but 
that is consistent with my understanding of our guidance in 
that regard.
    Mr. Stanton. On January 13, 2019, in the middle of the 
government shutdown, did you travel to give a speech to The 
Heritage Foundation?
    Mr. Whitaker. Congressman, this is an important question, 
but I want to be very clear. I have 24/7 security detail that--
that drives me everywhere, and so the term ``travel,'' I am not 
sure what you mean. I went to Capitol Hill to give a speech to 
The Heritage Foundation, yes.
    Mr. Stanton. Okay. Would you consider that activity, a 
speech to The Heritage Foundation, to be an ancillary function 
of the Department?
    Mr. Whitaker. You know, Congressman, again, I had no other 
way to get to a speech that I had committed to give before the 
shutdown.
    Mr. Stanton. Thank you. The speech involved the topic of 
RFRA and the Commemorate RFRA. In October 2017, during the time 
that you were Chief of Staff to the Attorney General, the 
Attorney General's office did issue guidance on the--on Federal 
law for religious liberty. The guidance involved expansion of 
exemptions to RFRA at a religious liberty summit held in the 
summer of 2018. Attorney General Sessions announced the 
formation of the Religious Liberty Task Force to further 
coordinate implementation of the guidance across the Federal 
departments at agencies. It is fair to say that there has been 
limited public information on the task force and its work. The 
only public documentation is a 2-page memorandum issued 
establishing the task force. Are you aware of any additional 
documents or guidance that further explain the task force's 
mandate and processes?
    Mr. Whitaker. No, I am not familiar with any additional----
    Mr. Stanton. Do you know what the budget is of the task 
force?
    Mr. Whitaker. I do not believe, as I sit here today, that 
we have actually effectuated the task force yet, and so I 
don't--you know, again, it is going to be an internal task 
force that would come--that would have no specific separate 
budget.
    Mr. Stanton. Will you commit that during the remaining time 
that you are attorney--Acting Attorney General to provide to 
this committee any additional details regarding that task 
force, which has been in place now for, I guess, 7 months or 
more?
    Mr. Whitaker. Yes. Congressman, I will be happy to follow 
up in writing with you or someone from the Office of 
Legislative Affairs about that religious liberty task force.
    Mr. Stanton. Recently, HHS interpreted RFRA to allow a 
Christian-based foster cage--foster care agency that does 
receive Federal tax dollars to discriminate against a potential 
foster parent because they happened to be Jewish. Do you know 
if the Justice Department stands behind this HHS determination 
that a taxpayer subsidized organization can discriminate 
against a Jewish individual?
    Mr. Whitaker. I am certain that the Department of Justice 
will defend that--that position of a--of a sister agency.
    Mr. Stanton. Thank you very much.
    Chairman Nadler. The time of the gentleman has expired.
    Ms. Dean.
    Ms. Dean. Thank you, Mr. Chairman, and thank you, Mr. 
Whitaker, for agreeing to appear before us today. And I am 
delighted to hear of your Department's focus on the scourge of 
gun violence, and so I look forward to your full endorsement 
and support for H.R. 8, the universal background check bill.
    Today you said a couple of things that really touched me. 
You said that you have to set the tone of the Department, and 
you said that the job you are doing now is the honor of a 
lifetime. All of us here can quite imagine that. I believe that 
actually you do, as the head, as the Acting AG, set the tone 
for the Department.
    Tell me--and this is not a negative question. It is just a 
factual question--how many positions did you interview for with 
this administration prior to you going to the Department of 
Justice?
    Mr. Whitaker. As we previously explored with one of your 
colleagues, I had interviewed preliminarily for the position 
that ultimately Ty Cobb occupied and then Emmett Flood I think 
currently occupies, and then I interviewed with General 
Sessions and some of his staff for the chief of staff job. So 
in fact, I--I had never--after the election of 2016, I had 
never intended to come into the administration, but I was--you 
know, I was--I was happy to be asked, and I explored 
opportunities. And those are the two that I interviewed for.
    Ms. Dean. And in the meantime, in your private life, you 
became a commentator on CNN and other places, and you 
disparaged the Mueller investigation. Is that true?
    Mr. Whitaker. I used my experience as a United States 
attorney----
    Ms. Dean. Is it true? Yes or no?
    Mr. Whitaker. No. I wouldn't characterize it as 
disparagement, no. I--I think I tried to explain to the 
American people, when I was on CNN and--and other outlets, how 
the process worked, how the process for appointment, how the 
process for----
    Ms. Dean. No, I am not asking you about process. I am 
asking you about the subject and the investigation and--and the 
validity of the investigation. We know--the record is public--
that you did say very negative things in your private life, and 
you have said today you are not willing to take those back, so 
they stand. Your thoughts on the Mueller investigation are 
fully public and they stand because you did not take them back 
today.
    How did you learn of the extraordinary honor that was 
bestowed upon you? How did you learn you got the job?
    Mr. Whitaker. You know, I can't remember if it was--which 
preceded which, but I--I believe I received a phone call from 
the President of the United States asking me to be the Acting 
Attorney General.
    Ms. Dean. A moment ago you said you learned by tweet. Did I 
misunderstand you?
    Mr. Whitaker. Yeah, I think you did.
    Ms. Dean. Okay. So it was--you learned first by a phone 
call from the President?
    Mr. Whitaker. I believe so, but they were very close in 
time, and so I--actually as I sit here right now, I can't 
remember which preceded which.
    Ms. Dean. Okay. And how long was that phone call? Was it 
just simply, I am letting you know of this, or was there 
substantive conversation about your role?
    Mr. Whitaker. Well, I am not going to discuss the private 
conversations I have had with the President. I think it is 
important that he is entitled to that confidentiality from a 
Cabinet secretary, even acting like I am.
    Ms. Dean. Okay. Tell me your----
    Mr. Whitaker. I will tell you that it was not a substantive 
phone call.
    Ms. Dean. It was an honorary--an honor phone call, 
probably.
    And following that and the tweet, when did you next meet 
with the President about your job? Because it is during this 
time you have to decide----
    Mr. Whitaker. Congresswoman, I don't remember.
    Ms. Dean. It was during this time, in that month or more, 
that you have to decide whether or not to recuse. Am I right? 
So how many times did you meet with the President prior to your 
decision not to recuse?
    Mr. Whitaker. Congresswoman, while I am not going to 
discuss any meetings that I have had with the President nor 
conversations, I will tell you that I--I--I interact with the 
President on a regular basis, including after I was appointed 
Acting Attorney General.
    Ms. Dean. You said you set the tone for the entire 
Department, and so you had to carefully consider whether or not 
to recuse yourself from any dealings with Robert Mueller----
    Mr. Whitaker. Yeah. I spent 5 weeks--I spent 5 weeks 
considering that question.
    Ms. Dean [continuing]. Five weeks determining that. And you 
got information from two sources, that we know of. Career 
officials at the Justice Department recommended you recuse 
yourself to avoid the appearance of a conflict or bias. Is that 
correct? And that was on December 19. To avoid even the 
appearance of a conflict or bias, based on your previous 
statements. Is that correct? Is that the advice you got?
    Mr. Whitaker. Congresswoman----
    Ms. Dean. It is a yes or no, please. My time is running 
out.
    Mr. Whitaker. Congresswoman, I would just point you to the 
letter----
    Ms. Dean. And I have waited a long time. Please. It is a 
yes or no.
    Chairman Nadler. Answer the question.
    Mr. Whitaker. This--this question is not a yes or no 
because it is--it--you have to understand how it was my 
decision to make.
    Ms. Dean. I am not talking about your decision. I am 
talking about the guidance that you received, not your 
decision.
    Mr. Whitaker. It was not their decision to make.
    Ms. Dean. No, no, no. I am asking you factually about the 
guidance you received. Career officials told you you should 
recuse to avoid even the appearance of an impropriety of bias, 
and you set the tone for your Department. Am I correct?
    Mr. Whitaker. Congresswoman, they told me it was a close 
call. They said it could go either way, and they said----
    Ms. Dean. So to set the tone, you think on a close call, 
you go the other way?
    Mr. Whitaker. As the Attorney General, and not to bind my 
successors, yes, I believe on a close call as the Attorney 
General of the United States that I made the right decision. It 
was my decision to make.
    Ms. Dean. And yet you had--have I lost my time, Mr. 
Chairman?
    Chairman Nadler. Get this question out, and I will let him 
answer it, and that will be that.
    Ms. Dean. Would you be able to provide us the written 
guidance that you got from the career professionals in terms of 
recusal? They recommended recusal. Would you please provide 
this committee that written document?
    Mr. Whitaker. Congresswoman, that would require me to 
provide you internal deliberations that are not typically 
provided in this relationship, but I can tell you, as we sit 
here today, I did not receive any written advice from the 
career ethics officials.
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Dean. Thank you, Mr. Chairman.
    Chairman Nadler. You are welcome.
    Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    Mr. Whitaker, I want to go back to your time when you 
worked for the Foundation for Accountability and Civil Trust. I 
worked for many, many years for various 501(c)(3)s, so I--it is 
very interesting to me, when I look at the board, is this a 
private or a public foundation? FACT, is that--the 501(c)(3). 
Is it a private or a public?
    Mr. Whitaker. It is a 501(c)(3). I don't know.
    Ms. Mucarsel-Powell. There are two separate types.
    Mr. Whitaker. Congresswoman, I don't have the 990 filings 
or----
    Ms. Mucarsel-Powell. But you worked there from 2014 to 
2017?
    Mr. Whitaker. I was.
    Ms. Mucarsel-Powell. And you were the executive director 
for the foundation.
    Mr. Whitaker. Yes, I was.
    Ms. Mucarsel-Powell. But you don't know if it is a private 
or a public?
    Mr. Whitaker. I haven't worked for FACT in 16 months and 
I--in my preparation for this oversight hearing----
    Ms. Mucarsel-Powell. Okay. Thank you. Thank you, Mr. 
Whitaker.
    Mr. Whitaker [continuing]. I didn't review the filings, so 
I don't know which----
    Ms. Mucarsel-Powell. So were there only--thank you, Mr. 
Whitaker. Thank you.
    Were there only three board members in this 501(c)(3)?
    Mr. Whitaker. I believe there were--yes, there were three 
board members.
    Ms. Mucarsel-Powell. William Gustoff, Neil Corkery, Matthew 
Whitaker, correct?
    Mr. Whitaker. Yeah.
    Ms. Mucarsel-Powell. Okay. So it is also my understanding 
that you filed numerous FEC complaints while working there?
    Mr. Whitaker. All of our complaints were posted online.
    Ms. Mucarsel-Powell. Were they FEC complaints, Mr. 
Whitaker? You filed FEC complaints.
    Mr. Whitaker. We filed all--we filed many different types 
of complaints that were--that were very similar to----
    Ms. Mucarsel-Powell. Were--did you file FEC complaints? I 
am just--this is very--you worked as the executive director of 
this 501(c)(3). Did you file FEC complaints? Very----
    Mr. Whitaker. Yes.
    Ms. Mucarsel-Powell. Very easy----
    Mr. Whitaker. Yes. Yes. We filed FEC complaints, in 
addition to others.
    Ms. Mucarsel-Powell. And--and who made the decision to file 
these complaints?
    Mr. Whitaker. I was the executive director. I believe I 
signed all, if not all of those----
    Ms. Mucarsel-Powell. Did you make the sole decision to file 
these complaints or were you directed----
    Mr. Whitaker. No.
    Ms. Mucarsel-Powell [continuing]. By any----
    Mr. Whitaker. I was not directed. I--I was the executive--
--
    Ms. Mucarsel-Powell. You did that on your own?
    Mr. Whitaker. Yes. We were an independent nonpartisan----
    Ms. Mucarsel-Powell. 501(c)(3). Nonpartisan.
    Mr. Whitaker. Ethics watchdog, yes.
    Ms. Mucarsel-Powell. It is a nonpartisan.
    Did you file any FEC complaints against any Republicans?
    Mr. Whitaker. As I sit here today, I don't recall, but I 
mean, all of our complaints----
    Ms. Mucarsel-Powell. Okay.
    Mr. Whitaker [continuing]. Are posted online.
    Ms. Mucarsel-Powell. Thank you. Thank you, Mr. Whitaker.
    I would like to ask for unanimous consent to make part of 
the record the restriction of political campaign intervention 
by section 501(c)(3) tax-exempt organizations, and it reads: 
Under the Internal Revenue Code, all section 501(c)(3) 
organizations are absolutely prohibited from directly or 
indirectly participating in or intervening in any political 
campaign on behalf of or in opposition to any candidate for 
elected public office.
    Chairman Nadler. Without objection.
    [The information follows:]
      

                      MS. MUCARSEL-POWELL FOR THE

                            OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Mucarsel-Powell. Thank you.
    I have some other questions here, if you give me some time. 
All this time I am waiting, and I can't find the--the 
questions. No. No. Thank you.
    This pertains to also an issue that is very close and dear 
to my heart, LGBTQ issues. In October 2017, the Department of 
Justice withdrew a 2014 memo which stated that the best reading 
of the Title VIII--Title VII prohibition on sexual 
discrimination in the workplace encompasses antitransgender 
discrimination. The new memo instructs the Department of 
Justice attorneys to now argue that Federal law does not 
protect transgender workers from discrimination.
    Are you familiar with both memos?
    Mr. Whitaker. Yes, I am familiar with those memos that do 
not extend Title VII to LGBTQ.
    Ms. Mucarsel-Powell. Thank you. And at the time of the 
reversal, were you serving as the chief of staff for Attorney 
General Sessions, correct?
    Mr. Whitaker. I served as chief of staff from October 4 of 
2017 until I was appointed Acting Attorney General in 2018.
    Ms. Mucarsel-Powell. So who ordered the reversal of this 
policy?
    Mr. Whitaker. I am--I am certain it was Attorney General 
Sessions who sets the entire policy for the Department of 
Justice.
    Ms. Mucarsel-Powell. And who drafted the new memo?
    Mr. Whitaker. I don't have--as I sit here today, I--I don't 
have any idea. That would be deliberative work done by, I am 
sure, many people at the Department of Justice.
    Ms. Mucarsel-Powell. Any outside groups that were involved 
in the process?
    Mr. Whitaker. Not that I am aware of, but again, I wasn't--
I wasn't directly----
    Ms. Mucarsel-Powell. And do you stand by the Department's 
decision to reserve its position that Title VII protects 
transgender people from discrimination?
    Mr. Whitaker. Congresswoman, I think a plain reading----
    Ms. Mucarsel-Powell. Please just answer the question. Do 
you stand by the Department's decision to reverse its position 
that Title VII protects transgender people from discrimination?
    Mr. Whitaker. If Congress wants Title VII to extend to 
transgender people, you can change the law. We cannot read into 
something that is not the law.
    Ms. Mucarsel-Powell. So I take that as yes. Okay.
    Do you believe that members of the LGBTQ community should 
not be protected under Federal discrimination laws?
    Mr. Whitaker. Again, Congresswoman, I personally believe 
that discrimination of any kind shouldn't happen, but I will 
tell you that Title VII----
    Ms. Mucarsel-Powell. Mr. Whitaker, yes or no, please. I 
don't have much time. Do you believe that members of the LGBT 
community should not be protected under Federal discrimination 
laws?
    Mr. Whitaker. The plain reading----
    Ms. Mucarsel-Powell. Yes or no.
    Mr. Whitaker. The plain reading----
    Ms. Mucarsel-Powell. Yes or no.
    Mr. Whitaker [continuing]. Of Title VII----
    Ms. Mucarsel-Powell. Yes or no.
    Mr. Whitaker [continuing]. Does not extend----
    Ms. Mucarsel-Powell. Okay. Thank you.
    Mr. Whitaker [continuing]. To transgender, and you uniquely 
control what is the law. We merely enforce the law.
    Ms. Mucarsel-Powell. Do I still have time, Mr. Chairman?
    Chairman Nadler. The gentlelady's time has expired.
    Ms. Escobar.
    Ms. Escobar. Thank you, Mr. Chairman.
    Mr. Whitaker, this hearing began this morning at 9:30. I 
have been waiting almost 6 hours. It is nearly 3:30 in the 
afternoon. I have been waiting nearly 6 hours to ask my 
questions. I am going to ask you for a favor. Out of respect 
for this committee, out of respect for me as a Member of 
Congress, I am going to ask that you try not to run out the 
clock and that you please answer my questions with a yes or a 
no, and if I have a followup, that you please answer the 
followup as succinctly as possible.
    Mr. Whitaker. Congresswoman, with all due respect----
    Ms. Escobar. I am sorry. Excuse me. If I could please get 
my statement out, sir.
    Mr. Whitaker. With all due respect, I am going to answer 
your questions.
    Ms. Escobar. I have watched you do that to every member on 
this committee. I am asking that you please----
    Mr. Whitaker. Because a lot of questions don't have yes no 
answers.
    Chairman Nadler. The time belongs to the member.
    Ms. Escobar. Thank you.
    I represent El Paso, Texas. I live on the safe, secure, 
vibrant U.S.-Mexico border. Unfortunately, my community, one of 
tremendous goodwill and generosity, has been ground zero for 
many of this administration's cruel anti-immigrant, anti-
American policies, including family separation, child detention 
in tents, the ongoing prevention of asylum seekers from 
stepping foot on American soil at our ports of entry, and in 
December, the death of two immigrant children in U.S. custody.
    Earlier, you said you believed every life is valuable, and 
I would hope and assume that that includes the lives of the 
most vulnerable among us.
    There is a new policy that is about to unfortunately be 
rolled out in my community called the Migrant Protection 
Protocol, which I believe is a misnomer for a dangerous and, in 
some cases, deadly and I believe also an illegal policy that 
allows our government to return migrants and asylum seekers 
back to Mexico while they await their asylum hearing.
    Here is my question. Because the Department of Justice 
oversees the Executive Office for Immigration Review, will the 
Department of Justice ensure that asylum seekers have access to 
counsel in Mexico in order to allow them to prepare for their 
hearings? Yes or no.
    Mr. Whitaker. We are going to continue to follow the 
policies at EOIR that are currently in place.
    Ms. Escobar. Will you facilitate, assist, help ensure that 
asylum seekers have access to legal counsel in Mexico? Yes or 
no.
    Mr. Whitaker. Congresswoman, there is a very well-defined 
process for asylum seekers to obtain counsel and we are going 
to continue to follow that. I----
    Ms. Escobar. Mr. Whitaker, even while they are in Mexico?
    Mr. Whitaker. As the Acting Attorney General, I--I cannot 
make an assurance, especially regarding what happens in a 
foreign country. I mean, I--I know you understand that.
    Ms. Escobar. And this is part of the reason why this is 
such a terrible policy.
    Another question. About a week after the policy was 
announced, reports surfaced that immigrant rights advocates and 
attorneys were denied entry into Mexico. The attorneys said 
their passports had been flagged, and reports also indicated 
that this was not an issue on the Mexican side, but it was on 
the U.S. side. Did the Department of Justice have anything to 
do with flagging these passports?
    Mr. Whitaker. Congresswoman, I am not familiar with the 
situation you are describing, but I am happy to look into it 
and get back to you.
    Ms. Escobar. Thank you.
    Another question related to this issue. Does the Department 
of Justice have an immigrant advocate watch list?
    Mr. Whitaker. Congresswoman, I am not aware of the question 
you are asking me, the answer to it, so I am happy to look into 
it and get back to you, but I just----
    Ms. Escobar. Thank you. I appreciate that.
    Mr. Whitaker. That is not something that sounds familiar 
and that I prepared for today.
    Ms. Escobar. I look forward to the answers to those 
questions.
    Now, switching gears a little bit. At the President's State 
of the Union address, he claimed that my community, El Paso, 
Texas, quote, used to have extremely high rates of violent 
crime, one of the highest in the entire country, end quote, and 
he claimed that we became one of the safest communities in 
America because of the wall.
    Data from the FBI's Uniform Crime Reporting Program shows 
that El Paso has historically been one of the safest 
communities in the--in the Nation and that we were such long 
before a wall was constructed. Do you have any reason to 
disagree with the FBI's Uniform Crime Reporting data?
    Mr. Whitaker. Congresswoman, we use the UCR on a regular, 
ongoing basis to not only know where our crime hot spots are, 
but to also put our resources at the Department of Justice.
    Ms. Escobar. Sir, that is not my question. Let me repeat my 
question.
    Mr. Whitaker. Okay.
    Ms. Escobar. Do you have any reason to disagree with the 
FBI's Uniform Crime Reporting data?
    Mr. Whitaker. Congresswoman, I think the UCR----
    Ms. Escobar. Do you have any reason, sir, to disagree with 
your FBI's data?
    Mr. Whitaker. As I sit here today----
    Ms. Escobar. Yes or no.
    Mr. Whitaker [continuing]. I do not have any reason to 
disagree----
    Ms. Escobar. Okay. Great. Perfect.
    Mr. Whitaker [continuing]. With the FBI's data.
    Ms. Escobar. Thank you very much.
    Switching gears again. Did you ever create----
    Chairman Nadler. The gentlelady's time has expired. I will 
let her finish this one question.
    Ms. Escobar. Thank you, Chairman.
    Did you ever create, direct the creation of, see, or become 
aware of the existence of any documents relating to pardons of 
any individual?
    Mr. Whitaker. I am aware of documents relating to pardons 
of individuals, yes.
    Chairman Nadler. The gentlelady's time as expired.
    I am going to ask one question to follow up on the 
gentlelady's. Sir, since it is, well, black letter law that 
someone in the United States may apply for asylum, that any 
person who applies for asylum and states a reason therefore is 
entitled to have that claim adjudicated, that that person is 
entitled to legal assistance as that claim is adjudicated, 
doesn't it strike you that a policy that says that people who 
set foot on American soil and claim asylum will be sent to a 
foreign country where they may not have access to legal help 
which they are constitutionally guaranteed for their asylum 
adjudication may have a constitutional problem?
    Mr. Whitaker. Congressman, I am sure you are aware that 
Federal law allows asylum seekers to be returned to a safe 
third country.
    Chairman Nadler. I am not aware, though, that it allows 
people not to--that it allows the government to do something 
that effectively eliminates their right to counsel for their 
asylum claim.
    This concludes today's hearing. I want to thank all the 
members who are still here for their patience and their 
fortitude. I want to thank Attorney General Whitaker for 
appearing today.
    Ms. Jackson Lee. Mr. Chairman?
    Chairman Nadler. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you. I am not asking--I am putting 
these questions on the record.
    Chairman Nadler. Excuse me. Submit them for the record.
    Without objection, the questions are admitted.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Jackson Lee. And the article--and two articles, 
articles--three articles, for the record, GQ, Washington Post, 
New York Times, and also an article by Shane Crouch.
    Chairman Nadler. Without objection, the articles are 
admitted.
    [The information follows:]
      

                MS. JACKSON LEE FOR THE OFFICIAL RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. Before we adjourn, I want to note for the 
record that--Mr. Whitaker, that you owe us responses on a 
number of issues raised here today, responses that we intend to 
secure, including but not limited to the times and dates you 
were briefed on the special counsel's investigation, your 
communications with the President after you received those 
briefings, the basis for your statement that the special 
counsel's investigation is reaching its conclusion, and whether 
you told the special counsel not to take any specific 
investigative or prosecutorial steps.
    I would also note that your testimony was, at best, 
inconsistent on the topic of your communications with the White 
House prior to your tenure at the Department. It is not 
credible that you both interviewed for a job handling the 
President's response to the special counsel's investigation and 
never conveyed your opinions about that investigation to the 
White House.
    We require answers to these questions. I ask the Department 
to work with the committee to provide them. As part of that 
work, I fully intend to call you back for an interview under 
subpoena, if necessary, and I expect more fulsome answers at 
that time.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And with the thanks of the chairman, the hearing is 
adjourned.
    [Whereupon, at 3:23 p.m., the committee was adjourned.]
      

                                APPENDIX

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
